<html>
<title> - PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


        PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2020

=======================================================================

                                (116-47)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                            JANUARY 9, 2020
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
42-134 PDF                WASHINGTON : 2020   




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania


            Subcommittee on Water Resources and Environment

 GRACE F. NAPOLITANO, California, 
               Chair
BRUCE WESTERMAN, Arkansas            DEBBIE MUCARSEL-POWELL, Florida, 
DANIEL WEBSTER, Florida              Vice Chair
THOMAS MASSIE, Kentucky              EDDIE BERNICE JOHNSON, Texas
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
BRIAN BABIN, Texas                   JARED HUFFMAN, California
GARRET GRAVES, Louisiana             ALAN S. LOWENTHAL, California
DAVID ROUZER, North Carolina         SALUD O. CARBAJAL, California
MIKE BOST, Illinois                  ADRIANO ESPAILLAT, New York
RANDY K. WEBER, Sr., Texas           LIZZIE FLETCHER, Texas
DOUG LaMALFA, California             ABBY FINKENAUER, Iowa
BRIAN J. MAST, Florida               ANTONIO DELGADO, New York
GARY J. PALMER, Alabama              CHRIS PAPPAS, New Hampshire
JENNIFFER GONZALEZ-COLON,            ANGIE CRAIG, Minnesota
  Puerto Rico                        HARLEY ROUDA, California
SAM GRAVES, Missouri (Ex Officio)    FREDERICA S. WILSON, Florida
                                     STEPHEN F. LYNCH, Massachusetts
                                     TOM MALINOWSKI, New Jersey
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Bruce Westerman, a Representative in Congress from the State 
  of Arkansas, and Ranking Member, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     3
    Prepared statement...........................................     3
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure, prepared statement.............................    61
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    62

                               WITNESSES

Hon. R.D. James, Assistant Secretary of the Army for Civil Works, 
  Office of the Assistant Secretary of the Army (Civil Works):

    Oral statement...............................................    11
Lieutenant General Todd T. Semonite, Chief of Engineers, U.S. 
  Army Corps of Engineers:

    Oral statement...............................................    13
    Prepared joint statement of Hon. James and Lieutenant General 
      Semonite...................................................    15

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Grace F. Napolitano:

    Statement of the United Steelworkers.........................     4
    U.S. Army Corps of Engineers Summary of Chief's Reports and 
      Post-Authorization Change Reports..........................     6
Letter of December 19, 2019, from Hon. Tom O'Halleran, a 
  Representative in Congress from the State of Arizona et al., 
  Submitted for the Record by Hon. Greg Stanton..................    48

                                APPENDIX

Questions to Hon. R.D. James, Assistant Secretary of the Army for 
  Civil Works, Office of the Assistant Secretary of the Army 
  (Civil Works) and Lieutenant General Todd T. Semonite, Chief of 
  Engineers, U.S. Army Corps of Engineers, from:

    Hon. Grace F. Napolitano.....................................    63
    Hon. Adriano Espaillat.......................................    64
    Hon. Lizzie Fletcher.........................................    65
    Hon. Bruce Westerman.........................................    65
    Hon. Paul Mitchell...........................................    67
    Hon. Mike Bost...............................................    67
    Hon. Jenniffer Gonzalez-Colon................................    67

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            January 3, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Water Resources and 
Environment
    FROM:  LStaff, Subcommittee on Water Resources and 
Environment
    RE:      LSubcommittee Hearing on ``Proposals for a Water 
Resources Development Act of 2020''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Water Resources and Environment will 
meet on Thursday, January 9, 2020, at 10:00 a.m. in 2167 
Rayburn House Office Building to receive testimony from the 
U.S. Army Corps of Engineers (Corps) on the 2019 Report to 
Congress on Future Water Resources Development [authorized 
under section 7001 of the Water Resources Reform and 
Development Act of 2014 (P.L. 113-121)] and several reports of 
the Chief of Engineers (Chief's Reports) on individual water 
resources development projects submitted to Congress for 
authorization. This hearing is intended to provide Members with 
an opportunity to review these reports, review the process the 
Corps undertakes for developing its projects, and identify 
future needs to inform the development of a new Water Resources 
Development Act (WRDA), which the Committee expects to develop 
and approve in 2020.

                               BACKGROUND

    The Corps is the Federal government's largest water 
resources development and management agency. The Corps began 
its water resources program in 1824 when Congress, for the 
first time, appropriated funds for improving river navigation. 
Since then, the Corps' primary missions have expanded to 
address river and coastal navigation, reduction of flood damage 
risks along rivers, lakes, and the coastlines, and projects to 
restore and protect the environment.
    Along with these missions, the Corps generates hydropower, 
provides water storage opportunities to cities and industry, 
regulates development in navigable waters, assists in national 
emergencies, and manages a recreation program. Today, the Corps 
is comprised of 38 district offices within eight divisions; 
operates more than 700 dams; has constructed 14,500 miles of 
levees; and maintains more than 1,000 coastal, Great Lakes, and 
inland harbors, as well as 12,000 miles of inland waterways. To 
achieve its mission, the Corps plans, designs, and constructs 
water resources development projects. The Corps planning 
process seeks to balance economic development and environmental 
considerations as it addresses water resources challenges. This 
process is intended to approach the Nation's water resources 
needs from a systems perspective and evaluate a full range of 
alternatives in developing solutions.
    The first step in a Corps project is to study the 
feasibility of the project. This can be done in two ways. One, 
if the Corps has previously conducted a study in the area of 
the proposed project, the new study can be authorized by a 
resolution of either the House Committee on Transportation and 
Infrastructure or the Senate Committee on Environment and 
Public Works (pursuant to 33 U.S.C. 542); however, the 
Committee on Transportation and Infrastructure has not adopted 
a new study resolution since 2010. Two, if the area has not 
been previously studied by the Corps, then an Act of Congress 
is necessary to authorize the study--usually through a WRDA 
bill.
    Typically, the Corps enters into a cost-sharing agreement 
with the non-Federal project sponsor to initiate the 
feasibility study process. The cost of a feasibility study is 
shared 50 percent by the Federal government (subject to 
appropriations) and 50 percent by the non-Federal project 
sponsor.
    Since February 2012, the Corps' feasibility studies have 
been guided by the ``3x3x3 rule,'' which states that 
feasibility reports should, generally, be produced in no more 
than three years; with a cost not greater than $3 million; and 
involve all three levels of Corps review--district, division 
and headquarters--throughout the study process.\1\ The 3x3x3 
process was codified in section 1001 of the Water Resources 
Reform and Development Act of 2014 (WRRDA 2014).
---------------------------------------------------------------------------
    \1\ https://planning.erdc.dren.mil/toolbox/library/MemosandLetters/
USACE_CW_FeasibilityStudyProgramExecutionDelivery.pdf.
---------------------------------------------------------------------------
    During the feasibility study phase, the corresponding 
Corps' district office prepares a draft study report containing 
a detailed analysis on the economic costs and benefits of 
carrying out the project and identifies any associated 
environmental, social, or cultural impacts. The feasibility 
study typically describes with reasonable certainty the 
economic, social, and environmental benefits and detriments of 
each project alternatives being considered, and identifies the 
engineering features, public acceptability, and the purposes, 
scope, and scale of each. The feasibility study also includes 
any associated environmental impact statement and a mitigation 
plan. It also contains the views of other Federal and non-
Federal agencies on project alternatives, a description of non-
structural alternatives to the recommended plans, and a 
description of the anticipated Federal and non-Federal 
participation in the project.
    After a full feasibility study is completed, the results 
and recommendations of the study are submitted to Congress in 
the form of a report approved by the Chief of Engineers 
(referred to as a Chief's Report). If the results and 
recommendations are favorable, then the subsequent step is 
Congressional authorization for construction of the project. 
Typically, project authorizations are contained in WRDAs, the 
most recent of which was enacted in 2018 as Title I of the 
America's Water Infrastructure Act of 2018 (P.L. 115-270).
    The Corps is subject to all relevant Federal statutes, 
including the National Environmental Policy Act (NEPA), the 
Clean Water Act, the Endangered Species Act, the Fish and 
Wildlife Coordination Act, previous WRDAs, Flood Control Acts, 
and Rivers and Harbors Acts. These laws and associated 
regulations and guidance provide the legal basis for the Corps 
planning process.
    For instance, when carrying out a feasibility study, NEPA 
requires the Corps to include: an identification of significant 
environmental resources likely to be impacted by the proposed 
project; an assessment of the project impacts; a full 
disclosure of the likely impacts; and a consideration of the 
full range of alternatives, including a No Action Alternative. 
Importantly, NEPA also requires a 30-day public review of any 
final document produced by the Corps. Additionally, when 
carrying out a feasibility study, section 401 the Clean Water 
Act requires an evaluation of the potential impacts of the 
proposed project or action and requires a letter from a State 
agency certifying the proposed project or action complies with 
State water quality standards.
    The Corps must also adhere to the ``Economic and 
Environmental Principles and Guidelines for Water and Related 
Land Resources Implementation Studies'' (P&G) developed in 
1983. Congress directed the Corps to update the P&Gs, 
consistent with the requirements of section 2031 of WRDA 2007 
(Pub. L. 110-114). The P&Gs were updated in 2014 with the 
intention that water resources projects reflect national 
priorities, encourage economic development, and protect the 
environment. The P&G is intended to ensure proper and 
consistent planning by all Federal agencies engaged in the 
formulation and evaluation of Federal water resources 
development projects and activities and contains defined 
Federal objectives for pursuing water resources development 
projects. To date, no funds have been provided through the 
appropriations process for the Corps to carry out the updated 
P&G.
    Typically, the plan recommended by the Corps is the plan 
with the greatest net economic benefit consistent with 
protecting the environment. For projects that have multiple 
purposes, the P&G recommends that such projects maximize, to 
the greatest extent practicable, economic development and 
ecosystem restoration outputs. Additionally, the Secretary of 
the Army has the discretion to recommend an alternative, such 
as a locally-preferred plan, if there are overriding reasons 
based on other Federal, State, or local concerns.

PENDING CHIEFS' REPORTS:

    Since enactment of the most recent WRDA in 2018, Congress 
has received 17 Chief's Reports for projects in: Winslow, 
Arizona; Delta Islands and Levees, California; Pawcatuck River, 
Rhode Island; Anacostia Watershed, Maryland; Norfolk, Virginia; 
Souris River, North Dakota; Brandon Road, Illinois (Great 
Lakes/Mississippi River Interbasin Study (GLMRIS)); Yuba River, 
California; South Platte River, Colorado; Rio Grande River 
(Sandia Pueblo and Isleta Pueblo), Colorado, New Mexico, and 
Texas; East Rockaway Inlet to Rockaway and Jamaica Bay, New 
York; Jefferson County, Texas; Brazos River Floodgates and 
Colorado River Locks, Gulf Intracoastal Waterway (GIWW), Texas; 
Matagorda Ship Channel, Texas; and Meramec River (St. Louis 
Riverfront), Missouri, Hashamomuck Cove, New York; and 
Willamette River Basin Review Allocation, Oregon.

PENDING STUDIES OF WRDA PROJECTS BY NON-FEDERAL INTERESTS (SECTION 203 
                    OF WRDA 1986):

    In 2014, Congress amended section 203 of WRDA 1986 (33 
U.S.C. 2231) to authorize non-Federal interests to undertake 
Congressionally-authorized feasibility studies (in lieu of the 
Corps) and to submit these studies to the Corps for their 
review. Upon completion of this review, the Corps is required 
to submit any study completed by the non-Federal interest to 
the House Committee on Transportation and Infrastructure and 
the Senate Committee on Environment and Public Works, along 
with a report that describes whether the study is suitable for 
Congressional authorization. Should the 203 study be authorized 
by Congress (subject to resolution of any conditions or 
recommendations of the Corps), construction of the project can 
proceed in the same manner as any feasibility study carried out 
by the Corps (such as a completed Chief's Report).
    Since enactment of the most recent WRDA in 2018, the 
Committee has received 4 pending 203 studies from the Corps for 
projects in: Baptiste-Collette, Louisiana; Houma, Louisiana; 
Ft. Pierce, Florida; and Chacon Creek, Texas.

          DEFINING FUTURE NEEDS AND SECTION 7001 ANNUAL REPORT

    WRRDA 2014 established a mechanism for Corps projects and 
studies to be communicated to Congress for potential 
authorization. Section 7001 of WRRDA 2014 requires the 
Secretary of the Army to annually publish a notice in the 
Federal Register requesting proposals from non-Federal 
interests for new project authorizations, new feasibility 
studies, and modifications to existing Corps projects. Further, 
it requires the Secretary to submit to Congress and make 
publicly available a ``Report to Congress on Future Water 
Resources Development'' (Annual Report) of those activities 
that are related to the missions of the Corps and require 
specific authorization by law. The Annual Report includes 
information about each proposal, such as benefits, the non-
Federal interests, and cost share information. This information 
is meant to guide Congress to set priorities regarding which 
proposed studies, projects, and modifications will receive 
authorization in future WRDA legislation.
    Additionally, Section 7001 requires the Corps to submit to 
Congress an appendix containing descriptions of those projects 
requested by non-Federal interests that were not included in 
the Annual Report. Submission of the Annual Report (and the 
appendix) allows Congress to review all requests submitted by 
non-Federal interests to the Corps and provides a more complete 
spectrum of potential project studies, authorizations, and 
modifications.
    In recent years, the Committee has utilized the Annual 
Report as a guide from which Congress considers which studies, 
projects, and modifications will receive authorization. In June 
2019, the Corps submitted its 2019 Annual Report \2\ to 
Congress. The 7001 Annual Report for 2020 is expected in 
February 2020.
---------------------------------------------------------------------------
    \2\ https://usace.contentdm.oclc.org/utils/getfile/collection/
p16021coll5/id/35439.
---------------------------------------------------------------------------

                               CONCLUSION

    As the House Committee on Transportation and Infrastructure 
moves forward in developing the next WRDA legislation, this 
hearing is intended to provide Members with an opportunity to 
review potential project studies, authorizations, and 
modifications pending before the Committee and begin 
consideration of potential projects and policy initiatives that 
benefit the Nation.

                              WITNESS LIST

    <bullet> LThe Honorable Rickey Dale ``R.D.'' James, 
Assistant Secretary of the Army (Civil Works), Office of the 
Assistant Secretary of the Army-Civil Works
    <bullet> LLieutenant General Todd T. Semonite, Chief of 
Engineers and Commanding General, U.S. Army Corps of Engineers

 
        PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2020

                              ----------                              


                       THURSDAY, JANUARY 9, 2020

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m. in 
room 2167, Rayburn House Office Building, Hon. Grace F. 
Napolitano (Chairwoman of the subcommittee) presiding.
    Mrs. Napolitano. Good morning, and Happy New Year to all, 
and I call this hearing to order.
    Let me start by asking unanimous consent that the chair be 
authorized to declare recesses during today's hearing.
    And without objection, so ordered.
    I also ask unanimous consent that committee members not on 
the subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    Today's hearing marks the next important step of the 
subcommittee in the development of the new Water Resources 
Development Act, WRDA, 2020. This committee has worked on a 
bipartisan basis to move a Water Resources Development Act 
every 2 years. We have been very successful in enacting three 
consecutive WRDAs since 2014 because of this bipartisan effort.
    Through the biennial enactment of WRDA legislation, this 
committee has addressed local, regional, and national needs 
through authorization of new Corps projects, studies, and 
policies that benefit every corner of the Nation. I am 
committed to working with my ranking member, Mr. Westerman, and 
my committee colleagues in moving a fourth consecutive WRDA.
    And while I encourage all Members to continue the 
discussions with the local water officials and the Corps on the 
potential project requests, we are working to release 
bipartisan guidelines for potential requests in the near 
future. Since the enactment of the Water Resources Development 
Act of 2018, the Corps has completed and submitted 17 
additional Chief's Reports to Congress. These projects 
encompass flood risk management, hurricane and storm damage 
reduction, navigation, and ecosystem restoration.
    I would also state that Puerto Rico is also part of what we 
want to discuss.
    Today, subcommittee members have an opportunity to evaluate 
these reports, as well as other projects and study requests 
submitted by non-Federal interests through the 2019 Annual 
Report to Congress under section 7001 of the Water Resources 
Reform and Development Act of 2014. The 2020 Annual Report is 
due to Congress in February, and it will also be a resource for 
potential project and study requests for upcoming WRDA bills.
    Secretary James and Lieutenant General Todd Semonite, thank 
you very much for being with us today, as your input is 
critically important to the development of a new WRDA. And we 
look forward to working with both of you. However, I want to 
impress upon you the importance of timely delivery of the 2020 
report--and I guess you are working on it now--it is required 
by law to be submitted to the Congress next month.
    The WRDA has become a product of its own success. Our 
constituents demand and expect that we move forward in 
developing this legislation every Congress. They are very happy 
with it, and congratulations to both of you for doing so.
    It is why our subcommittee's agenda for the first part of 
this year will be driven by the development of a WRDA 2020 
bill.
    I want to thank the Corps in advance for their assistance. 
And I have great respect for the Corps, as a whole. Thank you 
very much.
    I look forward to working with Ranking Member Westerman, 
and thank him--and his staff--for his continuing to work on a 
bipartisan basis--and all my colleagues--on a successful WRDA 
2020.
    [Mrs. Napolitano's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
                    Water Resources and Environment
    Happy New Year. Today's hearing marks the next important step of 
this Subcommittee in the development of a new Water Resources 
Development Act for 2020.
    This Committee has worked on a bipartisan basis to move a water 
resources development act every two years. We have been successful in 
enacting three consecutive WRDAs since 2014.
    Through biennial enactment of WRDA legislation, this Committee has 
addressed local, regional, and national needs through authorization of 
new Corps projects, studies, and policies that benefit every corner of 
the nation.
    I am committed to working with my Ranking Member, Mr. Westerman, 
and my Committee colleagues in moving a fourth-consecutive WRDA.
    Since enactment of the Water Resources Development Act of 2018, the 
Corps has completed and submitted sixteen additional Chief's Reports to 
Congress. These projects encompass flood risk management, hurricane and 
storm damage reduction, navigation, and ecosystem restoration.
    Today, Subcommittee Members have an opportunity to evaluate these 
Reports, as well as other project and study requests submitted by non-
Federal interests through the 2019 Annual Report to Congress, under 
Section 7001 of the Water Resources Development Act of 2014.
    The 2020 Annual Report is due to Congress in February and will also 
be a resource for potential project and study requests for the upcoming 
WRDA bills.
    I am sure that Lieutenant General Todd Semonite, the Chief Engineer 
for the U.S. Army Corps of Engineers, who is here to testify today, 
will ensure that the 2020 Report is submitted to Congress on time this 
year.
    WRDA has become a product of its own success. Our constituents 
demand and expect that we move forward in developing this legislation 
every Congress.
    It is why our Subcommittee's agenda for the first part of this year 
will be driven by the development of a WRDA 2020 bill.
    I want to thank the Corps in advance for your assistance, and I 
look forward to working with Ranking Member Westerman and all my 
colleagues on a successful WRDA 2020.

    Mrs. Napolitano. At this time I am pleased to yield to my 
colleague, the ranking member of the subcommittee, Mr. 
Westerman, for any thoughts he may have.
    Mr. Westerman. Thank you, Chairwoman Napolitano. And we too 
look forward to working towards a successful 2020 WRDA. We look 
forward to working with you and working for our country to do 
legislation that is vitally important to the infrastructure of 
our country.
    Good morning, Secretary James and General Semonite, and 
thank you for being here today. The Corps of Engineers 
constructs projects critical to the Nation for the purpose of 
navigation, flood control, shoreline protection, hydroelectric 
power, recreation, environmental protection, restoration and 
enhancement, and fish and wildlife mitigation: quite a task 
that you have.
    Today we are going to review 17 Army Corps of Engineers 
Chief's Reports that have been delivered to Congress since WRDA 
2018 was signed into law in October of 2018. These reports are 
the result of a rigorous planning and review process. Each 
project was proposed by non-Federal interests in cooperation 
and consultation with the Corps. All of these reports, while 
tailored to meet locally developed needs, have national, 
economic, and environmental benefits.
    When constructed, Corps projects ensure that communities 
are protected from floods and our Nation remains globally 
competitive through a reliable and efficient port and inland 
waterway system. Today we will also review the 2019 Annual 
Report to Congress on Future Water Resources Development. The 
annual report enables non-Federal interests to submit to the 
Corps proposed feasibility studies and modifications to 
projects and other program authorities.
    Required by section 7001 of the 2014 Water Resources Reform 
and Development Act, the annual report enables State and local 
entities to send up projects critical to their communities, and 
provides another avenue for congressional consideration and 
authorization.
    This hearing today is an important step in Congress' 
oversight of the Corps' Civil Works program, and the reports 
reviewed today will serve as the foundation for the Water 
Resources Development Act this committee will consider later 
this year.
    Finally, General Semonite, I understand this could be your 
last time before the committee in your current capacity. I want 
to thank you for your years of service, for your considerable 
efforts to drive accountability and efficiency within the 
Corps, and for your dedication to our Nation.
    [Mr. Westerman's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Bruce Westerman, a Representative in 
 Congress from the State of Arkansas, and Ranking Member, Subcommittee 
                   on Water Resources and Environment
    The Corps of Engineers constructs projects critical to the Nation 
for the purposes of navigation, flood control, shoreline protection, 
hydroelectric power, recreation, environmental protection, restoration 
and enhancement, and fish and wildlife mitigation.
    Today we will review the 16 Army Corps of Engineers Chief's Reports 
that have been delivered to Congress since WRDA 2018 was signed into 
law in October of 2018. This is the same number of projects authorized 
by that bill, with more to be received later this year.
    These reports are the result of a rigorous planning and review 
process. Each project was proposed by non-federal interests in 
cooperation and consultation with the Corps. All of these reports, 
while tailored to meet locally developed needs, have national economic 
and environmental benefits.
    When constructed, Corps projects ensure that communities are 
protected from floods, and that our Nation remains globally competitive 
through a reliable and efficient port and inland waterway system.
    Today we will also review the 2019 Annual Report to Congress on 
Future Water Resources Development. The Annual Report enables non-
federal interests to submit to the Corps proposed feasibility studies, 
and modifications to projects and other program authorities.
    Required by Section 7001 of the 2014 Water Resources Reform and 
Development Act, the Annual Report enables state and local entities to 
send up projects critical to their communities and provides another 
avenue for Congressional consideration and authorization.
    This hearing today is an important step in Congress's oversight of 
the Corps Civil Works program, and the reports reviewed today will 
serve as the foundation for the Water Resources Development Act this 
Committee will consider later this year.
    Finally, General Semonite, I understand this could be your last 
time before this committee in your current capacity. I want to thank 
you for your years of service, your considerable effort to drive 
accountability and efficiency within the Corps, and your dedication to 
the Nation.

    Mr. Westerman. And with that, Madam Chair, I look forward 
to working with you, and yield back.
    Mrs. Napolitano. Thank you. I hadn't heard you are 
retiring, General Semonite.
    A Voice From Audience. [Inaudible.]
    Mrs. Napolitano. Fine, thank you.
    I ask unanimous consent that the following statement be 
made part of today's hearing record: a statement from the 
United Steelworkers Union supporting WRDA.
    And without objection, so ordered.
    [The information follows:]

                                 <F-dash>
Statement of the United Steelworkers, Submitted for the Record by Hon. 
                          Grace F. Napolitano
    Chairwoman Napolitano, Ranking Member Westerman, and Members of the 
Water Resources and Environment Subcommittee on behalf of the 850,000 
members of the United Steelworkers (USW), our union submits the 
following comments to the Subcommittee on Water Resources and 
Environment regarding the January 9th hearing on ``Proposals for a 
Water Resources Development Act of 2020.''
                              Introduction
    Our union supports a robust reauthorization of the Water Resources 
Development Act (WRDA) that protects and advances communities, 
America's working people, and supports the full utilization of monetary 
resources. The USW represents thousands of workers at sites directly 
affected by policies and projects included in, or excluded from, the 
Act. From worksites that depend on navigable waterways to the 
manufacturing of piping and materials, our members have a vested 
interest in this legislation.
         Full Utilization of the Harbor Maintenance Trust Fund
    As the committee is well aware, the Harbor Maintenance Trust Fund 
(HMTF) currently has an approximate $9.3 billion-dollar end of year 
surplus balance and has historically ran at a budget surplus for the 
last 40 years. This idle surplus is not being used for its intended 
purpose of investing in our Nation's ports and harbors. At the same 
time, some ports and harbors of all sizes struggle to remain 
competitive in the global shipment of goods and services or remain open 
to meet the needs of the communities that depend on a vibrant maritime 
and commercial fishing industry.\1\ Last year Chairman Peter DeFazio 
(D-OR), Committee Ranking Member Sam Graves (R-MO), Chair of the 
Subcommittee on Water Resources and Environment Grace F. Napolitano (D-
CA), Subcommittee Ranking Member Bruce Westerman (R-AR), and 
Congressman Mike Kelly (R-PA) introduced H.R. 2440, the Full 
Utilization of the Harbor Maintenance Trust Fund Act, in an effort to 
unlock these funds for their intended purpose with fewer obstacles to 
take on and complete the needed projects of our nation's harbors. The 
bill passed the House with tremendous bi-partisan support and we ask 
that you implore your colleagues in the Senate to pass it as well.
---------------------------------------------------------------------------
    \1\ https://transportation.house.gov/committee-activity/investing-
in-america-unlocking-the-harbor-maintenance-trust-fund-act
---------------------------------------------------------------------------
        Georgetown Inner Harbor Sustainable Improvement Project
    One project of importance to our union is the Inner Harbor at the 
port of Georgetown, SC.
    The break bulk port has been underutilized since 2008 when the last 
dredging took place. The costly annual dredging for the Georgetown 
Harbor is the result of 1949 decision to cut a bypass into the river 
altering the flow of the river that once naturally kept the depth of 
the port at levels allowing for commercial ship traffic, and now 
requires consistent dredging. The buildup of silt has essentially 
eliminated the use of the port for one of our employers, Liberty Steel 
who purchased the Georgetown furnace and mill in 2017. A team at 
Coastal Carolina University has identified cost effective alternatives 
that would restore the inner harbor and allow for the commercial needs 
of the steel mill.\2\ Being able to ship their scrap by ship instead of 
land would amount to significant cost savings for Liberty Steel. This 
means a more secure future for the mill and for the working people it 
supports. The additional resource would also be available to other 
industries in the region. Currently, a coalition of local labor, 
community and industry leaders believe federal funding of $1.5 million 
to complete a comprehensive study of the project could lead to a long-
term permanent solution for one of the oldest break bulk ports in the 
country. This commitment by stakeholders is strengthened by a local 
government passed 1% sales tax in 2014 for the use of capital projects, 
but there is a need to secure federal resources to augment the local 
funding and a commitment from the Army Corp of Engineers to aid in the 
development of a permanent solution to port dredging in Georgetown.
---------------------------------------------------------------------------
    \2\ https://scmaritimemuseum.org/coastal-carolina-university-study-
addressing-georgetowns-chronic-harbor-silting-issue/
---------------------------------------------------------------------------
                          Great Lakes Dredging
    The union encourages increased support for dredging projects on the 
Great Lakes. Often times our represented facilities are unable to 
maximize their loading of ships because of shallow waters of the Great 
Lakes harbors. The less full ships place an undue cost burden on those 
facilities and add to the number of ships required to move the 
material, wasting energy resources. Engineering firm OBG conducted a 
recent study in support of the Army Corps of Engineers to calculate 
dredging needs for the US Great Lakes harbors and concluded that 
increased dredging will be needed for the 2020-2030 time period.\3\ The 
unlocking of the funding needed to support this work is critical to 
communities, employers, and working people.
---------------------------------------------------------------------------
    \3\ https://dredgingandports.com/news/2019/us-great-lakes-ports-
will-require-more-dredging-data-suggests/
---------------------------------------------------------------------------
                              Buy America
    The 115th Congress passed a 5-year authorization of ``Buy America'' 
language for the Drinking Water State Revolving Fund (DWSRF).\4\ The 
USW asks you to work with your colleagues on the Energy and Commerce 
Committee and in the Senate to make this permanent. Americans' deserve 
for their federal tax dollars to be used to fund needed infrastructure 
that supports American workers and the products they make.
---------------------------------------------------------------------------
    \4\ https://www.congress.gov/bill/115th-congress/senate-bill/3021
---------------------------------------------------------------------------
                               Conclusion
    Our union supports the Corps work and the many projects that are 
vital to the environment, sustainability of our communities, and 
viability of American industry and workers. We ask that you continue 
the work to utilize available funding sources to their full capability 
and fund the projects necessary to advance working people.

    Mrs. Napolitano. I also ask unanimous consent to include in 
the record a summary prepared by the Corps of the 17 Chief's 
Reports and 9 Director's Reports that have been transmitted to 
this committee, and are awaiting congressional action through a 
new Water Resources Development Act.
    And without objection, so ordered.
    [The information follows:]

                                 <F-dash>
   U.S. Army Corps of Engineers Summary of Chief's Reports and Post-
Authorization Change Reports, Submitted for the Record by Hon. Grace F. 
                               Napolitano
                            Chief's Reports
      1.  little colorado river at winslow, navajo county, arizona
    On December 14, 2018, a report was signed recommending flood risk 
management measures for Winlsow, AZ. The recommended plan consists of 
22,570 feet of new and reconstructed levees within and near the city. 
The plan also includes a flood warning system and improving conveyance 
through channelization and removal of saltcedar under the Burlington 
Northern Santa Fe Railway bridge. Based on October 2019 price levels, 
the total initial project cost for this project is $80.7 million with 
the federal share totaling $52.5 million and the non-federal share 
totaling $28.2 million.
  2.  sacramento-san joaquin basin streams, delta islands and levees, 
                               california
    On December 18, 2018, a report was signed recommending ecosystem 
restoration improvements of 340 acres of intertidal marsh habitat in 
the Sacramento-San Joaquin Delta, an ecosystem of national significance 
where only 5 percent of the historic marsh remains. Based on October 
2019 price levels, the total initial project cost for this project, as 
recommended in the Chief's Report, is $25.8 million with the federal 
share totaling $16.7 million and the non-federal share totaling just 
under $8.1 million.
 3.  anacostia watershed restoration, prince george's county, maryland
    On December 19, 2018, a report was signed recommending ecosystem 
restoration improvements for the Anacostia River Watershed in Prince 
George's County, Maryland. The recommended plan consists of the 
restoration of 7 miles of aquatic habitat, approximately 4 miles of 
fish passage through the removal of blockages, and the reconnection of 
approximately 14 miles of restored habitat in the Northwest and 
Northeast Branches. Access of the historic range for anadromous fish 
within the Northwest Branch will increase from 21% to 83% and in the 
Northeast Branch from 10% to 90%. Based on October 2019 price levels, 
the total initial project cost for this project, as recommended in the 
Chief's Report, is just under $35.7 million with the federal share 
totaling $23.2 million and the non-federal share totaling $12.5 
million.
    4.  pawcatuck river coastal storm risk management, rhode island
    On December 19, 2018, a report was signed recommending hurricane 
and storm damage reduction measures for the Pawcatuck River, Rhode 
Island. The plan consists of elevating 247 structures and floodproofing 
21 commercial structures. Based on the October 2019 price levels, the 
total initial project cost for this project, as recommended in the 
Chief's Report, is $58.2 million with the federal share totaling $37.8 
million and the non-federal share totaling $20.4 million.
          5.  norfolk coastal storm risk management, virginia
    On February 05, 2019, a report was signed recommending hurricane 
and storm damage reduction for the City of Norfolk, Virginia. The plan 
consists of a 114 linear foot storm surge barrier with a pump and power 
station at Prettylake that would tie into a 5,642 linear feet of 
floodwall. A 6,634 linear foot storm surge barrier on the Lafayette 
River with a power station and three tide gates that would tie into 
1,535 linear feet of earthen levee. A 600 linear foot storm surge 
barrier at the Hague with a pump and power station. The surge barrier 
would tie into 27,236 linear feet of floodwall and 2,582 linear feet of 
earthen levee. There would also be three pumps constructed for interior 
drainage. A 1,291 linear foot storm surge barrier at Broad Creek with 
four operation tide gates and a power station. The barrier would tie 
into 8,787 linear feet of flood wall and one pump station would be 
constructed for interior drainage. Nonstructural features would also be 
included in the neighborhoods outside of the structural system. This 
would include 176 basement fills, 89 properties to be elevated and have 
basement fill, 1 property to be floodproofed and basement fill, 624 
properties elevated, a further 54 properties are dry floodproofed and 
acquisition of 76 properties. The plan also includes 0.3 acres of 
oyster reef and 8.9 acres of living shoreline as natural and nature 
based features to increase resiliency. Based on October 2019 price 
levels, the total initial project cost for this project, as recommended 
in the Chief's Report, is $1.4 billion with the federal share totaling 
$909 million and the non-federal share totaling $489 million.
   6.  souris river basin flood risk management, bottineau, mchenry, 
               renville, and ward counties, north dakota
    On April 16, 2019, a report was signed recommending flood risk 
management for the City of Minot, North Dakota. The plan consists of 
4,900 linear feet of diversion channel, a 3,700 linear feet of earthen 
levee, a 1,600 linear foot levee as a tieback and 1.21 mile recreation 
trail connecting to an existing trail system. Based on October 2019 
price levels, the total initial project cost for this project is $89.3 
million with the federal share totaling $58 million and the non-federal 
share totaling $31.3 million.
  7.  the great lakes and mississippi river interbasin study--brandon 
                      road, will county, illinois
    On May 23, 2019, a report was signed recommending ecosystem 
protection improvements to control upstream transfer of aquatic 
nuisance species at Brandon Road Lock and Dam in Will County, Illinois. 
The plan would consist of a flushing lock and an engineered channel, 
acoustic fish deterrent, electric barrier and an air bubble curtain. 
Nonstructural measures would primarily be implemented by other federal 
agencies and include public education and outreach, nonstructural 
monitoring, integrated pest management, pesticides, manual or 
mechanical removal and research and development. Supporting measures 
include two boat launches. Based on October 2019 price levels, the 
total initial project cost for this project, as recommended in the 
Chief's Report, is $863.3 million with the federal share totaling 
$561.1 million and the non-federal share totaling $302.2 million.
            8.  yuba river ecosystem restoration, california
    On June 20, 2019, a report was signed recommending ecosystem 
restoration improvements on the Yuba River, California. The plan would 
consist of restoring approximately 179 acres of aquatic and riparian 
habitat, specifically along the lower Yuba River. Based on October 2019 
price levels, the total initial project cost for this project, as 
recommended in the Chief's Report, is $100 million with the federal 
share totaling $65 million and the non-Federal share totaling $35 
million.
  9.  south platte river and tributaries, adams and denver counties, 
                                colorado
    On July 29, 2019, a report was signed recommending flood risk 
management and ecosystem restoration on the South Platte River and 
tributaries in Adams and Denver Counties, Colorado. The plan consists 
of restoration of aquatic, wetland and riparian habitats along 6.5 
miles of the South Platte River. The flood risk management features 
would consist of widening or enlarging an approximately 2.75 mile-long 
system of open channel and culverts along the Weir Gulch. A 
nonstructural solution would be implemented along the Harvard Gulch 
that would provide added protection for 176 structures. Based on 
October 2019 price levels the total initial project cost for this 
project, as recommended in the Chief's Report, is $534.8 million with 
the federal share totaling $334.4 million and the non-federal share 
totaling $200.4 million.
 10.  rio grande, environmental management program, co, nm, tx, sandia 
                  pueblo to isleta pueblo, new mexico
    On August 5, 2019, a report was signed recommending measures to 
improve hydrologic connectivity between the Rio Grande and its 
floodplain and restore native habitat diversity through re-creation of 
historic habitat types. The plan would restore approximately 216 acres 
of the Middle Rio Grande bosque by constructing high-flow channels, 
willow swales, and wetlands. Based on October 2019 price levels the 
total initial project cost for this project, as recommended in the 
Chief's Report, is $24.9 million with the federal share totaling $16.2 
million and the non-federal share totaling $8.7 million.
 11.  east rockaway inlet to rockaway inlet and jamaica bay, atlantic 
                           coast of new york
    On August 22, 2019, a report was signed recommending hurricane and 
storm damage reduction measures for coastal communities located between 
East Rockaway Inlet and Rockaway Inlet and Jamaica Bay, New York. The 
recommended plan consists of beach restoration with renourishment, 
extension of five existing groins, construction of 13 new groins, and a 
composite seawall along the Atlantic Ocean Shorefront Planning Reach; 
along with two separate high frequency flooding risk reduction features 
within the Jamaica Bay Planning Reach designed to reduce risks for 
communities vulnerable to high frequency flooding events located at 
Cedarhurst-Lawrence and Mid-Rockaway. Based on October 2019 price 
levels the total initial project cost for this project, as recommended 
in the Chief's Report, is $604.2 million which is fully federally 
funded under the authority of P.L. 113-2.
   12.  jefferson county ecosystem restoration, jefferson county, tx
    On September 12, 2019, a report was signed recommending ecosystem 
restoration along the Gulf coast in Jefferson County, Texas. The 
recommended plan includes construction of 5,170 linear feet of armoring 
along the southern bank of the Gulf Intracoastal Waterway, and restores 
6,048 acres of brackish marsh habitat in six restoration units, 
consisting of planting native species and removing invasive species 
within the restoration units, in an area referred to as ``Keith Lake.'' 
The recommended plan utilizes dredged material from the federally 
authorized Sabine Neches Waterway navigation channel. Based on October 
2019 price levels the total initial project cost for this project, as 
recommended in the Chief's Report, is $57.9 million with the federal 
share totaling $37.6 million and the non-federal share totaling $20.3 
million.
13.  gulf intracoastal waterway--brazos river flood gates and colorado 
                           river locks, texas
    On October 23, 2019, a report was signed recommending inland 
navigation improvements for the Gulf Intracoastal Waterway in Texas. At 
the Brazos River flood gates, the main features of the recommended plan 
are the removal of the existing gates on both sides of the river 
crossing, the construction of a 125-foot wide open channel on the west 
side and a new 125-foot wide sector gate structure on the east side. At 
Colorado River Locks, the main features of the recommended plan are the 
construction of new 125-foot sector gate structures on the east and 
west sides of the river crossing. Based on October 2019 price levels 
the total initial project cost for this project, as recommended in the 
Chief's Report, is $409.8 million which is fully federally funded with 
half of the funding from the Inland Waterways Trust Fund.
 14.  st. louis riverfront--meramec river basin ecosystem restoration, 
                                missouri
    On November 1, 2019, a report was signed recommending ecosystem 
restoration in the Meramec River Basin, Missouri. The plan consists of 
measures in and along the Big River that would reduce excess mining 
derived sediment; reestablish depleted riparian areas; and restore the 
channel to mimic a more natural and stable river. Measures include 
installation of bed load sediment collectors, creation of sediment 
basins, in-stream excavation of sediment, construction of grade control 
structures, tree plantings, and implementation of bank stabilization 
features through stone work, root wad revetment, and bank shaping. The 
plan will restore a total of approximately 1,600 acres of aquatic and 
riparian habitat in the Meramec River Basin. Based on October 2019 
price levels the total initial project cost for this project, as 
recommended in the Chief's Report, is $92.5 million with the federal 
share totaling $60.1 million and the non-federal share totaling $32.4 
million.
      15.  matagorda ship channel improvement, port lavaca, texas
    On November 15, 2019, a report was signed recommending navigation 
improvements for the Matagorda Ship Channel in the vicinity of the City 
of Port Lavaca, Texas. The recommended plan includes: addition of a new 
1,200 foot turning basin in the Lavaca Bay reach to accommodate the 
larger vessels; extending the entrance channel 13,000 feet to allow for 
deepening to -49 feet Mean Lower Low Water (MLLW); dredging of a 1,600 
foot long sediment trap in the area of the offshore bar; widening the 
entrance channel from 300 to 550 feet, and the Main channel from 200 to 
300 feet; deepening the Entrance Channel from -40 to -49 feet, and the 
Main Channel from -38 to -47 feet MLLW; relocating 16 pipelines; a 165 
acre sand engine as Beneficial Use of dredged material; and 
modifications to aids to navigation. Based on October 2019 price levels 
the total initial project cost for this project, as recommended in the 
Chief's Report, is $218.3 million with the federal share totaling just 
under $138.7 million and the non-federal share totaling just under 
$79.7 million.
                    16.  hashamomuck cove, new york
    On December 9, 2019, a report was signed recommending hurricane and 
storm damage reduction for Hashamomuck Cove and the neighboring coves 
in Southold, Suffolk County, New York. The recommended plan includes 
about 1.5 miles of beach restoration including a 25 foot wide berm 
using about 220,000 cubic yards of sand obtained from upland sources, 
and an estimated nine renourishments over a 50 year period requiring 
approximately 78,300 cubic yards per renourishment. Based on October 
2019 price levels the total initial project cost for this project, as 
recommended in the Chief's Report, is $17.8 million with the federal 
share totaling $11.6 million and the non-federal share totaling $6.2 
million. The total project cost for renourishment, as recommended in 
the Chief's Report, is $47 million with the federal share totaling 
$23.5 million and the non-federal share totaling $23.5 million.
        17.  willamette river basin review reallocation, oregon
    On December 18, 2019, a report was signed recommending reallocation 
of storage in the Corps Willamette Valley Project reservoirs to meet 
Municipal and Industrial (M&I) water supply, Fish and Wildlife (F&W) 
water supply, and Agricultural Irrigation (AI) water supply needs. M&I 
will be allocated 159,750 acre-feet of conservation storage and AI will 
be allocated 327,650 acre-feet of conservation storage. The allocations 
are subject to agreements under federal law between the Department of 
the Army and State or local entities for the use of the M&I storage and 
between the Department of the Interior and irrigation interests for the 
delivery of AI water. The remaining 1,102,600 acre-feet of conservation 
storage will be allocated to F&W. No conservation storage will remain 
allocated as Joint Use. This project will not include any construction 
activities at the reservoirs, so there should be no design and 
construction costs associated with the reallocation action. Once the 
action is approved by Congress, the Corps will update the Water Control 
Manuals and the Drought Contingency Plan to reflect the updated storage 
allocations and an adaptive management plan.
                   Post-Authorization Change Reports
          1.  dry creek (warm springs) restoration, california
    On March 29, 2019, a report was signed recommending ecosystem 
restoration measures for Dry Creek in Sonoma and Marin Counties, 
California. The recommended plan consists of 2.6 river miles of habitat 
restoration spread out along 14 miles of lower Dry Creek. There are 3 
major tributary connections (Fall Creek, Pena Creek, and Mill Creek) 
located at or downstream of the restoration sites on the mainstem of 
Dry Creek. Restoration features would improve hydrologic connectivity 
with the floodplain by constructing combinations of riffles, large 
woody debris, backwaters, alcoves, pool enhancements, and side 
channels, at multiple sites along lower Dry Creek's mainstem. Based on 
October 2018 price levels the total initial project cost for this 
project, as recommended in the Director's Report, is $44.8 million with 
the federal share totaling $29.1 million and the non-federal share 
totaling $15.7 million.
              2.  kenai bluffs bank stabilization, alaska
    On April 10, 2019, a report was signed recommending coastal 
protection measures for Kenai, Alaska. The recommended plan consists of 
the construction of a 12 foot high armor-stoned berm along 
approximately 5,000 lineal feet of receding coastal bluff. Based on 
October 2018 price levels the total initial project cost for this 
project, as recommended in the Director's Report, is $40.3 million with 
the federal share totaling $26.2 million and the non-federal share 
totaling $14.1 million.
    3.  mount saint helens long term sediment management plan update
    On April 18, 2019, a report was signed recommending an update of 
the long-term implementation plan for managing sediment from the Mount 
Saint Helens debris avalanche, to complete the project through 2035 and 
maintain the congressionally authorized Cowlitz River capacity and 
flood risk management for the communities along the lower 20 miles of 
the Cowlitz River. The selected plan includes two incremental sediment 
retention structure spillway crest raises; grade-building structures; 
as-needed dredging in the Cowlitz River; and, adaptive management at 
the mouth of Alder Creek to maintain connectivity with the North Fork 
Toutle River. Fish conservation measures necessary to comply with the 
Endangered Species Act are also included in the selected plan. Based on 
October 2018 price levels the project first cost estimate is 
$538,368,000, of which $178,131,000 has already been expended (from 
1985 through the end of FY 2017).
     4.  passaic river floodway buyout, passaic county, new jersey
    On April 18, 2019, a report was signed recommending voluntary 
buyout of 18 properties in Hoffman Grove, Wayne Township within the 
Passaic River Floodway. Based on October 2018 price levels the 
estimated total first cost of the recommended plan of buyouts is 
$6,380,000, shared 75% federal and 25% non-federal as authorized in 
Section 1148 of WRDA 1986.
        5.  albeni falls dam fish passage, bonner county, idaho
    On July 11, 2019, a report was signed recommending a trap and haul 
facility that consists of a fishway (i.e., a short fish ladder with a 
fish lift) ending in a holding pool and sorting facility, where fish 
can be loaded onto a truck for transport. Based on October 2018 price 
levels the estimated project first cost is $68,100,000.
    6.  willamette falls locks, willamette river, oregon disposition
    On July 11, 2019, a report was signed recommending Congressional 
deauthorization and disposal of the project, through either direct 
transfer by the Corps to an interested party or through the standard 
disposal authorities and procedures of the General Services 
Administration (GSA). Along with obtaining deauthorization and disposal 
authority, this alternative would address the primary seismic and 
safety risks associated with concerns of loss of the pool with measures 
that do not impede future owner/operators from returning the facility 
to operability. It includes minimal repairs, assuming the future owner/
operator continues the base caretaker maintenance actions for the non-
operational condition of the locks. Based on October 2018 price levels 
the total cost of required modifications and repairs for the selected 
plan is $2,744,000.
          7.  passaic river tidal protection area, new jersey
    On August 16, 2019, a report was signed recommending coastal storm 
risk management measures for the City of Newark, New Jersey. The 
recommended plan includes construction of six floodwall segments, one 
levee segment, eight gates (project alignment), and associated interior 
drainage features. The project alignment includes seven segments 
totaling 4,850 linear feet, which would tie into existing topography 
and infrastructure to an elevation of 14 feet North American Vertical 
Datum of 1988 (NAVD88). Based on October 2018 price levels the total 
initial project cost for this project, as recommended in the Director's 
Report, is $45.4 million with the federal share totaling $29.5 million 
and the non-federal share totaling $15.9 million.
                   8.  barrow, alaska coastal erosion
    On December 11, 2019, a report was signed recommending coastal 
storm risk management measures for addressing erosion and coastal 
flooding along the shoreline of Barrow, Alaska. The recommended plan 
consists of a +19 foot mean lower low water (MLLW) rock revetment that 
would be constructed against the natural bluff in front of the airport 
and the Utqiagvik Village archeological site; a +14.5 foot MLLW 
revetted berm in front of a freshwater lagoon; and a +14.5 foot raised 
and revetted coastal road (Stevenson Street) stretching from the end of 
the lagoon north to Dewline Road, encompassing Browerville, the 
landfill, sewage lagoons, and the Naval Arctic Research Laboratory. 
Based on October 2019 price levels the total initial project cost for 
this project, as recommended in the Director's Report, is $328.6 
million with the federal share totaling $213.6 million and the non-
federal share totaling $115 million.
    9.  pajaro river flood risk management, santa cruz and monterey 
                          counties, california
    On December 12, 2019, a report was signed recommending an increase 
to the level of flood risk reduction being provided by the flood risk 
management project completed in 1949 pursuant to Section 10 of the 
Flood Control Act of 1944, Public Law 78-534. The recommended plan 
would reduce the flood risk to the City of Watsonville and the Town of 
Pajaro and adjacent agricultural areas. The structural features of the 
recommended plan on the Pajaro River mainstem include: 0.85 miles of 
floodwalls on existing levees, 5.75 miles of new levees of which 5.10 
miles is setback levees, 0.3 miles of levee improvements, 66 acres of 
floodplain between setback levees and the river, and 5.10 miles of 
existing levee demolition. The structural features of the recommended 
plan on the tributaries include: 1 mile of floodwall, 0.6 miles of 
floodwall on existing levee, 4.1 miles of new levee of which 1.5 miles 
is setback levees, 0.5 miles of existing levee improvements, 37.2 acres 
of floodplain between setback levee and creek, 1.5 miles of existing 
levee demolition, and two bridges raised. Based on October 2019 price 
levels the total initial project cost for this project, as recommended 
in the Director's Report, is $393.7 million with the federal share 
totaling $246.3 million and the non-federal share totaling $147.4 
million.

    Mrs. Napolitano. Now we will proceed to hear from our 
witnesses who will testify today. Thank you again for being 
here, and you are most welcome.
    And we have the Honorable Rickey Dale ``R.D.'' James, 
Assistant Secretary of the Army, Civil Works, Office of the 
Assistant Secretary of the Army for Civil Works, and Lieutenant 
General Todd T. Semonite, Chief of Engineers and Commanding 
General, U.S. Army Corps of Engineers.
    Without objection, your prepared statements will be entered 
into the record, and all witnesses are asked to limit their 
remarks to 5 minutes.
    Secretary James, you may proceed.

 TESTIMONY OF HON. R.D. JAMES, ASSISTANT SECRETARY OF THE ARMY 
FOR CIVIL WORKS, OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY 
 (CIVIL WORKS); AND LIEUTENANT GENERAL TODD T. SEMONITE, CHIEF 
           OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    Mr. James. Good morning, Chairwoman Napolitano, Ranking 
Member Westerman, and members of this subcommittee. I am 
honored to testify before your committee today at this hearing 
on proposals for a Water Resources Development Act, WRDA, of 
2020.
    WRDA bills are so important, not only to what we try to do 
in the Corps of Engineers, but also how they affect the people 
that we all try to serve. And I thank you very much for 
promoting a WRDA 2020. Thank you.
    The U.S. Army Civil Works program is the Nation's largest 
water resources program. It is a program that has three main 
missions: flood and storm damage reduction, commercial 
navigation, and aquatic ecosystem restoration.
    The water resources infrastructure that the Corps has 
constructed has contributed toward the Nation's economy, helped 
communities to reduce their flood risk, and supports commercial 
navigation, and has contributed to the restoration of 
significant aquatic ecosystems.
    I would like to provide some overarching comments as the 
committee is considering next steps on WRDA.
    WRDA provides an opportunity to improve how the Nation 
invests in water resources, including actions to enable 
stronger partnerships with non-Federal interests. The 
administration believes this can be achieved by focusing future 
authorizations of Federal activities to those that are most 
warranted, while encouraging more non-Federal leadership, and 
removing barriers that can impede the ability of non-Federal 
parties to move forward on their own with investments in water 
resources infrastructure they deem as priorities.
    Given the large number of authorized projects that have not 
been started or completed, new project and study authorizations 
should focus on those most likely to provide high economic or 
environmental returns to the Nation, and to those most likely 
to address a significant risk to public safety within the three 
main mission areas of the Army Civil Works program: flood and 
storm damage reduction, commercial navigation, and aquatic 
ecosystem restoration.
    A key priority for the administration is encouraging 
stronger partnerships between the Federal Government and non-
Federal stakeholders. Stronger partnerships will help leverage 
a broader range of financial resources for infrastructure 
investment, encourage more non-Federal leadership, and remove 
barriers that can impede the ability of non-Federal partners to 
move forward with investments in water resources infrastructure 
they deem as their priorities.
    The administration has proposed several reforms to help 
accomplish this goal, some of which I will outline.
    Extending section 1043(b) of WRRDA 2014, as amended. This 
authority allows us to transform how we implement projects by 
transferring Federal appropriations to non-Federal sponsors to 
construct projects on their own. This is an important reform to 
help accelerate projects and create efficiencies.
    Divesting the Washington Aqueduct. The Washington Aqueduct 
is the only local water supply system in this Nation owned and 
operated by the Corps. Divesting the aqueduct would encourage a 
more efficient allocation of economic resources, and mitigate 
risk to taxpayers.
    Establishing an inland waterways user fee. Establishing a 
user fee would help finance anticipated capital investments on 
the inland waterways system, and a portion of the cost of 
operating and maintaining them to support transportation of 
goods along them. The current diesel fuel tax is insufficient 
to support the users' share of these costs.
    Streamlining permit processes and eliminating duplicative 
reviews. We have streamlined permissions for modifications to 
completed Corps projects that has eliminated weeks of review 
and reduced pending permissions by as much as 50 percent in 
many districts. I am very proud of the Corps of Engineers, and 
how they have managed to do that.
    I appreciate the opportunity to appear before you here 
today. The rest of my testimony has been submitted for the 
record. And I thank you again.
    [Hon. James' and Lieutenant General Semonite's prepared 
joint statement follows the general's opening remarks.]
    Mrs. Napolitano. Thank you, sir.
    Proceed, General Semonite.
    General Semonite. Chairwoman Napolitano, Ranking Member 
Westerman, and distinguished members of this subcommittee, 
thank you for the opportunity to testify today. I am pleased to 
be here with Secretary James, and appreciate his leadership of 
the Army's Civil Works team, as we continue to work together to 
address water resources and infrastructure challenges across 
this great Nation.
    I have been in command for the Corps for 3\1/2\ years now. 
And to answer your question, ma'am, it is a 4-year tour, and my 
tour is expected to end in May of 2020.
    I have been very, very challenged and very excited to be 
able to revolutionize the Corps of Engineers and how we do 
business. This does not imply that the Corps is not a world-
class organization, but rather it demands that we anticipate 
and respond to changing requirements and externalities like all 
world-class organizations.
    Successful Civil Works project delivery supports the 
Nation's current and future infrastructure priorities. The 
Corps' credibility is measured in our ability to deliver 
results that are on time, on budget, and of exceptional 
quality. To that end, the Corps has been taking bold action to 
improve performance to continue to engineer solutions for the 
Nation's toughest challenges.
    We are able to do this because we have a world-class 
workforce of talented and dedicated professionals who are 
passionate about what we do. However, none of our work can be 
done alone. It is done with full participation and 
collaboration with many others like yourselves.
    We embrace the authorities provided by this committee to 
focus on current mission areas and to serve as a guide to 
implement the Civil Works program with a strategic vision, 
taking pioneering steps to remain relevant and ready for the 
challenges of tomorrow.
    Since the last Water Resources Development Act, I have 
signed 17 Chief's Reports representing over $9 billion worth of 
proposed investments in the Nation's water resources. I have 
got a list here, and I am going to sign 20 more by the end of 
May 2020, and we are going to do another 15 by the end of 
December 2020. All of this represents the hard work 
accomplished in partnership with this committee to develop 
solutions to meet the Nation's water resources needs.
    Our organization continues to grow by learning from our 
experiences, addressing significant challenges including aging 
infrastructure, increased demands of our navigation systems, 
and shifting weather patterns which result in more frequent 
and, unfortunately, devastating natural disasters. This 
committee continues to support these efforts by refocusing 
pertinent authorities and focusing flexibilities to allow the 
Corps to adapt and respond.
    While we certainly can't predict the next crisis, enabling 
the Corps to be positioned as ready, reliable, and responsive 
to routine demands provides the necessary bandwidth for 
increasing the unscheduled.
    For example, I applaud the bold steps that the committee 
has taken toward unlocking available resources to address the 
significant harbor maintenance requirements across the Nation. 
While making available additional dollars in the Harbor 
Maintenance Trust Fund, and enabling future predictability of 
resources, the Corps could implement a more strategic plan to 
maintain ports and waterways to full widths and depths, driving 
economic development and national prosperity.
    The flooding disasters which devastated the Nation's 
heartland along the Missouri, Mississippi, and Ohio River 
Basins this past year took a significant toll on many of your 
communities. Due to the magnitude of the precipitation events, 
we say the wettest year in the last 124 years took place this 
spring. It is unlikely that even the most robust flood risk 
management infrastructure would have completely prevented 
significant damage.
    However, the ability of local communities to appropriately 
plan for more extreme weather events by rebuilding existing 
structures and enhancing resiliency is critically important, 
and the Corps stands ready to assist through authorities made 
available by the committee.
    To this point, the Corps appreciates the flexibility 
provided by the authorization of WIFIA, which can enable local 
investment in non-Federal projects, enhancing resilience to 
flooding, as well as providing environmental and economic 
benefits through low-interest, long-term loans. In partnership 
with the EPA, the Corps has leveraged existing best practices 
to ensure efficient program development. We look forward to the 
continued advancement of the program through congressional 
support, and look forward to the opportunity to begin issuing 
loans.
    I appreciate, value, and depend upon the support of the 
Congress, the administration, and all of our partners to 
succeed in our mission.
    I am very proud of the work that the Corps accomplishes, 
but I am equally aware that the organization could continue to 
improve. I have been and I am committed to making institutional 
lasting changes to the Corps' delivery process in order to 
become a more efficient and effective organization.
    The Corps continues to work on policy and administrative 
reforms to improve delivery. Over the past 3 years my general 
officers, my senior executives, and my senior leaders have 
looked internally at our organization authorities, policies, 
regulations, and procedures in order to identify opportunities 
for increased efficiency and effectiveness. Actions like these 
are realized through modernizing the traditional delivery of 
the annual Civil Works program with innovative tools, 
streamlined internal processes, and exploring alternative 
financing approaches.
    The Corps continues to pursue the implementation of 
cutting-edge research and technology that could modernize 
operations and inform best management practices of our 
projects. Concepts like the forecast-informed reservoir 
operations utilize modern observation and prediction 
technology, which improves water management and could lead to 
more lead time to selectively retain and release water from 
reservoirs, based on long-term forecasts.
    Similarly, exploration of ways to combat or attenuate 
harmful algae blooms could enhance recreation opportunities, 
further enhance efforts to restore aquatic ecosystems, and 
provide ancillary benefits to public health.
    The Corps strives to be value-added, to deliver solutions 
to the Nation's engineers. We cannot conduct these reforms in 
isolation. We need the help of OMB and Congress to unleash the 
power of the Corps by actions on our numerous work plan and 
budget recommendations.
    For more than 244 years, the Corps has adapted to meet the 
challenges of the day. Today is no exception. Our current 
efforts to revolutionize the Corps simply represent the next 
chapter in this remarkable journey.
    Thank you, Madam Chairwoman and members of the 
subcommittee. I look forward to answering any questions you may 
have.
    [Hon. James' and Lieutenant General Semonite's prepared 
joint statement follows:]

                                 <F-dash>
Prepared Joint Statement of Hon. R.D. James, Assistant Secretary of the 
  Army for Civil Works, Office of the Assistant Secretary of the Army 
    (Civil Works) and Lieutenant General Todd T. Semonite, Chief of 
                Engineers, U.S. Army Corps of Engineers
    Mr. Chairman and Members of the Subcommittee:
    We are honored to testify before your committee today at this 
hearing on proposals for a Water Resources Development Act (WRDA) of 
2020.
    Thank you for allowing us the time to address the committee.
    The U.S. Army Civil Works Program is the Nation's largest water 
resources program. It is a program that has three main missions: flood 
and storm damage reduction, commercial navigation, and aquatic 
ecosystem restoration. The water resources infrastructure that the 
Corps has constructed has contributed towards the Nation's economy, 
helped communities to reduce their flood risks, supports commercial 
navigation, and has contributed to the restoration of several 
significant aquatic ecosystems.
    I would like to provide some overarching comments as the committee 
is considering next steps on WRDA. WRDA provides an opportunity to 
improve how the Nation invests in water resources, including actions to 
enable stronger partnerships with non-Federal interests. This 
Administration believes that this can be achieved by focusing future 
authorizations of Federal activities to those that are most warranted 
while encouraging more non-Federal leadership, and removing barriers 
that can impede the ability of non-Federal parties to move forward on 
their own with investments in water resources infrastructure they deem 
priorities.
    Given the large number of authorized projects that have not been 
started or completed, new project and study authorizations should focus 
on those most likely to provide high economic or environmental returns 
to the Nation and to those most likely to address a significant risk to 
public safety within the three main mission areas of the Army Civil 
Works Program: flood and storm damage reduction, commercial navigation, 
and aquatic ecosystem restoration.
    A key priority for the Administration is encouraging stronger 
partnerships between the Federal Government and non-Federal 
stakeholders. Stronger partnerships will help to leverage a broader 
range of financial resources for infrastructure investment, encourage 
more non-Federal leadership, and remove barriers that can impede the 
ability of non-Federal parties to move forward with investments in 
those water resources infrastructure they deem priorities. The 
Administration has proposed several reforms to help accomplish this 
goal, some of which are outlined below:
    <bullet>  Extending Section 1043b of WRRDA 2014, as amended. This 
authority would allow us to transform how we implement projects by 
transfering federal appropriations to non-federal sponsors to construct 
projects on their own. This is an important reform to help accelerate 
projects and create efficiencies.
    <bullet>  Divesting the Washington Aqueduct. The Washington 
Aqueduct is the only local water supply system in the Nation owned and 
operated by the Corps. Divesting the aqueduct would encourage a more 
efficient allocation of economic resources and mitigate risk to 
taxpayers.
    <bullet>  Establishing an Inland Waterways User Fee. Establishing a 
user fee would help finance anticipated capital investments on the 
inland waterways and a portion of the cost of operating and maintaining 
them to support the transportation of goods along them. The current 
diesel fuel tax is insufficient to support the users' share of these 
costs.
    <bullet>  Streamlining permit processes and eliminating duplicative 
reviews. We have streamlined permissions for modifications to completed 
Corps projects that has eliminated weeks of review time and reduced 
pending permissions by as much as 50 percent in many Districts.

    We would like to provide a brief update on the next Report to 
Congress on Future Water Resources Development under Section 7001 of 
the Water Resources Reform and Development Act (WRRDA) of 2014. The 
Corps published a notice in the Federal Register on April 29, 2019, 
requesting proposals by non-federal interests for proposed feasibility 
studies and proposed modifications to authorized water resources 
development projects, and accepted these proposals through August 27, 
2019. The Corps received 52 proposals and is working to complete the 
2020 report.
    This will be the sixth annual report the Corps has done in 
accordance with Section 7001 of WRRDA 2014. Based on our experience 
these last few years, we continue to look for ways to improve the 
future water resources development process. This includes better public 
notification and education regarding the information required for a 
proposal. It also involves improving the timeliness of the review of 
the proposals and ensuring that proposals are properly identified in 
the main report and the report appendix, consistent with the 
requirements of Section 7001.
    Our testimony will now list the projects proposed in Chief's 
Reports and Post-Authorization Change Reports since the enactment of 
WRDA 2018.
    Since the enactment of WRDA 2018, 17 Chief's Reports have been 
signed. Most of these reports are currently under review to determine 
the Administration's position:
    1.  Little Colorado River Winslow, Arizona
    2.  Sacramento-San Joaquin, Delta Islands and Levees, California
    3.  Pawcatuck River, Rhode Island Coastal
    4.  Anacostia Watershed Restoration, Prince George's County, 
Maryland
    5.  City of Norfolk, Virginia
    6.  Souris River Basin, North Dakota
    7.  Great Lakes and Mississippi River Interbasin Study--Brandon 
Road, Will County, Illinois
    8.  Yuba River Fish Passage (Englebright and Daguerre Point Dams), 
California
    9.  Adams and Denver Counties, Colorado
    10.  Rio Grande, Sandia Pueblo to Isleta Pueblo, New Mexico
    11.  East Rockaway Inlet to Rockaway Inlet and Jamaica Bay, New 
York
    12.  Jefferson County Shore Protection,Texas
    13.  Gulf Intracoastal Waterway, Brazos River Floodgates and 
Colorado River Lock, Texas
    14.  St. Louis Mississippi Riverfront, Missouri
    15.  Matagorda Ship Channel Improvement, Texas
    16.  Hashamomuck Cove, New York
    17.  Willamette River Basin Review, Oregon

    On May 22, 2019, Army submitted the report regarding flood risk 
management for Winlsow, Arizona to the Congress. The recommended plan 
consists of 22,570 feet of new and reconstructed levees within and near 
the city. The plan also includes a flood warning system and improving 
conveyance through channelization and removal of saltcedar under the 
Burlington Northern Santa Fe Railway bridge. Based upon the October 
2019 price levels, the total first cost for this project is $80.7 
million, with the federal share $52.5 million and the non-federal share 
$28.2 million.
    Since the enactment of WRDA 2018, nine Post-Authorization Change 
Reports have been signed:
    1.  Dry Creek (Warm Springs) Restoration, California
    2.  Kenai River Bluffs Erosion, Alaska
    3.  Mount Saint Helens Sediment Control, Washington
    4.  Albeni Falls Dam, Idaho
    5.  Willamette Falls Locks, Oregon
    6.  Passaic Main Stem (Tidal Protection Area), New Jersey
    7.  Passaic Main Stem (Floodway Buyout), New Jersey
    8.  Barrow Coastal Storm Damage Reduction, Alaska
    9.  Pajaro River at Watsonville, California

    Mr. Chairman, this concludes our statement. We appreciate the 
opportunity to testify today. Thank you.

    Mrs. Napolitano. Thank you very much. Thank you to both our 
witnesses.
    We will now have questions for the witnesses. Again, we 
will use the timer for 5 minutes of questions for each Member. 
If there are additional questions, we might have a second 
round, if necessary.
    And beginning the questioning with Mr. James, in many parts 
of our country we are experiencing more extreme weather events: 
the Midwest floods last year, and in previous years the West 
has been in an extreme drought. How will the President's 
proposal to eliminate the consideration of climate change in 
infrastructure project development affect the Corps planning 
process?
    And there was a news article Al Roker was showing. I don't 
know if anybody saw it, but the different catastrophes to other 
States, and the billions of dollars it is costing. So what do 
we do with that?
    Mr. James. Ma'am, we are still learning, I think, along 
with many other things that we have to engineer in our country.
    We do engineer our projects, and try to protect people 
based on the science of what the climate is doing.
    As I say, we are still learning, and I think that is 
because the scientific community is still learning. I had a 
discussion with NOAA, I guess maybe a month ago now, and they 
were trying to explain to me how they are improving their 
scientific forecast, their analysis of climate change. And we 
use a lot of their data and expertise in what we do, as far as 
climate change and the scientific-based weather.
    Mrs. Napolitano. Well, the President's proposal to 
eliminate the consideration of climate change, how will that 
affect the Corps' work?
    Mr. James. I am sorry, ma'am?
    Mrs. Napolitano. The President's proposal to eliminate the 
consideration of climate change in infrastructure project 
development, how will it affect the Corps' planning process?
    Mr. James. I am not sure how to answer that because, 
regardless, unless ordered not to do so, we will continue to 
follow the science and address and build the projects for this 
country the way we have been doing it, and it is based on 
science.
    Mrs. Napolitano. Thank you very much.
    General Semonite, the WRDA 2018 reauthorized the Corps dam 
safety program, an important program for the Nation and also my 
district. How is the Corps ensuring the safety of its dams 
across the country?
    As you know, the Whittier Narrows Dam in my district is 
classified Dam Safety Action Classification 1, the highest. We 
are pleased to see the plus-up for the Dam Safety Program in 
2020, and look forward to working with you on that.
    General Semonite. Madam Chairwoman, again, we have been 
very, very impressed with the amount of dedication and money 
that the Congress has given us to be able to augment the 
President's budget. And we want to make sure that that money 
goes against those most critical priorities. Dam safety is one 
of the highest ones we have.
    As you know, we rank all of our dams, and those that are 
most dangerous. Whittier Narrows is one of the most important 
ones we are focusing on. I can walk you through the mechanics, 
but we have got full approval of that. We have got contracts 
that are on board. We have got about $11 million coming in 
2020, more money coming in 2020 for utility reposition. We are 
absolutely committed to continue to bring down any risk at 
Whittier Narrows to be able to make sure that we can make that 
dam safe for the people that are affected by that area.
    Mrs. Napolitano. Thank you very much. General Semonite, we 
have received 17 Chief's Reports since WRDA 2018. Can you talk 
about the Corps' process in assessing and completing Chief's 
Reports, including environmental and feasibility reviews?
    General Semonite. So Chief's Reports are very important. As 
you know, we used to have a very, very long process to go 
through this study phase to be able to culminate in a Chief's 
Report. And some of those went on. I know one that went on 17 
years. We can't work like that, as a Nation.
    So we had a goal to be able to figure out how to streamline 
that. And we coined this 3x3x3, 3 years, $3 million. The bottom 
line is that we thought that should apply to most projects. 
There are going to be some that are going to be harder than 
that.
    So the Secretary and I have a very, very aggressive and, 
basically, a ruthless system. We ask all studies to be done 
within 3 years, but then we ask people to come back, if they 
really need a waiver, for more money or more time. Then we give 
it to them. We are very, very hard. They have got to come in 
front of almost like a murder board and prove to us they need 
more time.
    Right now we are very aggressive on getting them done, the 
numbers I gave you. We are going to continue to stay on track. 
But it means that we have got to be willing to take two decimal 
points instead of seven decimal points. We have got to be able 
to be able to apply some degree of risk, not with life safety, 
but with process. And if you need 22 people to approve 
something, I bet you 3 or 4 could probably do it faster.
    That is our whole goal, is to streamline and give Congress 
the good-enough solution so you could make an informed decision 
for things like WRDA without having to take so much time to 
come to the 100-percent perfect solution before you have even 
gone into planning and design.
    Mrs. Napolitano. Thank you. Can you talk about the Corps' 
role in forecast-informed reservoir operations and improving 
water conservation to the Corps dams in order to adapt to 
current conditions and meet the water supply needs of local 
communities?
    General Semonite. So we are excited about this. And in case 
there are some Members that might not be fully informed, there 
were reservoirs that we actually built to be able to handle 
flood control. And they are dry all year long. So when there is 
a big storm, it can handle that load.
    We have found that sometimes, even in some of the worst 
storms, those reservoirs don't even come over 50 percent. So is 
there the possibility of putting more water in an already-
designed reservoir to handle some of the other very, very 
critical needs that you have assets to take care of? Aquatic 
system restoration, habitat, water supply, water quality? So we 
are working very, very carefully. Secretary James continues to 
reinforce--he is very, very worried about flood control.
    But this goes back to the ability where there are some 
areas of the country where we are able to predict 3 or 4 or 5 
days out that a storm is coming, we are able to release some 
more water so the capacity in that dam could be used for other 
things. That is what FIRO really goes through. We are still 
working our way through it, but we see some great areas like in 
California, where we see merit of using an already-existing 
structure to be able to provide more water for this country.
    Mrs. Napolitano. Thank you, sir.
    Mr. Westerman, you are recognized.
    Mr. Westerman. Thank you, Madam Chair. And again, thank 
you, Secretary James and General Semonite, for your testimony.
    I know that, working in conjunction with the 
administration's initiative, that the Corps has implemented the 
Revolutionize the USACE Civil Works initiative, hopefully to 
save taxpayer dollars and complete projects sooner.
    Secretary, can you tell us how the Corps is working to 
further enhance this initiative, and maybe what kind of real-
time dollars have been saved and you anticipate seeing saved 
under this initiative?
    Mr. James. I don't think we have analyzed the real-time 
dollars as yet. But, as General Semonite just alluded to, he 
and I both are working very hard to streamline the Corps 
processes.
    Over time, when you go from the 1950s to the 2020s, say, 
and laws, and rules, and regulations are put on these people 
that actually do the work in the Corps. And then they get more 
sensitive all the time, as time marches on, to those laws, 
rules, and regulations.
    Therefore, they--just what the general said--try to take 
something out to .999, rather than stopping at .2, and passing 
it up the stream. We are working very hard to do that.
    For another example, we have initiated the fact that if you 
need a section 408 permit and, oh, by the way, in the project 
you are looking at you need a section 404 permit, those 
applications can be made and processed by the Corps at the same 
time. It was not that way prior to, I think, last year.
    And there are many, many other technical aspects of what we 
do that we are trying to streamline and revolutionize.
    Mr. Westerman. General, would you like to add anything to 
that?
    General Semonite. Sir, I think the way to really sum this 
up, this is not about necessarily making some minor changes to 
the law and policy and procedures. This is about building a 
culture of aggressive delivery, of understanding where Congress 
wants us to go, and then how do we try to meet that intent and 
get it done faster?
    We don't actually have dollar savings. What we are trying 
to do is to find out, of the dollars you give us, how can we 
spend those dollars better. And we are actually able to roll 
those savings back into other programs.
    And it is not just Civil Works. It is how do we hire 
people? How do we cut contracting? How do we make our legal 
systems go faster? How do we do better across the board?
    So it has got to be a culture of delivery across the entire 
Corps.
    Mr. Westerman. And what more can we do to help you improve 
that----
    General Semonite. So General Spellmon, sitting behind me, 
has a list, over 100 different things where we want some degree 
of--we want to work with you to say, if you untie my hands in a 
couple areas here--WIFIA might be a great example--I could do 
so much more to be able to deliver. So we continue to share 
with the staffers on the committees those initiatives where 
more than--we are working with OMB, we are working with the 
administration.
    But sometimes, if you take some of the harnesses off, you 
will find that organizations will run better.
    Mr. Westerman. So, General, you talked about the historic 
flooding that happened last year. That happened also along the 
Arkansas River in my district and in my State. We had 
considerable damage there, and there are still gaps in levees, 
some uncertainty with farmers on, you know, how they are going 
to proceed forward with planting this spring. It is not 
uncommon to other parts of the country.
    I mean, when you look at flood control, it is an issue of 
how do you get the water back out to the gulf when you are 
talking about the Mississippi River system, which is, 
obviously, our largest river system in the country.
    I know right now the level on the Mississippi River is 
higher than it was at this point last year. I have talked about 
what happened in Arkansas, but I know in Mississippi they had 
hundreds of thousands of acres that flooded because the 
Mississippi River was too high for the tributaries to drain 
into it. And I know there are projects that are being looked at 
on how to put more levees in and more pumping stations.
    But at the end of the day, how do you get more water 
through that channel and back out to the gulf?
    And we had a hearing on natural infrastructure. You know, 
we saw huge amounts of water diverted through Lake 
Pontchartrain last year. Are there any long-term visions or 
plans on how we increase the size of the flood plain and give 
that water more opportunity to get back into the gulf?
    General Semonite. So, sir, it really is a systems approach. 
There are people that want to be able to raise a levee on the 
left side of the river, the right side, and take a very, very 
tactical approach.
    Most of what we are talking about, and what we have learned 
in the last couple years, is it really is this watershed 
approach. It goes all the way to, you know, how do you monitor 
the snowpack way ahead of it? How do we make sure we understand 
the capacity? How do we build that capacity in?
    And then, how do you let the river have a little bit of 
room to grow? What is the right way of doing that?
    But it is always going to be life safety that is number 
one. I think in these last couple of storms there has been some 
confusion that the Corps tries to balance across all the 
variables in the river. We have different authorities you have 
given us, and you don't necessarily prioritize those 
authorities. But what we always want to do is be able to make 
sure we are taking care of humans, and the quality of life, and 
making sure we are keeping people alive.
    So how do you do that and continue to try to find systemic 
ways of being able to accommodate some of these very, very 
large storms we have seen in the last couple years?
    Mr. Westerman. I yield back, Madam Chair.
    Mrs. Napolitano. Thank you. The Chair now recognizes 
Chairman DeFazio.
    Mr. DeFazio. Thanks, Madam Chair. I appreciate your 
leadership on this issue.
    General, I understand--unfortunately, I couldn't be here 
for your opening remarks, but you did mention the attempts to 
unlock the Harbor Maintenance Trust Fund in a salutary way. I 
appreciate that. I have been working on it since--where is he--
Bud Shuster was chair of the committee right there [indicating 
portrait]. Twenty-three years ago we started working on that, 
and we finally got it through the House. We are hoping on the 
Senate.
    So--but absent that, Congress did come close to spending 
and fully allocating the income for the coming year. And so 
there was an increase of $665 million over and above the 
President's budget for the Corps. Yet the President did not 
propose in my State any funding for repairs for the north jetty 
at Coos Bay, Oregon, which was scheduled for 2020.
    I understand now you are working on the work plan for 2020. 
How will Coos Bay figure into that? Can you tell me?
    General Semonite. So, sir, actually, because of the timing 
of when we got the actual appropriations, my guys took a couple 
days off over Christmas, but I worked them over New Year's. And 
in the last 2 or 3 days--I got a briefing yesterday on the 
construction account and the investigations account. I got 50 
guys back at the office right now that are doing the O&M 
account. I will know more on O&M by when I get back tonight. I 
have got to submit it to Mr. James by tomorrow night.
    Mr. DeFazio. Right.
    General Semonite. So all of these requirements out there, 
there are a lot of very, very valid requirements. They will 
compete well.
    And I have got to admit to everybody here, regardless of 
what we got in the President's budget, Congress went above and 
beyond--$2.6 billion--to be able to pay some of this risk down. 
And that allows us in the work plan, with some of the rules 
that we don't normally have in the normal process to allocate 
those work plan dollars along these very, very critical 
projects that need to be done.
    So we will know much, much more. Some are going to compete 
very well. On some of them they might not be able to get within 
that $2.6 billion. But if there is a work plan next year, we 
will continue to be able to champion those throughout. I don't 
know the details, but if you want we can certainly--after Mr. 
James approves it, and it gets through the system, we will come 
and give you a briefing on where that one is.
    Mr. DeFazio. I appreciate that. We are losing about 20 feet 
a year. The harbor entrance is becoming less and less tenable. 
And ultimately, the jetty is going to go to total failure, 
which would be a much more expensive project, as you know, 
rather than going in and repairing it now.
    There is another issue--I have to be a little parochial 
here--the Willamette River Basin review/reallocation study. And 
we just got the Chief's Report. The problem is that the Chief's 
Report omits recommendations from the district engineer 
regarding endangered fish species in the Willamette Basin.
    And there had been a very extensive consultation between 
the Portland District, National Marine Fisheries Service, 
stakeholder groups, and they had come to an agreement on how to 
go forward with this. And, absent some recognition in the 
Chief's Report, we are looking at litigation yet again. And I 
hate to go down that path, so I am hoping that your office will 
work with mine and other interested Members of the Oregon 
delegation, and the stakeholders, and the Portland District to 
amend that Chief's Report, because I am not going to include it 
in WRDA as it is.
    General Semonite. And sir, we certainly want to try to work 
through all these issues.
    What you will find is--some of you are going to ask me 
questions about this today--is that everybody comes to the 
table with their absolute must-haves. These are all of our red 
lines we have got to do. And there is no engineering solution 
that can necessarily solve those.
    So then what happens is we say we will continue to study 
it, and they drag on and on and on. So at some point we have 
got to find what is the best optimal solution we can do to try 
to get to where everybody gets a B-plus solution. We are 
working with NMFS very closely on this one to try to resolve 
it. We are aware of that challenge.
    I would like to think we can work through it, and we will 
certainly work with your office to try to get there.
    Mr. DeFazio. That would be great. My time is about to 
expire, and I don't want to belabor things, but I would also--
and then I had discussed with you previously the Pebble Mine 
and my concerns that the EIS was found by the Trump 
administration, agencies, to be totally lacking in terms of an 
environmental impact statement.
    So I am hoping that--and I understand that there has been 
some delay, and there is some reconsideration and consultation 
going on.
    General Semonite. Sir, I would say not a delay. I would say 
that we understand, based on the magnitude of the comments and 
our due diligence to do this right, we need at least 90 more 
days. So we have pushed one of those milestones back. Right now 
everybody is very supportive of that extra time. It is better 
to do this one right than do it fast.
    Mr. DeFazio. OK. Thank you.
    Thank you, Madam Chair.
    Mrs. Napolitano. Thank you. The Chair now recognizes Mr. 
Garret Graves.
    Mr. Graves of Louisiana. Thank you, Madam Chair. I 
appreciate it.
    Mr. Secretary, General, thank you very much for being here 
today. You do have a tough mission. And the chair, subcommittee 
chair, noted that all these disaster costs that are occurring, 
you are basically the offense. You are the proactive entity to 
get out there and to prevent these things from happening. You 
have got a $100 billion backlog. While Congress has provided 
record funding in recent years for the Corps of Engineers, we 
are still not on a trajectory to truly solve these problems. 
And we want to continue working with you to do just that.
    I have been one of the most vocal critics of the Corps of 
Engineers over the last several years, certainly up there in 
the top five. But I want to tell you, General, you and I have 
had some very candid conversations. Mr. Secretary, you and I 
have, as well. Over the past couple of years I have seen a 
clear change, and I want to thank you for that. We have a long 
way to go, but we have seen much more of figuring out how to 
get to yes, as opposed to the default no. And I can't 
overemphasize we have a long way to go, but thank you for your 
work.
    And General, I wish you the best of luck.
    In regard to some of the challenges we have before us, we 
have some QFRs we have been waiting on from the Corps from a 
hearing dating back to, I think, June or July that we haven't 
received. It is tough for us to do our job and to be able to 
prepare WRDA 2020 without that information. I understand there 
has been some back and forth with OMB, but I want to re-urge 
that that information get to us so we can make informed 
decisions moving forward.
    Also, in regard to implementation of WRDA 2018, there are a 
number of provisions that haven't been implemented, or have 
been implemented in a questionable way. One of them I want to 
flag has to do with your land acquisition policies.
    We did make a change in WRDA 2018 to land acquisitions that 
would--section 1115. And what the Corps of Engineers did in 
your implementation guidance is you basically reaffirmed your 
1998 guidance. We changed the law. We changed the law. I don't 
know how you reaffirm a 1998 guidance when we changed the law. 
What we did is going to make it less contentious. It is going 
to save money, more cooperation with landowners, and allow 
these projects to move forward, again, cheaper and faster. And 
I urge you to please take a fresh look at that and get it 
resolved as quickly as possible, if you could.
    Mr. James. Yes, sir. I commit to you that--when you brought 
that up to me, I was unaware that we had done this on the 
guidance. And I am going to get with the Chief and the Corps 
and see where we are and where we should be.
    Mr. Graves of Louisiana. Great, thank you. Basically, what 
we did, General, is we said that you don't have to do fee title 
for all property. You are allowed to have the lowest form of 
acquisition. If it is an easement, a construction easement, a 
temporary easement, whatever it is, you get better cooperation 
with landowners, you save money on project cost. And I would 
appreciate you all taking a fresh look at that.
    General Semonite. And sir, we are all in support of that.
    And back to your question on QFRs, the bottom line is I 
tell my guys, ``You have 14 days to get it up to Mr. James.'' 
And sometimes we miss that. I think the longest one we had in 
July was 17 days. We have got to find a different way of 
solving that problem, because somehow you are asking good 
questions, we are answering them, and we are having a problem 
getting you the answers.
    Mr. Graves of Louisiana. Thank you, and I am happy to work 
with you to find a better way of doing it.
    Another important priority in section 1111 of WRDA 2018, we 
did a pilot program allowing you to do long-term dredging 
contracts. Title 1 of the omnibus appropriations bill which 
recently became law in December effectively implements and 
funds that program through the regional dredge demonstration 
program, it provides substantial funding. It is the same 
concept.
    How do we take advantage of economies of scale, of doing 
perhaps construction and O&M work at the same time? You have 
dredges there, perhaps combining channels, if you have channels 
that are adjacent to one another, instead of continuing to pay 
these very high mob and demob costs for the limited dredge 
capacity we have around the country.
    I would like a commitment from you all. Mississippi River, 
it has authorized deepening, we have had trouble with draft 
restrictions on the river multiple years recently. I would 
appreciate a commitment from both of you that you would take a 
look at the Mississippi River's eligibility from that program. 
The river does provide maritime commerce for 31 States.
    Mr. James. Sir, from what I can tell, the Mississippi River 
is eligible. The program makes one deep draft project eligible 
from each State, and that goes from Louisiana to Texas. So that 
includes the Mississippi River and Gulf Outlet.
    And that is the one that we struggle with every year. You 
know that.
    Mr. Graves of Louisiana. Yes, sir.
    Mr. James. You live down there.
    Mr. Graves of Louisiana. I certainly appreciate you all's 
efforts to take a look at that.
    Look, the last thing I have got, I want to thank you for 
your efforts on the ACAR and the Morganza to the gulf. I think 
it is an innovative approach. It is the way we are going to get 
these projects built and done in a more efficient manner. So I 
want to thank you for your efforts there. I am looking forward 
to continuing to work with you.
    Chief's Reports have been submitted on Baptiste Collette 
and Houma Navigation Canal. I ask you to please expedite those.
    And lastly, there is a section 203 that should be coming 
back to you on Port Fourchon deepening. And I just want to put 
it on your radar, as well.
    So thank you all for----
    General Semonite. We are definitely tracking that 203, sir.
    Mr. Graves of Louisiana. Great, thank you.
    Mrs. Napolitano. Thank you very much, Mr. Graves. The Chair 
recognizes Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Madam Chair. Thank you, 
Assistant Secretary James, for being here this morning.
    As you know, I represent one of the most beautiful 
districts in the country, parts of Miami-Dade County and the 
Florida Keys. And in 2001, Congress authorized $100 million for 
the Florida Keys water quality improvement program to help 
transition the Keys from the septic system to a proper sewage 
system. And this transition has been critical for the public 
health of our community, to protect our environment, for our 
economy, and the health of our delicate and essential natural 
environment, including the Florida Keys National Marine 
Sanctuary, home to the third largest barrier reef in the world, 
and also the only living coral reef in the continental United 
States.
    Over the past 18 years the Corps has paid out $61 million 
for the project. And the Keys are still waiting for $39 million 
to be paid out.
    Right before the holiday break I worked with my colleagues 
on both sides of the aisle, and we sent you a letter--I don't 
know if you have had a chance to review it--really asking for 
the increased funding in your fiscal year 2020 work plan to 
include the funding for this essential program.
    The bill that Congress passed and was signed into law last 
month included a $20 million increase over the previous year's 
funding. That is a 25-percent increase, and I am very proud of 
that, because I worked very closely with the Appropriations 
Committee pushing for that increase.
    I don't really have a question right now, as it relates to 
this. I just want to reiterate how important and critical it is 
for us to receive that funding, and if we can get that $30 
million extra. It has been 19 years, and the Florida Keys has 
really been a leader in showing the Army Corps that they have 
completed the project in the timeline that was provided to 
them, and submitted all the reports.
    Mr. James. Thank you, ma'am. I am familiar with that 
situation down there in south Florida. We will be watching for 
that work plan, and make sure that it competes with the other 
projects that we have to look at.
    This is not a new one, so we will be looking at it.
    Ms. Mucarsel-Powell. Yes, it has been 19 years. And I am 
excited to hear Lieutenant General Semonite and how he wants to 
speed up the process in providing the funding for these 
projects. So I just urge that you keep that in mind in the 2020 
work plan.
    I also wanted to highlight another initiative within the 
south Florida delegation, which is to use the supplemental 
appropriations funds to reevaluate the central and the south 
Florida flood control project to take into account the sea-
level rise that we are facing, more intense rainfall events and 
increasing populations.
    As you know, this was approved 70 years ago, taking into 
account only 2 million residents at the time. Now we are 
looking somewhere between 11 and 15 million residents. So we 
really need to take a look at what was appropriated back in 
that time of the project that was approved.
    And I also sent you a letter in November; you have also 
been receiving communications from some of my other Florida 
colleagues.
    So do you know where we are at in those deliberations at 
this moment, Secretary James?
    Mr. James. No, ma'am, I do not. I do not know----
    Ms. Mucarsel-Powell. Has there been any discussion on 
reevaluating the flood control program?
    Mr. James. It has not----
    Ms. Mucarsel-Powell. Or----
    Mr. James [continuing]. Come to me. No, ma'am. But it is--
--
    Ms. Mucarsel-Powell. South Florida?
    Mr. James. It is probably very definitely over in the 
Corps, and----
    Ms. Mucarsel-Powell. I will give you a copy of the letter. 
Maybe we can have a meeting and follow up on that.
    Mr. James. That----
    Ms. Mucarsel-Powell. This is critical for us.
    Mr. James. That would be great. I am open to that. And it 
is your call.
    General Semonite. Ma'am, let me go better than that. We 
will have somebody in your office either tomorrow or next 
week----
    Ms. Mucarsel-Powell. Thank you.
    General Semonite [continuing]. To find out exactly--I have 
not seen that particular letter. And there are a lot of 
projects I am prepared to talk about today, but I am not 
necessarily aware of where we are at on that. So we owe you a 
better answer to follow up.
    Ms. Mucarsel-Powell. Yes, thank you. And I will give you a 
copy of this letter. This was sent back in November of 2019.
    Finally, I just want to get your opinion on the New Start 
requirements for construction of Corps projects that are 
already authorized. As you know, the Central Everglades 
Planning Project was designed to be a comprehensive set of 
complementary projects that would restore the Everglades. 
Unfortunately, due to the New Start requirement, we need 
separate new appropriations for each individual project for the 
program to start.
    And I wanted to ask you if you can just explain a little 
bit to us what effects this requirement has on the progression 
of Everglades restoration, both in terms of the timeline and 
additional costs that this would impact for the project.
    Mr. James. Ma'am, it has the same effect on the Everglades 
as it has on all the other authorized projects in this country 
trying to get funding appropriated to be built.
    How it affects the Everglades, it makes the Everglades 
compete for construction with all the other construction 
projects in this country. And there is, historically, recently, 
only one.
    So, yes, it affects it. Basically, that New Start is an 
administration call, and we have to respond to the New Start 
program.
    Ms. Mucarsel-Powell. I think it is something that needs to 
be studied and looked into, and maybe we can discuss it when we 
have our meeting with the Army Corps in my office. Thank you so 
much.
    Mr. James. Yes, ma'am.
    Mrs. Napolitano. Thank you, ma'am.
    Mr. Babin, you are recognized.
    Dr. Babin. Yes, ma'am. Thank you, Madam Chair and Ranking 
Member, as well, for convening this important meeting and 
hearing.
    I would like to thank our witnesses, as well, for 
testifying, for your leadership during and after Hurricane 
Harvey in our district in southeast Texas. I commend you for 
the numerous trips made to my congressional district to ensure 
recovery remains on schedule, and that people living in the 
greater Houston and coastal region have the necessary level of 
protection from catastrophic natural disasters.
    Unfortunately, we were hit again by Tropical Storm Imelda 
this past September.
    My district is home to several critical Civil Works 
projects of great economic benefit to the country: number one, 
a project to widen and deepen the Houston Ship Channel 
currently undergoing review by the Corps; number two, a 
federally funded project to deepen and widen the Cedar Bayou 
Navigation Channel in Baytown, Texas; and number three, a 
federally funded project to deepen and widen the Sabine-Neches 
Waterway in Beaumont, and Port Arthur.
    As you know, the Houston Ship Channel in my district is the 
busiest deepwater, deep draft waterway in the Nation, and it 
supports the Port of Houston, which is the country's number-one 
export region, and the epicenter of our national energy 
security, where a majority of U.S. gasoline and aviation fuels 
are produced. This activity sustains millions of U.S. jobs and 
generates billions in economic impact and tax revenues each 
year.
    Given recent increases in global energy consumption, the 
Port of Houston, in coordination with the Corps of Engineers, 
must widen and make other necessary improvements to the ship 
channel in order to meet demands in the global marketplace and 
provide a safer, more reliable vessel transit for each vessel.
    And General Semonite, I look forward to the transmission of 
your final report to Congress, as well as your subsequent 
policy recommendation to Secretary James.
    Secondly, we have the Cedar Bayou Navigation Channel, where 
several companies have planned major expansions in anticipation 
of a projected completed project. Although authorized in 2007, 
this project finally received Federal money to begin 
construction in November of 2019. I encourage both of you to 
please prioritize completing this project when making your 
annual work plan and budgetary considerations.
    And lastly, again, we have the Sabine-Neches Waterway, 
which is home to the largest strategic military port in the 
country, at Beaumont, holding 55 percent of the Nation's oil 
reserves, as well. This ongoing deepening and widening project 
will increase jobs, our annual GDP, and provide billions in 
increased tax revenues. Again, please give this project your 
full faith consideration when making discretionary and 
budgetary decisions.
    And General Semonite, I have a question here. Thank you for 
your service to our Nation. We are indebted to your sacrifices 
that you and your family have made in defense of our freedoms.
    With respect to the Houston Ship Channel, for the 
edification of this committee, when do you expect to transmit 
your final report to Congress, so that we can include an 
authorization in WRDA 2020? Or do you anticipate any delays in 
this transmission?
    General Semonite. So, Congressman, I am going to hit all 
these in 1 minute.
    The bottom line is, on Houston ship, the goal is to sign in 
April. We are seeing that we can push these about at least a 
month earlier. We know exactly when your cut-off is, and right 
now, officially, it is the end of May. But we have had times 
when in June, July, and August I have signed Chief's Reports 
and sent them over, and we have done them in conference. That 
is harder. But we expect to have this to Mr. James, and I 
expect a rapid turnaround. So that should be here by the end of 
May. And that is on track. We don't see any big problem.
    Dr. Babin. Excellent.
    General Semonite. Sabine Pass is going very well. You know 
that we have signed the PPA on District 7. We are still working 
with the other non-Federal sponsors. That is a green. I label 
all my projects by red, green, amber. We think that is postured 
by success. We just got to continue to work through the other 
two phases of that.
    And then the last one is Cedar Bayou. Again, we think that 
that is postured well. You got new construction start funding 
in 2019. I think it will continue to compete very well. We are 
tracking all three of those projects.
    Dr. Babin. That sounds like a good deal to me.
    Mr. Secretary, I am grateful for the attention that you 
have shown to my district in coastal Texas. As you make funding 
decisions for the fiscal year 2020 work plan, I would like for 
you and your staff to give full faith consideration to the 
projects that I have mentioned this morning, so that we can 
finish them and help lower the Corps construction backlog.
    Mr. James. I will be committed to that, sir.
    Dr. Babin. Amen. Thank you so very much. I appreciate it, 
and I yield back, Madam Chair.
    Mrs. Napolitano. Thank you, sir. The Chair now recognizes 
Mr. Garamendi.
    Mr. Garamendi. Thank you so very much, Secretary James and 
General Semonite.
    You have been talking about floods and deluges. And so we 
are adding to the deluge of requests. First, an apology for 
adding to that flood of requests or demands from us. A couple 
of things. Yes, we do represent districts, and, therefore, here 
we go.
    The Yuba River Ecosystem Restoration Study, it has been 
underway. We thank you for moving it along. The delay of the 
feasibility study, the completion of the timelines--anyway, put 
it on your agenda, along with the other demands that we are 
placing on you today.
    I did notice, Secretary James, aquatic restoration is one 
of the three goals that you have in mind. Thank you. Very 
important, obviously, to my colleagues from Florida.
    But also this place called Clearlake, in California, a 
project instituted by the Corps of Engineers four decades ago 
to eliminate an aquatic system. Guess what? We are trying to 
rebuild it now. It is on the agenda. This would be a 
restoration, having made a bad decision four decades ago. Let's 
go back and clean up and try to restore an aquatic system at 
Clearlake. That is called the Middle Creek Flood Damage 
Reduction and Ecosystem Restoration Project. A kind of a nice 
thing to do.
    And then there is a little project in Calaveras County at 
Copper Cove having to deal with a sanitation system, and that 
is the Copper Cove Wastewater Treatment and Reclamation 
Facility, Calaveras County Water District.
    One final thing, Secretary James. I want to draw your 
attention to an issue that we put into law, and that is to 
allow the local sponsor to do the work, and not rely only on 
the Corps of Engineers. The Feather River West Program has been 
39 miles of restoration or improvement of a levee on the 
Feather River. This is the West Levee Project. The final 5 
miles could have been done by the local sponsors, as were the 
previous 39 miles. For reasons that are not at all clear, the 
Corps decided to do it itself, actually created a higher 
expense and more delay.
    I am just bringing to your attention what happens, what 
could happen. Several Members have already brought to your 
attention local--not only participation, but the local sponsor 
doing the project. It didn't happen in the last 5 miles. 
Unfortunately, a little longer, a little more expensive, 
because the Corps decided they would do it themselves.
    So turn it over where possible, where feasible, and where 
desired by the local agencies. Turn it over. Let the local 
sponsor do the work.
    This one, hopefully, will be completed in the near term. I 
think it is probably one more year, one more flood year we have 
to go through, then it will be done. So I bring this to your 
attention. It is not only an issue in my district, but I 
suspect it is throughout the region.
    I see Mr. LaMalfa here. The first several miles were in his 
district. Most of it in my district. But it is going to get 
done. So thank you.
    We can go on and on. I just want to end here in my last 1 
minute and 32 seconds with a big thank you. You have an 
enormous challenge, not only the projects that need to be done 
around the Nation, but around the world.
    And also, there really is the thing called climate change. 
It is there. It is real. And I noticed you used other words to 
come to the same issue. Thank you for being aware and working 
hard on it. Thank you very much.
    Mrs. Napolitano. The Chair now recognizes Mr. Mast.
    Mr. Mast. General, Secretary, a sincere thank you to you 
and your staffs for the increased effectiveness that you 
undertook in this last year. Your superb management of the 
central and southern Florida waters in this past year, it was 
outstanding. We overcame a lot. I need your help to do it 
again.
    I want to play a quick video about where we have been and 
how we overcame this, just to refresh people on this. What you 
are going to see, you are going to see EPA Secretary Wheeler 
talk about a standard the EPA created, eight parts per billion.
    Humans don't come in contact with microcystin and 
cyanobacteria. Right? To put it in perspective, we have had 
toxic algal bloom discharges of 495 parts per billion.
    You are going to see General Spellmon speak a little bit 
about what has occurred historically, that there have, in fact, 
been toxic discharges.
    You are going to hear Colonel Kelly from Jacksonville speak 
about how they overcame this in 2019, just as a refresher from 
everybody.
    So if they could play that video a moment, that would be 
great.
    [Video shown.]
    Mr. Mast. So I thank you all for watching that. I want to 
give you a chance to answer something that I think I know the 
answer to already. But very simply, does the Corps of Engineers 
want to have toxic discharges?
    General Semonite. So, sir, I will take the first lead. 
Absolutely not. We want to be able to continue to work within 
all of the Federal standards and exceed them, if nothing else.
    You have been a champion, along with the Governor, of 
continuing to try to figure out how to solve this problem. And 
I am afraid--and this is where the whole issue will 
revolutionize--we can't sit behind our paperwork and say, 
``Hey, we know how to do it, we have been doing it for 50 
years.''
    So this whole idea of what is the schedule--it used to be--
now we are looking at redoing it--what is the right balance of 
trying to keep enough water in the lake for our recreation or 
for habitat, while at the same time making sure we don't have 
these kind of, you know, discharges out there.
    We have seen great success last year going down certainly 
to 12 into the point where you were mentioning 10.5. We are 
going to continue to look at that, but we are taking on this 
study to try to figure out--instead of us trying to wing it 
year by year, what is the long-term approach? Not just for when 
there is a lot of water, but when there is drought.
    So we are committed to doing the right thing here.
    Mr. Mast. You guys killed it last year. I couldn't give 
enough accolades about what you did. Is it right now the stated 
goal, the stated mission, to prevent toxic discharges out of 
Lake Okeechobee? Is that a stated mission?
    General Semonite. It is definitely a stated mission.
    Mr. Mast. OK. Now I want to talk about moving this forward. 
I think we have three emergencies that you know you have to 
deal with. There can be an emergency for the integrity of the 
Herbert Hoover dike, right? Dike safety. That occurs because of 
too high of water on the lake.
    There can be an emergency because of toxic water discharge 
out to epicenters of population, poisoning those populations 
and people that are out in those waters. That also occurs 
because of too high of water.
    And there could be an emergency because there is not enough 
water supply. I acknowledge those are very, very difficult to 
balance.
    Now, in this last year, when you did it so successfully, 
were there any examples of any populations--anybody not getting 
this water supply that they needed?
    General Semonite. There was not. But you know that we got 
very, very close when we went down low. And we started to see a 
lot of pushback, mainly on some of the Native Americans and 
some of the recreation on the actual--inside the lake. And if 
you have seen the graph--and I have got it, I will give you a 
copy afterward--but we then started pulling that line back up 
off of the minimum releases. So we brought it up a little bit, 
another couple of feet higher.
    It is--where is that balance point? And there is no 
science, but it has got to be--how do we do adaptive management 
to continue to flex, based on what Mother Nature is doing?
    Mr. Mast. So we have got to find that line, General. I want 
to have your help in working on this as we move into this year.
    Twelve feet, the stated goal for this year. It is too high. 
If we would have been at 12 feet last year moving into 
hurricane season, we would have had those toxic discharges. 
Your dike would have been at serious risk of failing with a 
category 5 hurricane headed our way. I would love to have your 
assistance in working back towards 11 feet, where everybody got 
their water, we didn't have toxic discharges, the dike wasn't 
put at risk, and everything was able to be accomplished. I want 
your help in working towards this as we move into 2020 here.
    General Semonite. Sir, this is one of our biggest 
priorities, to find the right place to do it. I am not going to 
commit to a number, but I am telling you, it is definitely a 
lot more like what we did last year than what it was several 
years ago.
    Mr. Mast. Let's get to work. I yield back.
    Mrs. Napolitano. Thank you, Mr. Mast. The Chair now 
recognizes Mr. Lowenthal.
    Mr. Lowenthal. Thank you. First, I am pleased that we are 
beginning our work on the 2020 in one of the most critical 
things that we do, the Water Resources Development Act. And we 
are beginning this.
    WRDA is essential in my district, from the harbors of San 
Pedro Bay, to flood protection in Orange County, and ecosystem 
restoration along my coast, which is all being undertaken now.
    And I am glad for the Army Corps' diligent work on project 
studies like the channel improvements in the Port of Long 
Beach, which is in my district, and critical flood protection 
in Westminster and East Garden Grove, which impacts both my 
district and Congressman Rouda's. And I hope that we are going 
to be able to authorize these projects in WRDA 2020.
    But I would like to turn a little bit to Secretary James, 
to some of the policy issues, rather than the specific 
projects. In July, Major General Spellmon spoke with us about 
the Corps' efforts to update its evaluations of natural and 
nature-based infrastructure. And the Corps previously stated 
that it is going to issue new guidance to incorporate 
nonmonetarized benefits by the end of 2019. As far as I know, 
this guidance has not yet been published.
    So I have a two-part question. The first part is when can 
we expect the Corps to issue the guidance on accounting for 
social and environmental benefits of nature-based 
infrastructure?
    The second part is at a November 19th hearing of the 
Subcommittee on Water Resources and Environment, a 
representative from the National Wildlife Federation, the NWF, 
stated that the Corps has not consulted with that organization 
to help develop this guidance.
    So my question, the second part, is what nongovernmental 
stakeholder organizations has the Corps consulted with on this 
guidance? And what was the nature of that consultation?
    Mr. James. Yes, sir. You directed that to me as a----
    Mr. Lowenthal. Yes, I did.
    Mr. James. As a policy guidance----
    Mr. Lowenthal. And where is the status of the guidance now, 
and----
    Mr. James. I have no idea. I will be happy to get with the 
Corps and get you an answer by the first of the week on your 
questions.
    And don't take it as--that--jump back because I said I 
don't know, and because I said policy guidance. That is often 
the case. The Corps helps develop that guidance. It comes to 
our office at the Civil Works Office, and my team works it, and 
then we issue the guidance. And I have not received that 
guidance.
    Mr. Lowenthal. I am just saying that this follows up, we 
have already discussed that guidance. It is critically 
important for us, as we look at restoration, how we are going 
to really evaluate. And I think the Corps has really stepped up 
and said they are going to look at that.
    How are we going to evaluate and give them a fair chance to 
compete?
    Mr. James. Yes, sir. Yes, sir. Understood.
    Mr. Lowenthal. Thank you, and I yield back.
    Mrs. Napolitano. Thank you. The Chair now recognizes Mr. 
Massie.
    Mr. Massie. Thank you, Madam Chair. My question is for Mr. 
James or Lieutenant General Semonite.
    We have 280 miles of the Ohio River in my congressional 
district, three locks and dams, and very much appreciate the 
maintenance that is going to take place in the next year. All 
we need to know is when it is going to happen, so that we can 
plan around it. Lots of freight from all over the country going 
up and down through those locks and dams.
    When can we expect the work plan for the Ohio River and 
Great Lakes Division that will let us plan around those 
maintenance features?
    Mr. James. Well, sir, we are working in my office at this 
time on the work plan, the appropriations from the Congress. 
And I can't answer your question yet as to when those locks and 
dams will be addressed. I can give you my general answer.
    Mr. Massie. General is fine. I didn't mean to be too 
parochial, I just wanted to explain my particular interest.
    Mr. James. No, sir, I understand, and I don't blame you for 
that. I have got you.
    But my general answer is I wish we were repairing every 
lock and dam in this country, starting this year. But the fact 
of the matter is that we are not funded to the levels to do 
that.
    And I have even become concerned that some of the locks and 
dams that have been historically for agricultural exports down 
both the Mississippi and the Ohio River systems are being 
severely overlooked because they are just agriculture.
    But as far as yours, we will be looking at those in the 
work plan, I am sure.
    Mr. Massie. OK. And I am not as concerned about which lock 
and dam gets the maintenance at which point in time, because I 
trust that you all will do the worst first, or the ones in most 
need. I am just looking for the timeline for when that 
maintenance will happen, so we can plan the freight for those 
delays.
    Lieutenant General Semonite----
    General Semonite. So, Congressman Massie, it is an 
understanding right now that the fiscal year 2020 work plan 
will be rolled out probably the same day as the fiscal year 
2021 budget, which I think is around 11 February. And so it--
once we know what the Secretary--approving a work plan, we will 
have that all back--done in the back rooms.
    And we always want to make sure we are talking with 
industry, everybody else. Our goal is to be able to make sure 
there are minimum impacts. So whatever that is----
    Mr. Massie. Yes.
    General Semonite [continuing]. Because of timing here--we 
are very aware of any challenges to construction based on flow. 
So we are very aggressive. And I will commit to be able to make 
sure we minimize any destruction to commercial traffic or even 
recreational stuff with any of those outages.
    Mr. Massie. I appreciate your answers very much. I am going 
to yield back the balance of my time.
    Ms. Mucarsel-Powell [presiding]. Thank you. I recognize now 
my good friend, Representative Carbajal from the great State of 
California.
    Mr. Carbajal. Thank you, Chairwoman Mucarsel-Powell.
    Secretary James and Lieutenant General Semonite, thank you 
for the incredible work that you do and the Army Corps performs 
throughout our Nation.
    As you now know from our meetings, Secretary James, I 
represent the central coast of California, which is becoming 
one of the epicenters for the impacts of the climate crisis. 
From increased wildfires, prolonged droughts, more severe 
flooding, and devastating debris flows, the central coast is 
all too familiar with this new reality. Coincidentally, exactly 
2 years ago today a debris flow killed 23 people in my district 
during a severe rainstorm in the aftermath of the Thomas fire.
    Currently we have Corps projects that might bring some 
relief to my constituents as we deal with these new risks that 
you, Secretary James, and I have discussed in the past. And I 
would like to follow up on those.
    During World War II, a wild running river was diverted when 
the Army built the Salinas Dam to provide drinking water for 
soldiers training at Camp San Luis Obispo. Today local 
residents need access to that same water to combat the impacts 
of drought. And the county is asking to take possession of that 
dam.
    My understanding is that the Corps is working on a 
disposition study. Can you provide an update on where the Corps 
is in that process?
    Mr. James. No, sir, I can't. But the Chief may be able to.
    General Semonite. Congressman, we come prepared to talk 
about 200 to 250 projects. That is one of them I am not smart 
on today. So we will find out and get you an answer. I will 
either have the district commander report to your office, and 
we will run this to ground and find out what is going on.
    And if there is a good reason to be able to have access, we 
certainly don't see any reason why we couldn't be able to 
support that.
    Mr. Carbajal. Thank you. Well, secondly, the Lower Mission 
Creek Flood Control Project began as a partnership between the 
County of Santa Barbara and the Corps in the 1960s. While I am 
glad to see the Corps is working with the county on a Post-
Authorization Change Report to account for the post-fire 
hazards, increased property valuations, and construction 
already completed by the county, I am concerned that the Corps 
is not accounting for environmental benefits.
    Is the Corps looking at updating its guidance on how they 
calculate benefit-cost ratios, BCRs, to consider environmental 
benefits?
    Mr. James. You are probably correct on that, on the BCR 
ratio. We are not including environmental benefits or, if I 
find I am wrong in that statement, I would be surprised.
    The thing about the BCR is that, in a lot of areas, not 
only the environmental benefits, but we are not capturing other 
benefits that should be captured, particularly in rural areas 
of this country, like regional benefits.
    So I will yield to the Chief here and see what he says 
about those benefits which you are speaking about, but that is 
something that I would like to discuss with the committee at a 
later time, in general.
    General Semonite. So, sir----
    Mr. Carbajal. Thank you.
    General Semonite. The Secretary and I both feel very, very 
strongly that, when we talk about revolutionizing stuff, I do 
think that there are some smart things we can do with benefit-
cost ratio, both how we calculate that, how that is configured 
through the budgeting process, and we have made some 
recommendations to those effects to try to be able to 
accommodate some of those other things that are out there.
    A good example, the one you are talking about, Lower 
Mission Creek. The benefit-cost ratio is .33. The way that that 
is designed, we will have a hard time ever getting that 
through. And to be honest with you, that is a project that 
could very easily be deauthorized, only because it has been 
several years before we have been able to do money.
    So we have got to come back in and try to figure out how 
can we reformulate it. We are looking at what is called a 
general reevaluation report right now on Lower Mission Creek. 
But if we can't somehow change the rules to BCR, there are 
going to be projects like the Lower Mission Creek that will 
have a hard time ever getting through the authorization stage.
    Mr. Carbajal. Well, I am looking for that new report that 
is going to take into consideration new criteria that I think 
would allow for that BCR to come up and wait.
    Secretary James, I also want to bring to your attention 
additional needs at the Morro Bay Harbor Express. I shared a 
copy of that letter with you again today that I sent you last 
week. They are requesting additional support of $250,000 for 
the fiscal year 2020 work plan that would augment the millions 
of dollars that they have already received for their dredging 
effort.
    What is the timeline expected to finalize that work plan?
    Mr. James. The work plan will probably be finished about 
the same time of the fiscal year 2021 budget, and that would be 
within the next month to 5 weeks. So not very long.
    Mr. Carbajal. Thank you very much.
    Madam Chair, I yield back.
    Ms. Mucarsel-Powell. Thank you. I now yield to Mr. LaMalfa 
from the State of California for 5 minutes.
    Mr. LaMalfa. Thank you, Madam Chairman. And gentlemen, 
thank you for appearing here today and for your previous help 
on issues that we have worked on together. Thank you for that.
    So I will get right into it here. A couple things, a really 
important one in northern California. We have had issues again 
out of the Sacramento Division. Under the Clean Water Act, 
which provides clear exemptions for agricultural activity, 
WOTUS was used, combined previous with EPA and Army Corps, to 
basically trigger penalties against farmers for plowing, for 
changing crops to things--normal farming, such as vineyards and 
orchards, like that. And you used WOTUS in the Clean Water Act 
as, basically, a weapon to stop those things from happening.
    WOTUS has been repealed, and several times in court upheld 
as not proper. So is the Army Corps going to finish 
reimplementing the 2007 provisions and get the Sacramento 
Division to quit enforcing in this manner?
    Mr. James. Sir, that depends on what State it is in. The 
step 1 of the current WOTUS process was supposed to eliminate 
the 2015 rule. There were suits brought against that.
    There are now 22 States operating under the 2015 rule, and 
the rest of the country is not. I know this is a mess, but I 
didn't do it.
    And what we are shooting for is the step 2 rule, which has 
already been out for comment, the comments have been received 
and are being analyzed as we speak. The step 2 WOTUS should be 
probably rolled out, I don't know, I would say within the next 
2 months. And it will address the kind of things that you are 
talking about, things that were in the combination of rules 
prior to this one that were infringing upon, actually, the 
rights of citizens, homebuilders, farmers, et cetera, et 
cetera.
    So I guess the answer is hang on a little bit.
    Mr. LaMalfa. Well, I appreciate that, but we have people 
currently in litigation that are being charged at--you know, 
their life is in limbo right now. And if this is a Federal 
action, can't the Federal entities take control of the 
situation, even though you say 22 States feel like, I guess, 
they wish to continue enforcing under old WOTUS guidelines?
    Mr. James. Those separations were done in the litigation 
against the step 1 and the applicability rule. And that is--I 
really can't go any further than that explaining to you the 22 
States----
    Mr. LaMalfa. But is the State----
    Mr. James [continuing]. Because I don't know.
    Mr. LaMalfa. Is this the 22 States continue to wish 
pursuing as if WOTUS was in place, these----
    Mr. James. No, no, I don't think so. I don't think so. It 
was a technical----
    Mr. LaMalfa. Are they seeking relief from that? Is that 
what you are----
    Mr. James. Well, it was a technicality, the way the suits 
went.
    Mr. LaMalfa. Yes, OK. Let me shift gears real quick on 
that, too.
    We have had some really good work done in northern 
California, on the levee projects that me and Mr. Garamendi--
actually, two different ones we share in the Hamilton City area 
and the Sutter Buttes area that he mentioned. But we had 
problems on the Sutter Buttes area, where a lot of that area 
has been Native American burial grounds underneath some of 
those levees for many, many years.
    And so the agreement was worked out with the local Tribes 
who are the monitors of that to have respectful handling 
whenever remains were, basically, disturbed in the process. 
They bent over backwards to be helpful on doing needed flood 
control levee repairs on that, only asking that they have 
respect for what happens on their ancestral lands.
    So what had happened is that the Army Corps was not 
communicating well much of the time with the Tribe when the 
work was actually being done. And then we have had to intervene 
to get the Army Corps to continue to have the conversations, 
then have respectful handling of the remains when they are 
found.
    Have we heard similar complaints from outside the 
Sacramento Division about this across the country with regard 
to those types of----
    General Semonite. So, Congressman, we are certainly aware 
of the United Auburn Indian Community proposal. This is some of 
the deals with more expansive rules on the burials. We have not 
necessarily seen a lot of other problems in other areas.
    I think right now we are trying to figure out what does the 
law say we have to do. It is great to follow what you have to 
do, but then what should we be doing, as well, and how much 
flexibility do we have to do things that probably are a little 
bit more than what the requirement is, but certainly in keeping 
with what the Native Americans would want to do.
    So I think that is something that we have got to continue 
to find out. It could come at additional cost if, in fact, that 
burial requirement means to go to more remote areas. And we are 
trying to figure out do we have any limitations from Congress 
on how much we can spend, and that kind of stuff. So we have 
got to continue to work our way through that.
    Mr. LaMalfa. Well, if the Tribe is included on that, I am 
sure they would be happy to help find solutions.
    General Semonite. And there is no excuse for not having 100 
percent consultation. So if there is ever a time that you hear 
or anybody in the room hears that, then I will call our team up 
and say, ``You have got to do a better job of getting out there 
and making sure that we are listening as much as we can.''
    Mr. LaMalfa. Yes, I appreciate that. Thank you for that.
    Ms. Mucarsel-Powell. Thank you, the time is up.
    Mr. LaMalfa. Because, indeed, a lot of this issue seems to 
be coming from that Sacramento Division on these two issues I 
spoke of.
    Ms. Mucarsel-Powell. Thank you, Mr. LaMalfa.
    Mr. LaMalfa. Thank you.
    Ms. Mucarsel-Powell. I now yield 5 minutes to Ms. Craig.
    Ms. Craig. Thank you, Madam Chair. As you may know, I 
represent a district with a relatively active Army Corps 
footprint, with dredging and operation of multiple locks and 
dams on the upper Mississippi, as well as operations and 
maintenance on the Minnesota River, which is one of the 
tributaries.
    One of my goals for WRDA 2020 is to formally incorporate 
the Minnesota River channel maintenance in the authorization 
for the Mississippi River Project. You might be aware that the 
Minnesota River Project has received a very small 
appropriation, around $260,000, in recent fiscal years to 
conduct important maintenance, dredging activities, within the 
channel near Savage.
    The Minnesota River is a major agricultural tributary that 
transports approximately one-fourth of the 16 million tons 
annually shipped in and out of the State of Minnesota. The 
Minnesota Department of Transportation has indicated that this 
has an annual economic value in excess of $362 million. 
Unfortunately, the funding for this project was not included in 
the Army Corps full-year 2020 budget, and no money was 
appropriated in the recent spending package enacted by 
Congress.
    So my question is, with the importance of this tributary in 
mind, I was hoping one of you could help me better understand 
why this project, with a clear return on investment, was cut 
from the budget.
    Mr. James. No, ma'am. Sadly, I can't tell you why it was, 
other than the other priorities that were in the budget. I will 
commit to you that I will look at the work plan we are now 
striving to finish, and then I also commit to you that I would 
visit you at your call to get more details on the Minnesota 
River in order to elevate its status for budget considerations. 
But----
    Ms. Craig. Thank you.
    Mr. James [continuing]. At this point that is all I would 
know to do.
    General Semonite. So Congresswoman, we are very, very aware 
of this. This is a critical river. It has been dredged 15 of 
the last 20 years, but it has not got adequate funding, without 
a doubt. And it really, unfortunately, falls into the rack and 
stack of all the rivers that should be dredged. But there is 
going to be a line somewhere, and this one just is hard to be 
able to get it above the line.
    We are very aware of what the capability we could do this 
year. My guys today are trying to figure out the work plan for 
dredging on O&M. So we will have a better understanding. It is 
going to be right on the line, though. So we will try to do the 
best we can to get it there, but this is one that--just because 
of it is a smaller river, it is a little harder to pull across 
the line.
    Ms. Craig. Thank you. I appreciate it. It is really 
important to the State of Minnesota.
    I know this project has been funded in the past as non-
Harbor Maintenance Trust Fund operations and maintenance. The 
Corps most recently included it in the Harbor Maintenance Trust 
Fund section of the 2019 O&M budget, which limited its 
reprogramming abilities. Can you explain a little bit and help 
me understand why the Corps took that action to shift it into 
harbor maintenance?
    Mr. James. No, ma'am. I will have to submit to the Chief on 
that.
    General Semonite. And I don't know, either----
    Mr. James. I do not know----
    General Semonite. I would envision we probably thought 
that, because we could have more flexibility in our Harbor 
Maintenance Trust Fund, maybe it would compete better there. 
But let us get back with you and find out.
    Most of the time the reason we would move something is to 
get it better visibility and, perhaps, a bigger funding pot.
    Ms. Craig. Thank you.
    Mr. James. I don't even see how we could do that. I don't 
think it is eligible for the Harbor Maintenance Trust Fund. I 
mean there are some inland ports that are, but I didn't think 
they were in Minnesota. So I would be interested in knowing the 
answer to that, myself.
    Ms. Craig. Well, I appreciate very much your commitment to 
look into it. This is incredibly important to the agricultural 
community in my district and throughout the State of Minnesota. 
Thank you.
    Madam Chair, I yield the remainder of my time.
    Mrs. Napolitano [presiding]. Thank you, Madam.
    Mr. Palmer, you are recognized.
    Mr. Palmer. Thank you, Madam Chairman.
    This is for both of you, particularly Mr. James, though. 
During a March 2018 oversight hearing I requested a list of 
outstanding feasibility studies, including the duration and 
cost. And I got a list of 97 studies. And looking at the list 
that you provided in your written testimony--the written 
testimony indicated it is from both of you--there were 17 
Chief's Reports that have been signed.
    I checked this list against the studies conducted by the 
Corps and found that the studies ranged in length from 18 
months to 142 months. And cumulatively, the Corps spent over 
$47 million on these studies. And I appreciate the fact that 
there appears to be an effort here to bring these to a 
conclusion, but my question is why does it take so long to 
study these projects and bring them to completion?
    Mr. James. I will submit to the Chief on that, because I am 
not the one that does those studies.
    General Semonite. Sir, a lot of this is some of these get 
to be trying to find an optimal way of balancing, whether it is 
flood risk management, water supply, ecosystem restoration, a 
lot of different players that want to be able to try to get 
their perfect solutions.
    I said a couple of minutes ago it is hard to be able to 
figure out where that sweet spot is of finding a project that 
can be authorized. So, unfortunately, sometimes my guys go out 
to try to make everybody happy and try to solve all those 
different challenges, and we go overboard to try to appease 
that. But sometimes it is just hard to be able to integrate all 
those different desires back in.
    So this is why, at some point, we snap a chalk line at 3 
years and say, ``What is the best we got that we can give 
Congress,'' let Congress make the decision on this. But we have 
got to be faster.
    Mr. Palmer. Well, in the list of studies that are still 
ongoing, apparently are ongoing, 13 of them were over 200 
months. One of them is over 300 months. And I--to give you a 
little bit about my background, I ran a think tank for 25 
years. Prior to that I worked for two international engineering 
companies. So I am kind of linear and analytical in my 
thinking. And it seems to me that if we have a project that 
justifies a study, that at some point we ought to build it.
    And my question is how do you prioritize this?
    Now, I listened to my colleagues from Florida and other 
places, and clearly they have got projects that require 
immediate attention. But Mobile Harbor here is--the study has 
been going on now for close to 80 months. As of March of 2018 
it spent $5.7 million on that.
    At some point, just from an engineering perspective, you 
have to reach a conclusion. Either the project is a low 
priority and shouldn't be done, or it is a high priority and it 
should be done. I mean there has got to be some way to 
prioritize these and actually start putting the money into the 
ground, or into the water.
    General Semonite. So, sir, the ones that are the real long 
ones are really those outliers, where it is almost too hard to 
find an acceptable solution.
    The other thing a lot of times, the non-Federal sponsor 
might not necessarily be willing to sign the document. We have 
got a couple studies right now, where we are ready to go 
forward, but we don't necessarily--the other side will go 
ready. Sometimes we have certain agencies that have BiOps, they 
have different opinions. So it just gets very confusing to 
figure out how to expedite them all.
    But we do it. We run all these down through a list, and we 
are trying to work the worst ones. And if we can't get them 
done, we will come back and say it ought to be deauthorized.
    Mr. Palmer. Now, this is before you guys came along, and I 
want to echo my colleagues, you guys have really improved 
things, and I appreciate that. I appreciate your service.
    But you had a study that went on for over 30 years of 
building a diversion canal from the Comite River to the Lilly 
Basin in Louisiana, and the locals--everybody, as far as I can 
tell--wanted to do that in anticipation of a major flood, which 
occurred, cost us several billion dollars, a number of people 
lost their lives. The Corps is now building the diversion 
canal.
    So--and I want this to be taken in a positive light, that I 
would like to see the Corps prioritize these projects. I would 
like for you to report back to me on this list of studies that 
are ongoing, how long they have been going on, how much they 
cost, and what the priorities are. I think that is a reasonable 
expectation from the Corps.
    General Semonite. Sir, we both have the same desire. We 
want to get rid of the backlog, continue to reduce timelines, 
and continue to expedite, put the priorities on the most 
important things.
    Mr. Palmer. I thank the Madam Chairman, and I yield back.
    Mrs. Napolitano. The Chair recognizes Mr. Malinowski.
    Mr. Malinowski. Thank you, Madam Chair.
    General Semonite, I wanted to raise with you a project and 
a problem that is very, very pressing for folks in my district 
in New Jersey.
    As you know, the Rahway River in New Jersey floods whenever 
there is a major storm. During Hurricane Irene, flooding in the 
town of Cranford in my district affected thousands of homes. It 
happened before, it will happen again. And there has been a lot 
of work done looking at this over the years, a lot of 
complicated issues that the Corps and local stakeholders have 
been struggling with. But I was disappointed to learn that the 
Corps has determined that it would terminate the Rahway River 
flood risk study.
    Now, I understand that when this project was transferred 
from the New York District to the New England District, you 
made a commitment to Senators Booker and Menendez that you 
would continue to work to find a solution that is suitable to 
all parties.
    And so, recognizing the complexities, what I am hoping to 
hear from you is whether this commitment still exists, and 
whether the Corps is willing to stay engaged as the local 
stakeholders continue their efforts to forge a consensus on a 
way forward.
    General Semonite. So, Congressman, I travel 3 days a week. 
When there are the real thorny projects, I fly in and I find 
out what is going on. I did talk to both of the Senators 
personally. I said we were going to try to find a way of 
facilitating a solution on this one. So I have been to Orange 
Reservoir several times, I have been walking around those.
    This is exactly back to Congressman Palmer's question of, 
when you have something that is going on for a long time, and 
you can't get everybody to align to the good-enough solution, 
at what point do we say, ``Too hard''? The benefit-cost ratio 
has to be over 1, by law, for me to sign a Chief's Report. I 
can't get over 1 right now, unless I have more flexibility.
    So we ask for an additional pond down below, which--there 
is land. Locals didn't want to have an additional pond. We 
asked to be able to raise the dam above. The locals didn't want 
to have that happen. So this is where everybody held to the red 
line. And at the end of the day, it is not that there is not an 
engineering solution; there is not an acceptable solution that 
all of the stakeholders can agree to.
    So then I owe it back to people like Congressman Palmer to 
say, ``Probably too hard. This one has got to find a different 
out-of-the-box solution.'' Or, if not, sir, then all we do is 
we keep expectations out there that something is going to 
happen, when we can't find a way of feasibly giving you an 
acceptable project----
    Mr. Malinowski. I would say that the expectations are quite 
realistic, and everybody understands the difficulties that you 
have just outlined. On the other hand, we have got to find a 
solution, because human beings are involved. And so----
    General Semonite. We stay committed to trying to find an 
acceptable solution.
    Mr. Malinowski. OK. Are there options to keep the study in 
a pending status, rather than terminating it at this stage, in 
order to basically keep that process alive while we search for 
that local solution that you need?
    General Semonite. Sir, we have already gone down this road 
2 years ago. We can certainly look at it again, and maybe Mr. 
James and I can put our heads together.
    But I think what we would need to see is some significant 
different change in some of the stakeholders' positions on 
ability to find an alternative----
    Mr. Malinowski. If that consensus is reached, can you walk 
me through the next steps from the Corps' perspective?
    General Semonite. So then we would continue to be--it is a 
benefit-cost ratio. So I either got to bring costs down, or I 
got to make benefits higher. We don't want to in any way fudge 
numbers, so the bottom line is I can't really do much with the 
benefits.
    So how can the local stakeholders find a way--a good 
example is land. If we get land free, instead of having to buy 
land, that comes off the cost. If there are ways that I could 
figure out how to--if there are other benefits, how can we 
continue to work the equation so that I can give in the WRDA an 
over 1 BCR, and then you could make a decision whether to fund 
it or not.
    Mr. Malinowski. Understood. Shifting gears a little bit, I 
did want to come back to you, Assistant Secretary James, on the 
issue of NEPA and the proposed rules that Congresswoman 
Napolitano asked you about.
    Our understanding of one of the potential impacts of the 
proposed rules is that there would no longer be a requirement, 
for example, to understand how or whether a road or bridge in a 
coastal area would be threatened by sea-level rise. If that is 
true, does that strike you as sensible, that we would not need 
to take those factors into account under those circumstances?
    Mr. James. No, sir, that wouldn't be sensible.
    Mr. Malinowski. Thank you. I yield back.
    [Pause.]
    Mrs. Napolitano. I was distracted somewhat. Mr. Rouzer, you 
are recognized.
    Mr. Rouzer. Thank you, Madam Chairman. I want to thank, 
too, the very distinguished gentlemen for being here today.
    And before I get into two particular projects in my 
district, I want to thank you for your help, and not just your 
help, for the approval of the no-wake zone there in Southport. 
This is an issue that we had dealt with for some time. And, as 
they say, all is well that ends well. So I really appreciate 
your help and attention to that.
    Two issues. One, the Port of Wilmington is currently 
finalizing a section 203 study that I know you all are aware 
of. I understand the NEPA review process has begun in 
concurrence with that study. And I know there has been some 
conversation in terms of how the Corps may fund that NEPA 
process. And I am just wondering if you all have identified 
your source of funds for that at this point.
    Mr. James. If it is up to me to answer you, I will have to 
get back with you, sir, because----
    Mr. Rouzer. Well, that is OK. Let me add that I understand 
there are some previously appropriated funds available from a 
2006 study resolution for the Cape Fear River which might be 
used. That is a closed project, as I understand it. I may not 
have quite your terminology, but that might be an avenue, if 
you are searching.
    General Semonite. So, sir, we will certainly follow up on 
that. There are times we can come back in and ask permission to 
take on and use funds and transfer them back over.
    The Port of Wilmington is like many other major ports. We 
see significant benefits in those port deepenings. The section 
203 does go directly to the Secretary, so then he will make the 
decision as to what is going to happen. We are committed to 
continue to support that.
    I think the challenge is that when a 203 comes in, who puts 
the thumbprint on it to say it is actually a constructable 
project? And right now, some of the work that has been done 
with the contractor for the Port of Wilmington, we want to make 
sure that is quality work that we can stand behind.
    So there is a little bit of a challenge there, I just want 
to be honest with you. We are working our way through that. But 
we want to make sure Mr. James gets that report, that he has 
enough information to make an informed decision on.
    Mr. Rouzer. Sure. Well, of course, the port there at 
Wilmington is a crucial component to commerce in North 
Carolina, and we have got great management down there, the best 
we have ever had, in my opinion, that are really doing a superb 
job. And we really, really appreciate you working closely with 
them to make this work. And let me know how I can be helpful in 
that process, as well.
    Second, the Surf City, North Topsail Beach Coastal Storm 
Damage Reduction Project, I know this is one that we have 
discussed in the past. And to put this in context, Surf City, 
North Topsail Beach is right where Hurricane Florence came 
through. The northern part of the storm hit that area really, 
really hard. Of course, it hit the whole southeastern corner of 
the State really, really hard.
    Those beaches that have good storm damage reduction 
projects in place, they fared pretty well. You had a lot less 
casualty, in terms of structures, et cetera. Infrastructure, 
too. That North Topsail area, which we have been, you know, 
trying to get this approved and in place for some time, 
suffered major damages, in large part because there hasn't been 
a robust storm damage reduction project there.
    So it is one of those things where a little investment up 
front saves a lot of taxpayer money on the back end. And I just 
really encourage and hope that you all will go to bat, and 
would love to see this in the work plan, if in fact it doesn't 
get approved with a supplemental.
    General Semonite. So, Representative, you are exactly 
right. There are two different venues of where this could 
happen. When I was the division commander I went to Surf City 
many times, talked to the mayor down there. I am very aware of 
the criticality of that particular project.
    The supplemental hasn't been released, you are aware of 
that. We are considering it very, very closely in the work 
plan. Hopefully, it will compete well. So we owe it to you to 
be able to figure out how do we somehow find a way of taking 
care of this disaster and the risk that is out there.
    Mr. Rouzer. Thank you very much. That is all I can ask. And 
just let us know how we can be helpful to you.
    Thank you both for your service. I would not want your job, 
and particularly dealing with all of us here. So thank you.
    Mrs. Napolitano. Ditto. Thank you, Mr. Rouzer.
    Mr. Espaillat, you are recognized.
    Mr. Espaillat. Thank you, Madam Chair, and thank you both, 
Assistant Secretary James and Chief Semonite, for being here 
today.
    At our last hearing in November on resiliency, I recall 
some of the havoc brought by the information and the question 
regarding Superstorm Sandy and the impact that it had on New 
York City. The storm didn't just cause flooding in predictable 
low-lying areas, like the Rockaways, or the South Shore, Staten 
Island, it also brought seawater into downtown Manhattan in the 
financial district. I could never forget the photo of the 
southern half of Manhattan in darkness, while the upper half, 
which is higher land, with electricity.
    My district, however, in the northern part, East Harlem, a 
comparatively low-lying area, saw severe flooding the likes of 
which residents have not experienced in a generation. It is 
clear that climate change contributed to the storm's 
unprecedented impacts, and that future storms may be even 
worse.
    As part of the response to Sandy, the Corps undertook a 
North Atlantic Coast comprehensive study, which, in your own 
words, is designed to help local communities better understand 
flood risks associated with climate change, and to provide 
tools to help those communities better prepare for future flood 
risks. I repeat, future flood risk associated with climate 
change.
    However, as some of my colleagues have recently pointed 
out, the Trump administration is putting forward a rule that 
essentially ignores climate change impacts when determining how 
to approach infrastructure. Given how important climate change 
is when undertaking water infrastructure and flood risk 
mitigation projects, how do you think the Corps will be 
affected by such a policy?
    How could you reconcile the administration's inability to 
recognize climate change as a contributing factor of these 
superstorms that impact infrastructure? And particularly as it 
pertains to the North Atlantic study. Any one of you.
    General Semonite. So, sir, first of all, I will talk from 
the science and engineering perspective. You know, we actually 
did do nine different focus areas coming out of that study you 
mentioned. East Harlem is at significant risk, there is no 
doubt about it. We agree with what you are saying there.
    We did an interim report in February of last year, we have 
got a bunch of numerous different outreach events we have done. 
And right now our goal this month is to finish what is called 
the tentatively selected plan as to how to go forward on that.
    We have got to deal in what is happening on the ground. So 
we look at what is out there, what is the risk on the ground 
over time, and how do we make sure we are building to address 
that risk----
    Mr. Espaillat. But will you consider climate change as a 
factor? Would you still consider that as a major factor in 
determining what you are going to do with infrastructure?
    If you redo infrastructure and you don't consider the 
climate change as a factor, as a risk factor, then obviously 
you aren't going to do it right. Will you consider climate 
change?
    General Semonite. We have definitely got to consider things 
that are happening in the world and the effects they are having 
on the ground. We have got to put that into our calculus, or we 
could build something that 50 years down the road doesn't work.
    Mr. Espaillat. But this is what this conversation is about. 
If we don't recognize climate change as a factor, then whatever 
you do is going to be flawed and inefficient.
    And so, what I am asking is has the Army Corps abandoned 
the concept that climate change is an important factor in 
building infrastructure?
    Mr. James. No, the Corps hasn't abandoned it, because it 
never used it----
    Mr. Espaillat. Thank you, that is----
    Mr. James. It never used that to begin with.
    Mr. Espaillat. Well----
    Mr. James. We use scientific technology to look forward. 
You call it climate change, or whatever you want to call it. 
But we look forward. If we are getting sea-level rises, they 
are recorded and we use that when we are building something.
    Mr. Espaillat. But, you know, to some degree the 
administration drives this train. And if they are unwilling to 
recognize climate change and, therefore, as a result, you are 
not taking that into consideration--although science does, 
right--then you are going to be caught up in this predicament.
    And all I want to know is that you will continue to look to 
science, although there will be different interpretations that 
what this administration may have regarding the impact of 
climate change. Will you continue to look at science?
    Mr. James. We are going to continue to look at science, 
just the way we always have.
    Mr. Espaillat. Thank you so much. Thank you so much. I 
yield back, Madam Chair.
    Mrs. Napolitano. Mr. Webster, you are recognized.
    Mr. Webster. Thank you, Madam Chair.
    Secretary and General, I am not sure who to ask this 
question to, but I will just throw it out there. I think it 
would be the general, maybe, but--in Florida the largest port 
that is a cargo port is Tampa Bay. And it provides over $17 
billion in economic impact, and employs indirectly or directly 
about 85,000 people. And the growth there has been substantial, 
a dynamic growth over the last several years, adding in some 
direct Asian lines and some of the major shippers in the world.
    And because of that, the channel is at 43 feet, and it 
needs to be more. We would like to deepen that. And so there is 
a possibility of dredging it to 44 plus 1, and that is what I 
guess my first question is. That is a near action, that is not 
the real action, that is not what is going to solve the problem 
forever. However, doing that would be very important. We think 
the overall is to sort of reinitiate and resume the Tampa 
Harbor General Reevaluation Report. But that is something, 
maybe, for a later date.
    And so my first question is, are you supportive of the 
request to use the existing authority--which we believe you 
have--to dredge the channel to a depth of 44 plus 1?
    Mr. James. Yes, sir. As far as I am concerned, if we have 
that authority, I am for that. I have been all up and down the 
east coast and the west coast of Florida, including Tampa Bay. 
And it is unbelievable, the growth at all of those, the 
economic development that is coming from that growth of 
shipping--and as a Nation. Yes sir, I support that.
    Mr. Webster. Great. Yes, because it--there are 300 
destinations there along I-4 and I-75 which are very close to 
the port, and they are all major distribution. And so that is 
why it has attracted all these new shippers, and part of major 
shipping lanes.
    My second question is, though, in--that is the short term. 
The long-term answer is the needs of the port to resume the GRR 
for Tampa Bay. Would that be also something that would be 
possible?
    Mr. James. I am sorry, sir. What was it?
    Mr. Webster. It is the--just resumption of the Tampa Harbor 
General Reevaluation Report to evaluate the future needs of the 
port with regards to the Corps.
    Mr. James. Yes, I don't know where the Corps is on that.
    General Semonite. So, sir, we see great merit in all these 
ports. We are a big believer that you can energize the economy 
and still do it in a manner that protects the environment and 
the habitat. Tampa Bay is one of the ones--I mean we are 
involved in, I think, about 15 in the Southeast right now.
    So I don't know exactly the status, but the challenge would 
be is how do they compete when it comes to port deepening. That 
would be the problem that is probably financial. Most of the 
time we can work through the mechanics of the benefit-cost 
ratio, but it comes back to what is timing, and when do we get 
that money that we could apportion to it?
    So if you want, I am more than willing to have my district 
commander report to you and to be able to give you a laydown on 
both the first question you have, as well as the GRR.
    Mr. Webster. That would be awesome. Thank you for appearing 
today. I yield back.
    Mrs. Napolitano. Thank you, Mr. Webster.
    Mr. Stanton, please, you are recognized.
    Mr. Stanton. Thank you very much, Madam Chair.
    General Semonite, we have had the opportunity to discuss 
the importance of the assistance for environmental 
infrastructure. In the last 6 years, $351 million has been 
allocated for environmental infrastructure, and approximately 
38 percent of those funds have gone to just six States. Arizona 
is the only State in the Southwest without an environmental 
infrastructure authority. And I have introduced legislation to 
change this to make sure Arizona can access these resources to 
address our aging water and wastewater systems.
    In WRDA 2016 and 2018 the section 7001 process for the 
Corps' annual report to Congress was expanded to include 
modifications to environmental infrastructure assistance 
authorities. Working with stakeholders across Arizona, we have 
submitted an environmental infrastructure authority 
modification through this process. This is a priority for 
myself and for communities and leaders throughout Arizona.
    Can you talk briefly about the benefits of this type of 
authority in other States?
    General Semonite. So, Congressman, we definitely have seen 
significant benefits in those other six States. The Corps would 
personally endorse whatever we can add. I would defer to Mr. 
James on whether that will work its way through the 
administration or not.
    But again, the more tools that we can provide so that 
States have the ability to lean on all those tools in the long 
run is going to give them more capability.
    Mr. Stanton. I appreciate the work the Corps has done to 
advance flood protection in Winslow, Arizona, and portions of 
Navajo County. Approximately 1,600 structures, including almost 
all of the community's critical public facilities--hospitals, 
schools, nursing homes, and utilities, along with 2,700 
properties--are currently in the 100-year flood plain.
    The proposed Federal flood control project, which is now 
ready for authorization, consists of new and reconstructed 
levees to protect the community and parts of the county from 
the Little Colorado River. In order to begin advancing this 
critical project, the L.A. District has requested design funds 
for fiscal year 2020. Will you support the district's funding 
request for design funds in the fiscal year 2020 work plan?
    General Semonite. I certainly will, sir. I don't know 
exactly where that one falls on the rack and stack, but I would 
think that that would compete well.
    Mr. Stanton. I really appreciate that. We have also talked 
at length about Tres Rios, which is an effort to restore and 
revitalize over 50 miles of the Salt and Gila River corridors. 
The project is partially complete. But, as you know, we have 
reached the section 902 limit. To complete this project, this 
limit must be adjusted in the WRDA.
    I was disappointed to receive your December letter 
indicating that the validation report necessary for this 
adjustment will not be completed before the end of fiscal year 
2021. This timeline is very frustrating, because it means that 
we will yet again miss the opportunity to adjust the limit in 
WRDA, putting our next opportunity to do so in 2022, 2 years 
from now.
    What assurances can you give me that this validation report 
will receive priority within the Corps?
    General Semonite. So, sir, again, this is where we are 
going to push hard. I told you we have got 17 down, we have got 
20 more we are going to get in. I got 15 more by the end of 
December. The question is how long can you really, really go 
until they cut off of WRDA. We are saying September 20 right 
now is when we are going to, hopefully, get this done. I would 
love to push it to the left, but there is a day that there is 
going to be someone that is still a week out.
    So we are going to try to push every one of these to get 
into the latest possible day we can get them to them. It is 
just we want to also make sure that the mechanics are right, so 
the 902 gets raised.
    Mr. Stanton. Yes----
    General Semonite. We definitely understand this, and we are 
committed to being as fast as we can on this.
    Mr. Stanton. Thank you, General. Do you have the resources 
necessary to do the report?
    General Semonite. We definitely do.
    Mr. Stanton. What can be done better to expedite the 
timeline you have outlined in your letter?
    General Semonite. I think it goes back to probably that 
question of can we take some well-informed risk with respect to 
process. Are there some areas that I don't necessarily need to 
do a deep dive to be able to make sure--not necessarily that 
hard, it has already been an approved project, we are just 
trying to raise the limit. There is inflation. So how can we 
somehow be able to lower the bar of how much actually needs to 
be provided, and to be able to get it in, so we can make it 
happen?
    I am even willing to take the risk to say get it in 
regardless and, if we do have a problem, then Congress can tell 
us that we should have done more on that one, and kick it back 
to us.
    Mr. Stanton. Thank you for taking that risk.
    Finally, I want to thank you for your continued commitment 
to the Rio de Flag flood control project in Flagstaff. This 
project has been Flagstaff's top priority for the last 20 
years, and it is a high priority for me and the entire Arizona 
delegation in a bipartisan way.
    And I ask unanimous consent to include in the record a copy 
of the letter the Arizona delegation sent to the Corps 
requesting $52 million for the project in the fiscal year 2020 
work plan.
    General Semonite, it is my hope the work plan will include 
these funds to complete this critical project.
    General Semonite. So Senator McCain asked me to go 
personally out there, and to be able to look at this within 
about a week of when I took over. And I flew out right away. I 
have been there a couple of times. This project has to be done.
    The challenge is that we got--I think--going to be complete 
here in September of 2020. This should compete, I would think, 
but we have got to continue to find a way of making this 
happen.
    It might not be done all at once, it might be a section at 
a time. And you are aware there are incremental sections here. 
We can build, you know, 15 percent at a time and get it done 
over a period of several years.
    Mr. Stanton. Thank you very much. I did ask unanimous 
consent, and I didn't complete, and I apologize.
    Mrs. Napolitano. That is all right. We will accept it, and 
it will be part of the record.
    [The information follows:]

                                 <F-dash>
Letter of December 19, 2019, from Hon. Tom O'Halleran, a Representative 
in Congress from the State of Arizona et al., Submitted for the Record 
                          by Hon. Greg Stanton
                                                 December 19, 2019.
Hon. R.D. James,
Assistant Secretary for the Army (Civil Works),
Washington, DC.
Lt. General Todd Semonite,
Chief, Army Corps of Engineers,
Washington, DC.

RE: Rio de Flag Flood Control Project (Flagstaff, Arizona)

    Dear Assistant Secretary James and Lieutenant General Semonite:
    We are writing to express our strong support for $52 million in the 
Fiscal Year 2020 work plan to complete the Rio de Flag flood control 
project in Flagstaff, Arizona. Its completion is critical to the public 
safety, health and protection of lives and property as well as the 
economic viability of the City of Flagstaff.
    A significant flood event would directly affect more than half of 
Flagstaff's population of approximately 75,000 residents and would 
result in damages to approximately 1,500 structures valued at over 
$916,000,000 (from an analysis conducted in 2008). For the last 30 
years, the City of Flagstaff's top priority has been to mitigate 
potential flood damage caused by the Rio de Flag. Since FY 2002, the 
Rio de Flag flood control project has received more than $30 million in 
federal appropriations for various phases of the project. With these 
resources, the United States Army Corps of Engineers (USACE) has 
conducted the reconnaissance and feasibility studies, completed the 
pre-construction engineering and design (PED), and begun the 
construction phase.
    Because of this funding, 100 percent design on the project is 
expected to be completed in May 2020. Completion of the 100 percent 
plans will ensure a design certain that will result in lowering 
contingencies, increasing the benefit-to-cost ratio (BCR), finalizing 
property acquisition, design of utility relocations and bridge design 
in partnership with BNSF Railroad. More importantly, 100 percent design 
completion will allow the Rio de Flag project to complete the remaining 
$52 million in construction.
    As you know, the House Energy and Water Appropriations bill 
contains $2.34 billion for Corps construction, which is a $154 million 
increase over FY 2019 enacted levels. The Senate bill increases the 
construction line-item by $612 million over last year's levels. In 
other words, there is likely to be a significant increase in Corps 
construction funding in FY 2020. We respectfully ask that you use a 
small portion of this funding to complete the Rio de Flag project.
    The federal government and the City of Flagstaff have already 
invested nearly $45 million in this project. Delaying it would be 
irresponsible and a waste of taxpayer dollars already expended that 
could result in huge losses of property and increase the risk of the 
loss of life and creation of public health and safety issues. That is 
why we strongly support $52 million in FY 2020 funding to complete the 
remaining portions of this project to ensure that downtown Flagstaff, 
Northern Arizona University, BNSF Railroad, and the historic Southside 
community are permanently protected from a catastrophic flood that 
continue to hamper northern Arizona's largest city.
    As always, we ask that this matter is handled in strict accordance 
with all agency, rules, regulations and ethical guidelines. Please do 
not hesitate to contact our offices with questions, or if we can be of 
further assistance.
        Sincerely,
Tom O'Halleran,
  Member of Congress.
Ann Kirkpatrick,
  Member of Congress.
Raul M. Grijalva,
  Member of Congress.
Paul A. Gosar,
  Member of Congress.
Andy Biggs,
  Member of Congress.
David Schweikert,
  Member of Congress.
Ruben Gallego,
  Member of Congress.
Greg Stanton,
  Member of Congress.

    Mr. Stanton. Thank you, Madam Chair.
    Mrs. Napolitano. Thank you.
    Mrs. Fletcher?
    Mrs. Fletcher. Thank you, Chairwoman Napolitano, and thanks 
also to Ranking Member Westerman for holding this hearing.
    Thank you, Secretary James, and thank you, General 
Semonite, both for being here today and for your continued 
leadership on critical projects in the greater Houston area 
that I represent, including the flood risk management plan 
project and the Buffalo bioresilience study, and, of course, 
the project to deepen and widen the Houston Ship Channel. It is 
really important for us to address these critical needs as 
quickly as possible, and we are very grateful for your work and 
your leadership.
    I cannot overstate the importance of your work in my 
district and in our area. My district, as you may know, 
contains the Addicks and Barker Reservoirs, and that is 
essential to us and to the entire region.
    I do want to follow up, with the limited time we have 
today, and may have some questions to submit for the record on 
these projects. But I wanted to comment on the conversation 
about the Houston Ship Channel. I appreciate your prior 
testimony on that, and wanted to note that in your written 
testimony and your oral testimony this morning you mentioned 
several priorities for projects that I think this project 
really exemplifies: strong partnership between the Federal 
Government and non-Federal stakeholders. I think we have seen 
that this exemplifies and is the kind of project you could use, 
really, as a model for projects across the country.
    And there is an incredibly high economic value that we have 
to take into consideration in getting this project moving. The 
Houston Ship Channel is not just a local or regional asset, it 
is a national asset. It is critical for U.S. exports, it is 
critical for our national energy security, and it is critical 
for domestic manufacturing.
    As my neighbor, Mr. Babin, already noted, it is the busiest 
port. And this waterway sustains more than 1.3 million jobs and 
$339 billion of economic value in Texas. And beyond Texas, the 
channel impacts 3 million U.S. jobs and provides $802 billion 
in economic value.
    So I appreciate your commitment to complete the Chief's 
Report by April, and to help us meet our May deadline. I want 
to reiterate the critical importance of getting this project 
authorized and moving, and look forward to working with my 
colleagues in hopefully incorporating it into WRDA 2020.
    I would ask you to please keep us apprised of your 
progress, and if you run into any challenges or potential 
delays, to let us know as quickly as possible.
    I also want to urge you to pay critical attention to a 
project that is not slated for a Chief's Report at this moment, 
but is in the appendix. And that is the Metropolitan Houston 
Flood Risk Management and Resilience Project. And what I would 
like to do with the time we have left is just ask for you to 
explain a little bit about where we are, and what we can 
expect.
    I am certain that you know the importance not only to my 
district, but to the entire region, of addressing the flooding 
management. And certainly the impacts of Harvey are well known 
to you both in Addicks and Barker, as well as throughout the 
region. My constituents are very anxious to make sure that 
these projects move quickly. I know the Buffalo bioresiliency 
study is underway, and slated to be completed in 2021.
    But, if you could, walk us through the status, the project, 
the timeline, what we can expect and, basically, what can I 
tell my constituents about what the Army Corps is doing there.
    General Semonite. So, ma'am, you know, we lost at least 14 
people in Harris County due to some of these floods down there. 
And what you have got is you have got 22 different watersheds. 
They are all competing, trying to figure out how to get the 
water down to where it needs to go. We have got to have an 
integrated plan.
    That is what this study does, is it takes a look at instead 
of doing tactical-level work, how do we put this into a system 
to make it happen?
    Right now the study is ongoing, it is on plan. We don't see 
any problem. As opposed to a Chief's Report, we call this a 
Director's Report. Mr. James and I have delegated some stuff 
down to our senior SESs, so they will sign that. We expect it 
to be done in July of 2021, which is basically the plan we have 
got.
    And then, once we know the results of that, how does that 
matriculate back into projects to be able to actually support 
the other four or five critical studies you talked about? And 
they all are going hand in hand, and they are all kind of 
interwoven. But right now the supplemental did a phenomenal job 
of giving us the funds to do it.
    So there is no significant challenge with either funding 
or--if anything, it is probably just to be able to make sure we 
can get all the stakeholders aligned to be able to make sure 
that we have got an integrated outcome.
    Mrs. Fletcher. And so, with that information, I can take it 
that you don't expect any delays in getting the report and the 
study completed by 2021?
    General Semonite. It is exactly the opposite. How can I go 
faster? Do I really need to wait until July 2021 to be able to 
get this done?
    Again, there is a balance between, you know, if you want it 
bad, you get it bad, and how do you continue to be able to make 
sure you do due diligence? And so we are trying to err on that 
side that says let's give a good-enough solution in, so 
Congress can make a decision on these.
    Mrs. Fletcher. I appreciate that. I have gone over my time, 
but I very much appreciate your help, and I yield back.
    Mrs. Napolitano. Thank you, Mrs. Fletcher.
    Mr. Rouda, you are recognized.
    Mr. Rouda. Thank you very much. I represent California's 
48th Congressional District. And the Army Corps studies and 
critical infrastructure projects, obviously, enhance the safety 
and provides tidal and flood protection for residences, 
businesses, and the millions of people who live and work in 
Orange County. I would like to highlight a few of these 
priority projects.
    The first one is the Surfside-Sunset Coastal Storm Damage 
Protection Project. It extends along 17 miles of the Orange 
County coastline. As a result of both flood control measures 
and various other shore protection and harbor works, Anaheim 
Bay and Newport Bay no longer receive a natural supply of sand. 
Historically, the beach renourishment cycle for this project is 
called a 5-year cycle. However, it has now been 10 years since 
the last renourishment.
    Stage 12 of this project was completed in October of 2009. 
My hope is that the Corps will complete the long-overdue stage 
13 of this project in a meaningful way to make the Surfside 
community whole. General, given that 10 years has passed since 
stage 12 was completed, do you agree that it makes sense for 
the Corps to prioritize stage 13 of the Surfside-Sunset 
project?
    General Semonite. Congressman, I do. And, like you said, 
this has been long overdue. We actually had carryover money 
from some of the other earlier years, so the design is actually 
done. If the funds come available, you can pull the trigger and 
make this thing go into the ground.
    The challenge is going to be, again, where does it rack and 
stack. Unfortunately, it didn't qualify for the supplementals. 
And right now it has got to compete in the work plan. It is 
going to be a heavy lift, because I think the number right now 
that--the capability could be up to $10 million, and that is a 
lot to push in. But that is what we are trying to figure out.
    I talked to my leadership this morning on this particular 
project to see is there a chance to get it in. And it goes back 
to--if some of you weren't here earlier, it goes back to 
reiterate the more that you are able to give us in that work 
plan funding, we are doing so much more this year than we were 
doing 3 years ago. We got next to nothing, and the Congress has 
done a phenomenal job of plussing this up. So that is where we 
want to use that extra money on critical projects like this. I 
can't commit today, though, to whether it is actually going to 
get it.
    Mr. Rouda. And along the same lines, let's move to the next 
project in my district. That is Newport Harbor. It is the 
largest small-craft harbor in the Western United States. And 
while Newport Harbor does not require annual Corps maintenance, 
the last significant dredging effort was in 2012. The time has 
come for removal of material that has accumulated above 
federally authorized design depths.
    Within Newport Harbor's channels, shoaling and high spots 
currently impede navigation and create unnecessary risks that 
affect security, commercial, and recreational activities. The 
Corps must include this much-needed maintenance dredging in its 
fiscal year 2020 work plan.
    Again, General, can you talk about the plans for the 
removal of the 1.2 million cubic yards of material above 
federally authorized design depths that would, obviously, 
provide greater security and commerciality?
    General Semonite. So, sir, I talked to the head of my O&M 
yesterday. We have got a whole team thrashing through it right 
now. Where can we allocate those work plan funds?
    As much as we got a bunch of money, some of that came in 
different bins. And our ability to put some of that into O&M 
dredging is not as much as I would like it to have.
    So we are definitely looking at it, and I am very, very 
aware of the project. We just got to figure out whether it can 
compete or not.
    Mr. Rouda. And I would just emphasize that the economic 
impact that this harbor provides for not just Orange County, 
but well beyond, is extremely significant. So your help in that 
matter would be greatly appreciated.
    The next project--and let me check on my time. Good. The 
Santa Ana River Mainstem Project is designed to provide flood 
protections for residences, businesses, and more than 3 million 
people across multiple counties, including Orange County. 
Construction of the Seven Oaks Dam and raising of the Prado Dam 
will increase reservoir storage capacity for the region and 
provide enhanced flood protection.
    I ask that the Corps continue to appropriate funding in 
order to complete the project in its entirety, as authorized in 
1986. Significant progress has been made on the project, and it 
is nearing completion. Thus, appropriate funding levels should 
be maintained.
    The next project, the East Garden Grove/Westminster Channel 
Study is another key project that would reduce flood risk for 
nearly a half million people in 11 cities, including portions 
of Huntington Beach, Westminster, Santa Ana, Fountain Valley, 
and Garden Grove.
    I ask my Democratic and Republican colleagues on this 
committee to reauthorize this project in WRDA 2020, upon 
completion of the Chief's Report.
    And I would like to emphasize the importance of section 
1043(b) of WRRDA 2014, in which Congress authorized a pilot 
program to evaluate the effectiveness and project delivery 
efficiency of allowing non-Federal interests to carry out 
authorized flood and storm management projects. The authority 
for this program lapsed last year.
    Orange County Public Works and other non-Federal entities 
have demonstrated a record of completing regional projects. 
General, do you agree that the Corps benefits from 
opportunities to work with and share costs with local partners 
to meet project delivery timelines and goals efficiently and 
effectively?
    General Semonite. I do, sir. On section 1043 there is a 
place for them. There are some that don't apply to that. So it 
goes back to not all tools apply to all projects.
    I just want to hit the other two real quick. We are closely 
tracking Westminster East. We will have a Chief's Report in for 
this committee to consider for WRDA 2020, and this is a good 
example. You always ask, ``Do you have enough capacity?'' That 
particular project is being designed by the Chicago District. I 
have got enough work to be able to have Chicago do that now. So 
we will get that in and not have a problem.
    Santa Ana is a challenge. I will tell you that. We want to 
be able to do that. It got a lot of money in the supplemental. 
We have had three major problems that have impacted: cost of 
market conditions in California have gone up, which--we see 
this across the board; we have got a bunch more environmental 
mitigation we have got to do; and we have got a challenge with 
a railroad bridge.
    So this is where we are looking very carefully. How can we 
cover those additional costs that we--I mean we got a 
phenomenal package from you on $17.4 billion to take care of 
these projects. But some of those projects are--because they 
weren't fully designed, now we are seeing there is some growth. 
So we are right in the middle of trying to figure out how to 
take care of Santa Ana.
    Mr. Rouda. Well, I thank you for your cooperation and 
commitment, and I yield back. Thank you.
    Mrs. Napolitano. Thank you, Mr. Rouda.
    Ms. Finkenauer, you are recognized.
    Ms. Finkenauer. Thank you, Madam Chair. And it is so great 
to have you all with us today, and so good to see you again, 
Lieutenant General Semonite. I know the last time I saw you, I 
believe, was actually in my district, in Cedar Rapids, when we 
did the groundbreaking for the Cedar Rapids----
    General Semonite. Right.
    Ms. Finkenauer [continuing]. Or the Cedar River Flood 
Control System Project. So we are really grateful that we have 
got this started.
    But, as you know, I mean, obviously, the Cedar River runs 
through the city of Cedar Rapids. And Federal funding was only 
awarded for the flood control project on the east side of the 
Cedar River, leaving the community on the west side with less 
protection. I know it came down to the benefit-cost ratio, the 
formula that the Army Corps uses to decide which projects 
receive funding. But how can Congress change this formula to 
make sure that projects in working-class neighborhoods like the 
west side of Cedar Rapids can better take advantage of this 
funding, and make sure that we have this complete?
    Mr. James. We are actually--the Chief and I are actually 
looking at the benefits analysis and BCR ratios now, 
particularly in rural areas like the--everything between the 
coasts, basically. And--because we are not counting everything 
that I feel should be eligible----
    Ms. Finkenauer. Yes.
    Mr. James [continuing]. In a benefit-cost ratio. And it is 
very important, because you have to have that to get a project 
done. And we are looking at that.
    And you said how can the Congress help. I would be happy to 
talk at any time about the benefits that we should be or should 
not be looking at. And then I will work with OMB on that, and 
we will see what we can do.
    General Semonite. Congresswoman, I will just add that--and 
the Secretary is exactly right. There is a big difference in my 
mind between a benefit-cost ratio of deepening a harbor, which 
is important, but we are just trying to make a good thing 
better, to an area where somebody is going to die, or somebody 
is going to have loss of quality of life.
    So how do those projects, flood control projects, they 
should have a higher factor, somehow, in that calculus. You 
can't just look at them the same. And this is where Cedar 
Rapids had a hard time ever getting through the system, and the 
only way it got it through was Congress passed a supplemental, 
where you didn't have to have the benefit-cost ratio at the 
level it is.
    Ms. Finkenauer. Yes. Thank you again.
    And now, for Assistant Secretary James, thank you again for 
being here. And in your testimony I know you stated the need to 
focus on projects that provide also the economic and 
environmental returns. And last month, obviously, Congress 
passed a bipartisan spending bill that we are all very grateful 
for that directs the Corps to commit funding for multipurpose 
projects in the preconstruction, engineering, and design phase. 
And something that I am very eager to see in the 
preconstruction phase is NESP. This is some--and making sure 
that we get that funding to it.
    You know, being from Iowa's First Congressional District, 
right on the Mississippi, I know just how important this is for 
our farmers, in particular, and for the state of trade in our 
country, as well. If, God forbid, one of our locks and dams go 
down, and we don't get these things updated, we are looking at 
a world of hurt here, and an added cost that we just can't 
afford right now. And getting these updated and widened to the 
width that we should and in the right way is just--you get it, 
it is incredibly important.
    So can you agree to work with me to make sure that we get 
that funding, and get that in the work plan for NESP?
    Mr. James. Absolutely. I think it is critical to our 
Nation. There again, we are out in middle America.
    Ms. Finkenauer. Yes.
    Mr. James. And, you know, the people say, well, we don't 
have container barges going in and out of those locks and dams 
and blah, blah, blah. But those locks and dams ship 20--no, 60 
percent of the corn and soybeans----
    Ms. Finkenauer. Absolutely.
    Mr. James [continuing]. Of this Nation.
    Ms. Finkenauer. Absolutely.
    Mr. James. And, I mean, that is critical.
    Ms. Finkenauer. Yes.
    Mr. James. Because our agriculture has been the only venue 
that has had a constant addition to our balance of trade in 
both good times and in bad times.
    I will absolutely be happy to work with you. I have got 
some ideas on this. I ran them by the Congress when I first got 
here. My ideas weren't well accepted. But I think we could talk 
about it again, and maybe there are even better ideas that we 
could discuss. But it is very important.
    Ms. Finkenauer. It is incredibly important, and I am glad 
to see that you understand that, as well. Thank you.
    And thanks for--you both, for being here today. And with 
that I yield back.
    Mrs. Napolitano. Thank you, Ms. Finkenauer.
    Mr. Huffman, you are recognized.
    Mr. Huffman. Thank you, Madam Chair. And thank you, General 
and Mr. Assistant Secretary.
    Before I get into my top priority for our conversation 
today I want to just mention how encouraged I was to hear your 
discussion about forecast-informed reservoir operations. As you 
know, a lot of the leading-edge work on this new operating 
philosophy is taking place in my district, in northern 
California. We are very proud of that work.
    But I think, from my own observations and from what I have 
heard from you gentlemen today, that it is time now to 
acknowledge that we are past the piloting phase, we are past 
the conceptual phase. The annual deviations that we have been 
able to successfully do have really proven themselves, not just 
in stretching water supplies to do the many things that you 
mentioned, General, but in actually operating for flood 
protection, as well. This is just a better way, and a safer 
way, and a more accurate way to operate many of our western 
dams. And it is time to make that a permanent, every-year part 
of the Corps' operations. So I hope I can work with you in this 
upcoming WRDA to try to get us to that point.
    Now, when we discuss the Corps' responsibility for 
maintaining our Nation's harbors, you know, sometimes we hear 
terms like ``small harbors,'' or ``emerging harbors.'' But 
representing a number of Federal channels that are supposed to 
be the Corps' responsibility in my district that require 
shallow draft dredging, I think we should just be honest and 
call them ``abandoned harbors,'' or ``forgotten harbors,'' 
because when you look at projects like the Petaluma River in my 
district, you have got a channel there that was once dredged 
every 3 to 4 years to maintain depths so it could be navigable. 
It has not been dredged since 2003, and major portions of it 
not since 1998.
    I have been writing to the Corps of Engineers since I came 
to Congress, so starting back in 2014. Mr. Assistant Secretary, 
I have had phone calls with you about this over the past year. 
We have been begging and pleading with the Corps to address 
this problem. Chairman DeFazio has joined me in writing to the 
Corps about this urgent problem. It spans certainly two 
different administrations, and it showcases the neglect of the 
Army Corps of Engineers of not only this project in my 
district, but I am sure many other shallow draft dredging 
projects around the country.
    Last fall I took Lieutenant Colonel John Cunningham on a 
tour of the river. I have done that with every lieutenant 
colonel that we have had on command in the San Francisco 
District, and we shared a petition of nearly 3,700 signatures 
from the local community urging action.
    A few months later, for the second year in a row, the 
annual holiday lighted boat parade in Petaluma had to be 
canceled because you just can't get boats through the channel. 
It is not navigable.
    So my hope is that we can still get this done. Two years 
ago the Corps invested money necessary to complete the 
preliminary work and environmental analysis that lays the 
groundwork for dredging. We are ready to go. But we have been 
left out of recent work plans, and my worry is now that we have 
got this preliminary work done and it is on the shelf, waiting. 
If we miss another cycle, it is going to grow stale, and we 
will have to start all over again.
    So this really is do or die time for the Petaluma River. 
And the President signed the final fiscal year 2020 
appropriations package last month. You all clearly now have the 
money to do more in this area. And so I want to ask when can we 
expect the work plan, and can we expect good news for projects 
like the Petaluma River?
    Mr. James. The work plan should be available within a 
month, 5 weeks, something like that. It should be available 
before any WRDA will be.
    Mr. Huffman. My understanding, Mr. Assistant Secretary, is 
the final date that you have would be up to February 18th. That 
happens to fall on my birthday. And, you know, I don't ask a 
lot of the Corps, but it would be a great birthday surprise for 
me and for the people I represent if we could finally get this 
project included in the work plan. I just want to put that out 
there for your consideration.
    I want to also mention that, in passing the appropriations 
omnibus this year, the joint report language from the House and 
Senate reinforced that their explanatory statement does not 
negate language from both the House and Senate reports passed 
earlier in the year.
    So I know you are busy, rushing to get the work plan done 
right now. I want to just help you in that regard by pointing 
you to the House report language, which states that the 
Appropriations Committee is ``aware that the last full dredging 
of the Petaluma River was in 2003.'' It states that, prior to 
2003, the channel was dredged every 3 to 4 years to maintain 
depths. Shoaling in the upper river is impacting commercial 
traffic, as barge companies curtail operations and capacity at 
barges.
    You get the point; we have mentioned this over and over in 
appropriations language, and we have tried to make it clear 
that Congress wants you to address this. I just want to make it 
clear that our message is received, and ask if you could please 
respond.
    Mr. James. The message is received. I have been looking at 
this project, but it--again, like the general has said many 
times today, you know, we have to take them all, and they have 
to compete. And, I mean, it is a sad situation. I don't like 
it, but that is what we have to do.
    Mr. Huffman. I can't imagine----
    General Semonite. Congressman, I will just jump in.
    Mr. Huffman. Sir?
    General Semonite. So I have gotten several letters. John 
has told me about your trip out there, and we are--it is very 
unfortunate that we don't have enough funds to go all the way 
down the list.
    On the other hand, just because something might not compete 
one year, we have got to look at the cumulative effects of not 
dredging for several years. Because what happens then, industry 
will start drying up, you will start having other 
ramifications. So some of these, while we might want to be able 
to do it on whatever the recurring cycle is, we have got to 
understand that if we don't at least touch every now and then, 
then we are going to have a lot more significant second- and 
third-order effects.
    So we are looking at this river, right now in my 
headquarters, to see what will it do in the work plan. It might 
not get everything, it might not get all the places, but we 
would think that this would continue to compete well, at least 
in the 2020 work plan.
    Mr. Huffman. Thank you. The chair has been very generous 
with my time. Let me just close----
    Mrs. Napolitano. Thank you.
    Mr. Huffman [continuing]. And yield by noting that the San 
Rafael Canal is also mentioned in the Senate report language, a 
similarly dire situation----
    Mrs. Napolitano. Thank you, Mr. Huffman.
    Mr. Huffman. I thank you, and yield back.
    Mrs. Napolitano. Mr. Lamb is recognized.
    Mr. Lamb. Thank you, Madam Chairwoman, for allowing me to 
be here today, and gentlemen, thank you for sticking it out 
throughout this hearing.
    I want to thank General Spellmon, as well, for coming up to 
our district late last year, I guess in the fall. We had 
Chairwoman Marcy Kaptur from the Energy and Water Development 
Subcommittee over on the Appropriations Committee come up and 
look at the declining state of our locks and dams.
    So we have a set of locks and dams on the upper Ohio that 
were built in the 1920s and 1930s, and are really being patched 
together every which-way that your engineers can think of at 
this point. I mean they are doing a heck of a job, given the 
few tools that they have to work with. And it is a dire 
situation.
    I know that you have heard from everybody today about their 
priorities, and you keep talking about how things need to 
compete, and maybe next year, if they don't compete this year. 
I totally understand.
    What I would ask each of you to do, though, is convey to 
folks in the administration that--the reminder, I suppose--that 
the President has come to our district multiple times. He has 
come to the Pittsburgh area multiple times to basically take 
credit for the healthy state of the natural gas and related 
economy in western Pennsylvania, which was confusing to some at 
first, because he was not in office in 2010 or so, when the 
deal for the Shell cracker plant was struck.
    But regardless, he never hesitates to take credit for the 
economic circumstances there. Yet, the only reason that the 
Shell cracker plant is located in western Pennsylvania today--
and it is one of the largest construction sites in the entire 
country--is because of our inland waterway system, and the 
excellent work that you all have done over the years to 
maintain that. It allows them to get the construction equipment 
that they need to that site.
    There are some pieces of this plant which, basically, takes 
ethane, the byproduct of natural gas drilling, and cracks it 
into industrial-use plastic. There are some pieces needed to 
build that that are so large there is no other way to get them 
to the site, other than by floating them on the river.
    And last summer, as I am sure you gentlemen are aware, 
Shell had to seek a special permit, basically, to get some of 
that equipment through when the lock was otherwise going to be 
closed for some of the maintenance that is required because it 
is so old and has never been fixed. If we could just fix it and 
replace it, we wouldn't continue having these problems.
    And so now, by your own forecasts, the Montgomery lock has 
a 50-percent chance of failure in the next few years, which 
could shut down this construction site entirely.
    There are 6,500 people working in construction jobs on this 
site at this moment. The county in which that project is 
located, Beaver County, saw 6 percent economic growth last year 
because of this project, far outpacing any other county in 
western Pennsylvania. It is one of the greatest economic 
developments we have had in quite some time, and it is all at 
risk because we can't update locks that are nearly 100 years 
old at this point, and which everyone agrees need to be fixed.
    Somehow, these projects did not make it into OMB's budget 
this year. I can't understand why, if you are considering 
economic development benefits, or economic benefits of any 
kind, one of the largest construction sites in the country that 
has produced 6 percent economic growth in its home county and 
created 6,500 jobs, would not have enough of an economic 
benefit to qualify. But that--you know, there are reasons for 
that that go beyond me.
    I just want you to convey to folks in the administration 
that these two positions are inconsistent. It is inconsistent 
to come to our area and take credit for the economic growth 
when you refuse to take action on one of the ingredients that 
is essential to the economic growth both now and going forward. 
There are other companies that want to build similar plants 
right along the river. There are manufacturing companies that 
want to take advantage of the plastic industrial feedstock to 
make things. And they will hesitate to do so if our 
infrastructure is not fixed. So please do convey that.
    The question that I have for you in my remaining time is 
that we have been told that--I believe it was the Olmsted 
project--when it was done, in order to complete it quickly and 
efficiently, they adjusted the percentages of the Inland 
Waterway Trust Fund cost share to have a lower percentage and a 
higher percentage from general Government spending. Am I 
correct about that, that they might have adjusted it to 85/15?
    Mr. James. Yes, you are correct.
    Mr. Lamb. Would a similar change be possible for the upper 
Ohio project when its turn comes around, given the importance 
of it, and how long we have waited to get it done quickly and 
efficiently?
    Mr. James. You know, I really can't say yes or no, but I 
will say that the reason Olmsted got that reduction in cost 
share is that it had drained this country long enough. We were 
trying to get it finished. And that was the main reason. I mean 
20-plus years to build a lock dam is a little ridiculous, when 
we built 17 in the upper Mississippi River in 10 years in the 
1920s and 1930s. So that was the main reason on that one.
    I think we are going to have challenges with our inland 
lock and dam systems because of the funding stream. I do think 
we are going to run into that.
    Mr. Lamb. I appreciate that, and I am over my time. I just 
want to say, by way of yielding, that we have increased all of 
the relevant accounts in the past year, and yet this project 
still was not included. So the ball is very much in the 
administration's court, and I hope you will convey that.
    Thank you very much, and thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Lamb.
    Ms. E.B. Johnson, you are recognized.
    Ms. Johnson of Texas. Thank you very much, Ms. Chairman, 
and I thank all of you for being here and staying so patiently. 
I sat here this time because I represent the most important 
part of the planet, Texas. And I represent north Texas. I am a 
native. So you know we were taught from birth that Texas is the 
most important part of this planet.
    And I want to thank you for the cooperation we have had, 
and make a plea to continue to work with us. We are really 
focused on prevention, as well, as we know the value of looking 
at predictions and the scientific projections of what we face.
    On the southern end of Texas we have almost too much water. 
On the northern end of Texas we have to build our own. But we 
still worry about both supply, as well as flooding. So I am 
hoping--and I am a native of Waco, Texas, and they have never 
given me up, even though I spent most of my life away from 
there--and so I know, on behalf of Waco, it is my understanding 
that multiple communities across Texas and the country would 
use some adjustments and clarifications, and you have that 
information, I hope, that you understand what that importance 
is.
    Would you like to comment on that?
    Mr. James. No, ma'am. But it is important, it is 
particularly important to Texas, but also the rest of this 
country.
    Ms. Johnson of Texas. OK, thank you.
    Mr. James. I understand that.
    Ms. Johnson of Texas. You just made a first star with me. 
Now, do you think that we need to put any more changes or 
authorities within the bill to bring any attention to new 
projects?
    I know that in Dallas it is ongoing in that area, and we 
appreciate that cooperation. But we don't have near as much 
influence from Waco, so they lean on me to make sure that I get 
that message across. And I didn't--and we have had some help in 
Waco, as well. But we appreciate the work and the cooperation 
we have had out of the Fort Worth office and all, and so we 
thank you for that.
    But if you have any comments on any changes we need to be 
looking at, I would appreciate it.
    Mr. James. I really don't at this time. I think that will 
be one of the considerations this committee, I hope, will be 
looking at, as we approach the WRDA deadlines. And I make 
myself available at any time to discuss Civil Works with the 
committee.
    General Semonite. Congresswoman, I would just add that 
there is definitely a balance. And we have inherited a lot of 
projects that we are just trying to get done that have been 
there for a long time.
    We want to start new projects and take them on. Right now I 
think that the WRDA that gives us so many new starts is not 
necessarily way out of balance. If we got so many new starts, 
and didn't actually expand the amount of money, all that is 
going to do is take the amount of money and continue to start 
more, and keep those older projects longer and longer.
    So we are all into finishing what has been on the books for 
a while, get us caught up. And the last 2 to 3 years has been 
phenomenal. But then how do we propel forward to be able to 
take on some of these new challenges?
    Ms. Johnson of Texas. Well, thank you. I can appreciate 
that. Just remember, Texas is the most important State. I thank 
you. I yield back.
    Mrs. Napolitano. Besides California, E.B.
    I am going to be submitting some questions for the record. 
But I wanted to give a shout out to one of my favorites, 
General Toy and, of course, Colonel Gibbs.
    Mr. James and General Semonite, I want to reiterate to you 
that on March 7th, 5 o'clock to 7 o'clock, we are planning a 
roundtable in Los Angeles, and I extended an invitation to you, 
Mr. James, but not to Mr. Semonite. I wanted to be sure to 
include you.
    The committee will be touring the projects during the 
roundtable, and we hope that you can join us, if you will.
    If I don't have anything else, I ask unanimous consent that 
the record of today's hearing remain open until such time as 
our witnesses have provided answers to any questions that may 
be submitted to them in writing, and unanimous consent that the 
record remain open 15 days for any additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing.
    And, without objection, so ordered.
    I would like to thank my cochair, Mr. Westerman, and to you 
again, both witnesses, thank you very much for being with us 
and spending so much time with us, and for your testimony.
    And if no other Members have anything to add, the 
subcommittee stands adjourned.
    [Whereupon, at 12:31 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              


   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    While we may have disagreed on certain policy matters, during his 
tenure, I am proud to have worked with Chairman Shuster in returning 
this Committee to the tradition of moving a water resources development 
act every Congress. Since 2014, this Committee has been successful in 
enacting three consecutive, bipartisan WRDA bills, and today, we take 
another step in continuing that tradition for the 116th Congress.
    This Committee plans to consider a new WRDA for 2020 in the spring. 
I have already spoken with Ranking Member Graves on the scope of this 
bill, and under your leadership, Madam Chair, and with the Subcommittee 
Ranking Member, Mr. Westerman, we will continue to make biennial 
consideration of WRDA legislation the regular order of this Committee.
    Enacting WRDAs on a predictable timeline is good for non-federal 
sponsors as they work with the Corps in developing projects.
    It provides strong oversight on the critical role of the U.S. Army 
Corps of Engineers in the management of our water resources.
    It also allows for Congress' timely consideration of important 
water infrastructure projects across the nation.
    Biennial consideration of WRDAs also allows for Congress to 
continue to address lingering policy concerns with implementation of 
Corps' projects.
    I look forward to continuing this bipartisan tradition in 2020, and 
to providing funding to finally complete the work Congress has 
authorized.
    For the past three Congresses, I have been working with Members on 
both sides of the aisle to finally unlock Federal investment in for our 
nation's ports and harbors.
    The American Society of Civil Engineers estimates that ports are 
responsible for $4.6 trillion in economic activity--or more than 26 
percent of the U.S. economy. Yet, as we have shown, over-and-over, we 
already collect more than enough revenues from shippers to address the 
backlog of maintenance needs for all Federal harbors--large and small. 
We just need to find the political courage to spend it.
    We should be investing more in our nation's ports and harbors in 
order to keep America competitive in the global economy.
    One of my most rewarding accomplishments this Congress was 
overwhelming, bi-partisan passage by the whole House of my Full-
Utilization of the Harbor Maintenance Trust Fund legislation. I will 
continue to look for opportunities to work with the other body to 
ensure that legislation is sent to the President for his signature this 
year.
    In addition, I want to work with the Corps on how we ensure that 
the infrastructure we have today is ready for the challenges of the 
future. As we learned at our November 2019 hearing on ``Promoting 
Resiliency of our Nation's Water Resources Infrastructure,'' recent 
years have shown the growing challenges our communities are facing in 
light of climate change.
    Yet, that hearing also highlighted a growing, bipartisan commitment 
to ensuring the Corps and our communities have the tools necessary to 
address current and future threats from extreme weather events. This is 
an area I look forward to addressing more fully in this year's WRDA 
legislation.
    I want to thank Secretary James and General Semonite for joining us 
today. I look forward to an engaging dialogue with you and my 
colleagues on this important piece of legislation.

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    This hearing will help us review water resources development 
projects and related policies as this Committee begins its work on 
another WRDA bill. Effective and reliable water infrastructure is vital 
to America's global competitiveness--it supports economic development 
and creates jobs.
    Even more critical, this infrastructure protects American homes, 
businesses, and lives.
    The unprecedented levels of flooding last year in the Missouri 
River Basin and Mississippi River Valley inundated hundreds of 
thousands of acres across Northern Missouri.
    Nearly every levee in my district overtopped or breached along our 
rivers, leaving families little time to gather belongings before 
fleeing their homes, and leaving farmers helpless to move livestock, 
grain, and machinery ahead of advancing floodwaters. As a result, 
nearly 1.4 million acres of Missouri farmland went unplanted in 2019--
devastating to the farmers and families who depend on that land for a 
living.
    Even 10 months after the first levee breaches in my district, some 
of those areas are still underwater.
    There needs to be an adjustment made in how the Corps considers the 
protection of people's lives and property. I can assure you this will 
be a top priority of mine throughout the development of the WRDA bill, 
and I look forward to hearing how the Corps is preparing itself for the 
2020 flood season.
    I also want to assure you, Secretary James and General Semonite, 
that I will continue to focus on the continued construction of IRCs--
interception-rearing complexes--that is nothing more than a multi-
million dollar science experiment paid for by taxpayers. Even the Corps 
has admitted that they are unsure if these structures will help the 
recovery of the pallid sturgeon in the Missouri River.
    It is absolutely critical that we determine whether these unproven 
IRC structures even work AND that they don't negatively impact 
navigation and flood control before even considering the construction 
of more of them.


                                Appendix

                              ----------                              


 Questions from Hon. Grace F. Napolitano to Hon. R.D. James, Assistant 
    Secretary of the Army for Civil Works, Office of the Assistant 
  Secretary of the Army (Civil Works) and Lieutenant General Todd T. 
       Semonite, Chief of Engineers, U.S. Army Corps of Engineers

Repetitive loss information

    Question 1. WRDA 2014 required the Corps to submit a report on 
expenditures on flood control structure repairs under the P.L. 84-99 
program for the previous five years and to submit successive reports 
every two years.
    Question 1.a.  What is the status of these reports to Congress as 
required by WRDA 2014?
    Answer. The Corps is working on this report.

    Question 1.b.  Does the Corps track data related to repetitively 
damaged flood control infrastructure including historic expenses and 
cumulative costs of repairing flood damage? Is that data publicly 
available via the National Levee Database?
    Answer. The Corps is working to collect and organize certain data 
(primarily failure modes) from the available historic records of our 
district offices. However, the scope of this ongoing effort does not 
include tracking the data or an evaluation of historic expenses or 
cumulative costs. The National Levee Database does not contain 
financial data.

    Question 1.c.  Can you provide Congress and the public with data on 
flood control structures suffering repetitive losses?
    Answer. The Corps may be able to identify the flood and storm 
damage reduction projects that it has repaired multiple times under the 
Public Law 84-99 program.

Sec. 203 Study Process

    Question 2. Section 203 of the Water Resources Development Act of 
1986, as amended, authorizes a non-Federal interest to undertake a 
federally authorized feasibility study for a proposed water resources 
development project, and to submit that study to the Secretary for 
further review and potential recommendations or conditions required for 
the project to proceed to construction, once authorized by Congress. To 
date, Congress has authorized only one project study developed under 
section 203 to proceed to construction; however, several additional 
studies developed under section 203 have been submitted by the 
Secretary to Congress for authorization. However, because this process 
is still relatively new, several questions on transparency and public 
engagement on studies developed by non-Federal interests have arisen.
    Question 2.a.  Under the development of a traditional feasibility 
study by the Corps, how does the Corps engage with the public (other 
than the non-Federal interest) in terms of potential project 
alternatives, including through its analysis under the National 
Environmental Policy Act (NEPA)? How is this process similar or 
different with public engagement for a study developed by the non-
Federal interest under section 203? When the Corps undertakes its NEPA 
review of a section 203 study, how is the array of potential project 
alternatives the same or different to a study developed by the Corps 
(i.e., timing of NEPA review when compared to the selection of 
preferred alternative)?
    Answer. Depending upon the complexity of a Corps' feasibility 
study, the Corps may conduct scoping meetings at the start of the study 
process with interested parties to include the federal cooperating 
agencies, non-federal interest, and other interested stakeholders 
including the public. There is engagement with interested stakeholders 
via calls, meetings, and public meetings during study development. As 
the level of analysis reaches a point where a tentatively selected plan 
has been developed, the Corps will release a draft Environmental 
Assessment (EA) or Environmental Impact Statement (EIS) for a public 
comment period. Depending upon the complexity of the study, the Corps 
may hold public meetings during the public comment period. The 
completed final integrated feasibility study is made available on the 
appropriate Corps district website for public awareness.
    Pursuant to Section 203, as amended, a non-Federal interest is 
undertaking a feasibility study on its own. Each non-federal interest 
will determine how to execute its study, including the array of 
alternatives considered, as well as the level of public engagement. 
Completion of Federal environmental compliance requirements inherently 
is a Federal governmental function, and the non-Federal interest cannot 
complete these requirements. Pursuant to section 203, as amended, and 
upon submittal of the report to the ASA(CW), the Army will review the 
non-Federal interest's study and provide the results of this review to 
Congress. The Army is unable to complete many of the statutory 
requirements that federal studies must satisfy such as the National 
Environmental Policy Act, Endangered Species Act, etc. within the 
statutory 180 days. In accordance with Section 203 the ASA(CW) makes a 
feasibility determination and identifies additional concerns and 
conditions that remain to be addressed.

    Question 2.b.  Is there any difference in the judicial review of a 
study developed by the Corps as compared to a study developed by the 
non-Federal interest under section 203?
    Answer. There have been no court challenges to the Congressional 
authorization of projects where the study was carried out by a non-
Federal interest.

    Question 2.c.  What other differences between standard Corps 
project studies and Sec. 203 studies have arisen, and where do you 
expect further variances from Corps' practice to occur?
    Answer. There is no requirement that the non-federal interest 
comply with the statutory and regulatory requirements that Federal 
studies must follow in order to be authorized for construction. For 
example, in addition to the discussion in the previous response 
regarding inherently Federal government functions, a Section 203 study 
undertaken by a non-Federal interest is not required to follow Corps 
policies and procedures or to comply with the requirements in Section 
1001 of WRRDA 2014, as amended (i.e., that the study be completed in 3 
years, with a maximum Federal cost of $3 million, and that the study 
undergo three levels of review).

  Questions from Hon. Adriano Espaillat to Hon. R.D. James, Assistant 
    Secretary of the Army for Civil Works, Office of the Assistant 
  Secretary of the Army (Civil Works) and Lieutenant General Todd T. 
       Semonite, Chief of Engineers, U.S. Army Corps of Engineers

    Question 1. Lieutenant General Semonite, please clarify the status 
of the 1986 authorization of federal maintenance of the Y-shaped 
portion of the Eastchester Creek, NY navigation project. The Corps' 
fact sheet for Eastchester Creek states that federal maintenance of the 
Y was de-authorized due to a separate provision in the 1986 WRDA. Under 
the authority of section 7001 of WRRDA 2014, Westchester County, NY 
submitted a proposal that the Corps assume maintenance of the Y. The 
Corps' 2019 Section 7001 report to Congress includes a notation by the 
entry for the Westchester County proposal that federal maintenance of 
the Y is currently authorized.
    Question 1.a.  Please clarify whether the Corps is or is not 
currently authorized to maintain the Y and explain the Corps' 
interpretation of its authority for this purpose.
    Answer. The Corps is currently authorized to maintain the Y portion 
of Eastchester Creek pursuant to Section 866 of WRDA 1986.

    Question 1.b.  If the Corps is authorized to maintain the Y, please 
tell me when the Corps will request funding to dredge the Y. Since the 
Corps left the Y out of the 2010 maintenance contract for Eastchester 
Creek, the Y needs dredging as soon as possible.
    Answer. Future funding to maintain the Y portion of Eastchester 
Creek will be considered along with other programs, projects, and 
activities across the Nation competing for the available Federal 
resources.

   Questions from Hon. Lizzie Fletcher to Hon. R.D. James, Assistant 
    Secretary of the Army for Civil Works, Office of the Assistant 
  Secretary of the Army (Civil Works) and Lieutenant General Todd T. 
       Semonite, Chief of Engineers, U.S. Army Corps of Engineers

    Question 1. In 2002, the Federal Highway Administration (FHWA) 
published a report on the cost of corrosion in the United States. Among 
other things, the report measured corrosion's financial impact on the 
U.S. economy and explored preventative strategies for federal agencies 
to consider. Overall, corrosion directly costs the U.S. economy $276 
billion annually (2002) or roughly 3.1% of national GDP. The report 
notes that corrosion costs our waterway and ports approximately $0.3 
billion annually; however, this number may be low due to a lack of 
formal tracking, and the estimate did not include corrosion costs for 
harbor and other marine structures. The report estimates that between 
25 and 30% of these costs can be saved by using optimum corrosion 
management practices. To help reduce this cost, extend the useful life 
of assets, and increase public safety, the Congress required the U.S. 
Army Corps of Engineers (Corps) to utilize corrosion best practices and 
the use of qualified personnel in the Water Resources Reform and 
Development Act of 2014.
    Question 1.a.  How has the Corps employed the 2014 directive from 
Congress?
    Answer. The Corps employs a wide array of best practices and 
standards for corrosion prevention to include: providing design 
guidance and requirements that support determining appropriate 
protective coatings, determining cathodic protection systems and use of 
non-corrosive materials; development and use of comprehensive 
construction guide specifications; compliance with environmental and 
safety regulations; providing requirements for design engineer, 
contractor and inspector qualifications and certifications; and 
promoting research and development associated with new materials and 
corrosion prevention methods.

    Question 1.b.  How does the Corps track costs of corrosion?
    Answer. These costs are not tracked at a level granular enough to 
correlate expenditures to the multiple causes of degradation, including 
corrosion.

    Question 1.c.  What corrosion management principles does the Corps 
utilize?
    Answer. One principle utilized by the Corps is continued investment 
in research & development to improve corrosion management capabilities. 
Results of ongoing work will include acceptable coatings as 
alternatives to the existing vinyl and coal-tar epoxy systems, real-
time monitoring systems to assure proper functionality of active 
corrosion protection systems, and application of new and advanced 
composite materials to reduce corrosion susceptibility.
    The Corps is planning to include identification of defect types, to 
include corrosion along with condition data for our hydraulic steel 
structures (structures that control or regulate water), i.e. gates, 
valves, and bulkheads. This additional granularity of data will allow 
for better tracking and prediction of the impact of corrosion on an 
asset's condition.
    Finally, the Corps' budget development guidance for the operation 
and maintenance program places emphasis on cost-effective maintenance, 
including for corrosion prevention methods.

    Question 1.d.  What policies can Congress consider to improve asset 
integrity?
    Answer. No changes have been identified.

    Question 1.e.  Does Corps utilize trained professionals to plan for 
and inspect for corrosion?
    Answer. Yes, the Corps utilizes in-house personnel and contractors 
with industry certifications and appropriate experience to plan and 
design appropriate structures and to inspect for corrosion at completed 
projects.

   Questions from Hon. Bruce Westerman to Hon. R.D. James, Assistant 
    Secretary of the Army for Civil Works, Office of the Assistant 
  Secretary of the Army (Civil Works) and Lieutenant General Todd T. 
       Semonite, Chief of Engineers, U.S. Army Corps of Engineers

    Question 1. Congress has amended the P.L. 84-99 program (or the 
Emergency Readiness and Response program) multiple times since WRRDA 
2014. The intention with these changes was to ``build it back better,'' 
including using natural infrastructure techniques, like levee setbacks 
or realignments, to reduce the risks to people and property and to 
ensure federal funds are not used to repair the same projects over and 
over again. However, current P.L. 84-99 policy does not allow for 
project modifications that would increase a project's level of 
protection, extend protection to a larger area, or correct deficiencies 
in the project. Recent natural disasters, such as the Midwest Floods of 
2019, show that current flood control works have repeatedly failed and 
simply repairing these projects only sets them up for failure down the 
road.
    Question 1.a.  How can the Corps better use its authorities to 
enhance flood control works to prevent against repetitive natural 
disasters?
    Answer. The Corps views the PL 84-99 authority as a way to assist 
in the immediate short-term recovery, while longer-term flood risk 
management solutions are discussed, analyzed, and achieved pursuant to 
other programs. However, during the PL 84-99 repair eligibility 
determination process, repair alternatives are sometimes considered. 
The Corps also will undertake a limited levee realignment around breach 
scour holes, where that is the least costly solution.

    Question 1.b.  How can Congress best change the Corps' emergency 
response authorities to truly prevent the same projects from failing 
time and time again?
    Answer. I would not recommend a change in our authorities at this 
time. However, I appreciate the concern with a levee system that has 
experienced repetitive damages, particularly where the consequences of 
a failure are more widespread. The current approach emphasizes the 
repair or rehabilitation of the existing levee.

    Question 2. With the understanding Congress and the Administration 
prioritize project completions in the annual budget process, what is 
the Corps of Engineers doing to ensure new work that provides national 
benefits to all States, like the Norfolk Harbor deepening and widening 
authorized in America's Water Infrastructure Act of 2018, are treated 
equitably in the budgeting process?
    Answer. All projects authorized for construction are evaluated for 
funding based upon the economic, environmental, and safety return to 
the Nation that the project will provide.

    Question 3. The Calaveras County Water District in California is 
requesting assistance through its existing Section 219 Water Resources 
Development Act (WRDA) authorization from WRDA 2007 to make critical 
improvements to its wastewater treatment and water reclamation 
facilities serving the community of Copperopolis near Lake Tulloch in 
Calaveras County, CA. Specifically, the District is seeking to amend 
the authorization to increase the authorization from $3 million to 
$13,280,000 in WRDA 2020.
    The District is concerned about the existing wastewater facility's 
ability to continue to serve the community, protect public health, and 
prevent degradation to receiving waters. In wet years with significant 
annual rainfall, wet weather flows inundate the facilities. The 
existing tertiary filter and UV disinfection system does not have 
capacity for peak flows. Therefore, the filter and UV system are shut 
down during winter months and disinfected secondary effluent is 
diverted to storage. Also, the wet weather flows quickly fill the 
storage reservoir to maximum level. Staff often block the reservoir's 
spillway with sandbags to prevent discharging effluent into the creek. 
In 2015, due to excessive winter storms, the District discharged 
partially treated wastewater into the creek in violation of its permit. 
Improvements are needed urgently to mitigate these risks.
    The proposed improvements would significantly upgrade the entire 
wastewater treatment plant and water reclamation facility in order to 
comply with stringent discharge limits necessary to obtain a National 
Pollutant Discharge Elimination System permit for a seasonal winter 
discharge into the nearest receiving waters, Little John Creek. To 
achieve this objective, the District's 2018 Copper Cove Wastewater 
System Master Plan identifies $13.28 million of critical improvements 
to accomplish this work.
    Calaveras County needs to rehabilitate its Copper Cove Water 
Reclamation facility to address serious health and safety issues in the 
area. To that end the District is requesting an increase in Calaveras 
County's existing Section 219 authorization to $13,280,000 in WRDA 
2020. Does the Corps support this request and, if so, would the Corps 
be willing to express a need for the $13,280,000 to the Committee?
    Answer. Once authorized, the Corps will consider funding for the 
Calaveras County Water District project pursuant to the WRDA 2007 
authorization along with other programs, projects, and activities 
across the Nation competing for the available resources. However, 
environmental infrastructure is not a primary mission area for the 
Corps.

    Questions from Hon. Paul Mitchell to Hon. R.D. James, Assistant 
    Secretary of the Army for Civil Works, Office of the Assistant 
  Secretary of the Army (Civil Works) and Lieutenant General Todd T. 
       Semonite, Chief of Engineers, U.S. Army Corps of Engineers

    Question 1. What is the current status of the Preconstruction 
Engineering and Design (PED) work for the Great Lakes and Mississippi 
River Interbasin Study--Brandon Road, Will County, Illinois project? 
What PED work has USACE done so far on this matter? What PED work will 
the Corps pursue next?
    Answer. The Corps has not yet initiated preconstruction engineering 
and design for the Brandon Road fish barrier project. The next step 
will be for the Corps and the non-Federal sponsor, the Illinois 
Department of Natural Resources, to execute a Design Agreement.

    Question 2. What is the Corps' intent for the FY2020 Work Plan on 
the Brandon Road project? What about for the FY2021 Budget Request?
    Answer. Funding to initiate preconstruction engineering and design 
for the Brandon Road fish barrier project will be considered in 
development of the FY 2020 Work Plan and the FY 2021 Budget along with 
other programs, projects, and activities across the Nation competing 
for the available resources.

    Question 3. What is the Corps' planned next steps for the Brandon 
Road project? What else, besides the Brandon Road authorization in the 
2020 WRDA, can the T&I Committee and Congress can do for the Corps to 
advance this project?
    Answer. The Corps' next step is to sign the Design Agreement with 
the Illinois Department of Natural Resources.

    Question 4. In 2018, the upgrades for the Soo Locks on the St. 
Marys River in Sault Ste. Marie, Michigan was authorized. The USACE 
Detroit District provides regularly quarterly updates to Congressional 
offices on the current construction process. How does USACE 
Headquarters view the long-term prospects for the project and can you 
comment what next steps the Corps will take on the project?
    Answer. The next increments of work will be to complete 
construction of the upstream channel deepening, continue design on the 
new lock chamber, and initiate and complete construction of the 
upstream approach walls.

Question from Hon. Mike Bost to Hon. R.D. James, Assistant Secretary of 
the Army for Civil Works, Office of the Assistant Secretary of the Army 
    (Civil Works) and Lieutenant General Todd T. Semonite, Chief of 
                Engineers, U.S. Army Corps of Engineers

    Question 1. The recently enacted FY 2020 Appropriations Act 
provides funds in the investigations account for the Navigation and 
Ecosystem Sustainability Program (NESP). The NESP locks are the next 
locks to begin construction on the inland waterways system, as 
indicated by a joint Corps and towing industry effort to prioritize 
lock and dam construction. It's supported by agriculture, the towing 
and shipping industries, manufacturers, the energy industry, organized 
labor, conservation organizations--as well as the 5 states surrounding 
the Upper Basin. It also has strong legislative branch support. There 
is concern that if the Corps and stakeholders do not start preparing 
these locks for construction, they will not be ready for construction 
when funding comes available. Does the Corps intend to ensure NESP 
receives funding in the upcoming Work Plan?
    Answer. The Navigation and Ecosystem Sustainability Program will be 
considered for funding in the FY 2020 Work Plan along with other 
programs, projects, and activities across the Nation competing for the 
available resources.

   Questions from Hon. Jenniffer Gonzalez-Colon to Hon. R.D. James, 
    Assistant Secretary of the Army for Civil Works, Office of the 
 Assistant Secretary of the Army (Civil Works) and Lieutenant General 
   Todd T. Semonite, Chief of Engineers, U.S. Army Corps of Engineers

    Question 1. In general, have requirements for cost sharing by the 
non-Federal project sponsor been a factor in delaying either the 
studies and reports or the actual New Starts?
    Answer. No.

    Question 2. In project evaluations, there is study of not just 
economic but also social and environmental impacts. How much do they 
factor in the decisions? Should there be a greater weight given there?
    Answer. Economic, social, and environmental effects are considered 
for every study and the anticipated impact of those effects varies. For 
example, environmental justice may be a significant factor for 
consideration where a project could affect a minority or low income 
community, but for a study where there are no such communities, 
environmental justice would not require further analysis.

    Question 3. In many cases, the Continuing Authority Programs have 
cost limits or cost/benefit requirements that in the years it takes to 
start the project may be overrun by inflation or other opportunity 
cost; and there is concern that this is too narrowly focused on things 
like property values. Should we change this or provide a way to take 
the cost of delay into consideration? How?
    Answer. The intent of the Continuing Authorities Program is to 
provide the Corps with an authority to study, design, and construct 
projects that are small in scale, as defined by the applicable 
statutory total project cost thresholds. Changing the funding limits on 
the CAP will not resolve the issue you are raising.

    Question 4. What Chief's Reports for projects in Puerto Rico are 
due during the rest of 2020?
    Answer. Under the current schedules, the following Chief's Reports 
are expected during the remainder of calendar year 2020 for projects in 
Puerto Rico:
    <bullet>  Rio Culebrinas
    <bullet>  Rio Grande de Manati (Ciales)

    Question 5. Has the matter of land acquisitions (LERRD) by the 
Puerto Rico Department of Natural and Environmental Resources (DNER) 
been a challenge with the projects? Have they been responsive about a 
way to find alternatives to deliver this?
    Answer. Yes and the Puerto Rico DNER has been very responsive to 
these issues.

    Question 6. We are aware of the fiscal crisis in Puerto Rico. Does 
the fact that public-sector nonfederal partners may be lacking in 
resources or credit present an added problem? Is there a way to address 
this in Congress?
    Answer. Yes. The non-federal sponsor, the Governor of Puerto Rico, 
and the Corps have been collaborating on potential solutions that can 
be resolved outside of Congressional action. For example, DNER has 
requested and received approval from the Puerto Rico Fiscal Oversight 
Management Board for the use of $15 million as a revolving fund to be 
used for acquisition of lands for Federal projects funded under the 
Bipartisan Budget Act of 2018.

    Question 7. The Corps signed the Chief's Report for the San Juan 
Harbor Improvement Project in on August 23, 2018. The study was 
completed under budget ($2.7M) and ahead of schedule. This project was 
authorized for construction in WRDA 2018, and is awaiting a FY21 
construction contract award--pending a Construction ``New Start'' 
Approval. What is the status of ``New Start'' authority and funding for 
this project? Will it require future budgeting?
    Answer. The San Juan Harbor Improvement project was fully funded 
for Pre-construction Engineering and Design (PED) in the FY 2019 Work 
Plan. PED is scheduled for completion in May 2021. The project will be 
considered for future construction funding along with other programs, 
projects, and activities across the Nation competing for the available 
Federal resources.

    Question 8. Related to MAYAGUEZ/ARECIBO HARBORS: Can we now be 
certain that these projects will begin during the first half of the 
year 2020?
    Answer. On September 25, 2019, the Corps announced both Arecibo 
Harbor and Mayaquez Harbor would receive operation and maintenance 
funding provided in the Additional Supplemental Appropriations Disaster 
Relief Act, 2019. Per the Corps, those funds, in conjunction with the 
supplemental appropriations provided in the Bipartisan Budget Act of 
2018 will be sufficient to satisfy the dredging needs at both projects. 
The contract for Arecibo Harbor is currently scheduled for award in 
January 2020.

    Question 9. Related to RIO PUERTO NUEVO: Some specific bridges and 
channels in Rio Puerto Nuevo tributaries exhibit more severe 
deterioration and will shortly need repair and replacement. Yet in some 
residential areas there are not expected to be awards until 2026/2027 
and the work not finished until the 2030s. The constituents wonder if 
they will need to bear with the flooding issues another 12 years. Is 
there a way for specific projects that may become critical to be given 
prior attention?
    Answer. The Rio Puerto Nuevo (RPN) project includes relocation/
replacement of 28 bridges. The project sequence of construction will 
proceed from downstream to upstream in order to accommodate improved 
hydraulic capacity of the channel as the construction progresses. If 
the construction of the channel is not done in the right sequence, the 
downstream reach will be flooded.

    Question 10. Related to RIO LA PLATA PROJECT: Are all responsible 
agencies dealing with archaeological heritage issues on the same page? 
Have the preservation and research plans been deemed acceptable by all 
the parties?
    Answer. The federal requirement for cultural resources coordination 
is with the State Historic Preservation Office (SHPO). The mitigation 
plan for current work at Rio de la Plata has been coordinated with the 
SHPO in accordance with a Memorandum of Agreement executed in May 2019.

    Question 11. Related to CANO MARTIN PENA: It was expected a MOA to 
document terms will be executed this year. P&S would be completed for 
FY20 construction contract award to Execute Project Partnership 
Agreement by September 30, 2020--Pending a Construction New Start. What 
is the outlook for that New Start? An expansion in the number of new 
starts for Ecosystem Restoration was incorporated into this year's 
budget agreement. I strongly urge that Cano Martin Pena be considered 
under this provision.
    Answer. The Cano Martin Pena project will be considered for future 
funding along with other programs, projects, and activities across the 
Nation competing for the available Federal resources.

    Question 12. The Coastal Flood Risk management studies funded by 
the Bipartisan Budget Act of 2018 covers the areas of San Juan Harbor, 
Condado and Catano as ``Metropolitan'' and Carolina and Rincon for the 
rest of the Island. What is the outlook for a possibility of a truly 
island wide study?
    Answer. The entire island of Puerto Rico is included in the South 
Atlantic Coastal Study (SACS), which will document risk and 
vulnerability and may also recommend future actions.

    Question 13. Related to LOIZA COASTAL PROTECTION (PARCELAS SUAREZ); 
FLOOD/EROSION PROTECTION, SALUD CREEK, SAN GERMAN: Construction of 
these projects was due to start today 9 January 2020. Has this been 
delayed due to the recent earthquakes?
    Answer. No. Construction contracts for both the Parcelas Suarez, 
Loiza and Salud Creek at San German Streambank Stabilization projects 
(Section 14 of the Continuing Authorities Program) were awarded in 
September 2019.

    Question 14. Related to RIO DESCALABRADO (Santa Isabel): The 
original budget for this project was $9.25 million. Now with revisions 
it will exceed the Continuing Authority Project Section 205 limit of 
$10 million. It may need to be converted from a Continuing Authority 
Project to a specifically authorized project under the Investigations 
account. Will this affect the funds already allocated? Will this impede 
the start of the project until additional funds are identified?
    Answer. Yes, if the project is converted from a Continuing 
Authorities Program project to a project requiring specific 
authorization, any unused CAP funds must be returned to the CAP account 
for re-use elsewhere in the CAP program. In addition, a feasibility 
study would need to be completed, which would be funded in the 
Investigations account and would serve as the basis for a future 
authorization.

    Question 14.a.  Several other locations have had their projects 
stopped or dropped because of either the 205 limit or the Benefit/Cost 
factor; for example with the OROCOVIS, AIBONITO, NARANJITO project, 
could there be steps taken to assist these locations so they can at 
least be assured they are not on their own?
    Answer. Projects funded under the Section 205, Continuing 
Authorities Program cannot exceed $10 million and must be economically 
justified (i.e. have a benefit-cost ratio of at least unity), 
environmentally sound, and technically feasible. Should flood and storm 
damage reduction projects not qualify for this funding, the Corps can 
provide technical assistance through the Planning Assistance to States 
and/or Flood Plain Management Services programs.

    Question 14.b.  Should Congress amend the CAP Section 205 federal 
participation limits and other dollar limits, and the Cost/Benefit 
requirement criteria?
    Answer. The intent of the Continuing Authorities Program is to 
provide the Corps with an authority to study, design, and construct 
projects that are small in scale, as defined by the applicable 
statutory total project cost thresholds. Changing the funding limits on 
the CAP will not resolve the issue you are raising.

    Question 15. Projects under the BBA 2018 Supplemental with future 
additional funding need:
    a.  RIO GRANDE DE LOIZA--CAGUAS/GURABO/CARRAIZO--Current assigned 
BBA 2018 funding is $250M vs draft estimated cost of $981.6M.
    b.  RIO NIGUA (SALINAS)--Current assigned BBA 2018 funding is $60M 
vs draft estimated cost of $48M.
    c.  RIO GUANAJIBO (MAYAGUEZ/HORMIGUEROS)--Current assigned BBA 2018 
funding is $60M vs draft estimated cost of $107M
    Question 15.d.  Should we expect that future Corps budgetary 
requests will include funds for completion of the projects that the 
Corps has found to comply with all requirements? How can Congress 
ensure this happens and the projects are not halted part way through?
    Answer. It is too early in the construction process to know what 
funding changes may be needed to address the questions you are raising.

                                    
				[all]
</pre></body></html>
